<html>
<title> - SURFACE TRANSPORTATION REAUTHORIZATION: PROGRESS, CHALLENGES, AND NEXT STEPS</title>
<body><pre>[Senate Hearing 113-573]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-573

SURFACE TRANSPORTATION REAUTHORIZATION: PROGRESS, CHALLENGES, AND NEXT 
                                 STEPS

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                                    ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

93-415 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                        


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 7, 2014......................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     4
Statement of Senator Boxer.......................................     5
    Prepared statement...........................................     6
Statement of Senator Cantwell....................................    15
Statement of Senator Klobuchar...................................    17
Statement of Senator Johnson.....................................    19
Statement of Senator Markey......................................    22
Statement of Senator Fischer.....................................    23
Statement of Senator McCaskill...................................    26
Statement of Senator Blumenthal..................................    26
Statement of Senator Booker......................................    30
    Article dated May 5, 2014 submitted by Hon. Cory Booker 
      entitled, ``Clock Ticking on Hudson Crossings, Albany 
      Warns'' by Dana Rubenstein.................................    31
Statement of Senator Heller......................................    33
Statement of Senator Scott.......................................    35
Statement of Senator Blunt.......................................    37
Statement of Senator Ayotte......................................    40
Statement of Senator Nelson......................................    45

                               Witnesses

Hon. Anthony R. Foxx, Secretary, U.S. Department of 
  Transportation.................................................     7
    Prepared statement...........................................     9

                                Appendix

Response to written questions submitted to Hon. Anthony R. Foxx 
  by:
    Hon. John D. Rockefeller IV..................................    57
    Hon. Edward Markey...........................................    63
    Hon. Cory Booker.............................................    65
    Hon. John Thune..............................................    67
    Hon. Kelly Ayotte............................................    70
    Hon. Deb Fischer.............................................    71
    Hon. Roy Blunt...............................................    72

 
                        SURFACE TRANSPORTATION
                       REAUTHORIZATION: PROGRESS,
                       CHALLENGES, AND NEXT STEPS

                              ----------                              

                         WEDNESDAY, MAY 7, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. All right. This hearing is going to come to 
order, which, in view of the way that we've been up until now, 
is actually asking quite a lot.
    Mr. Secretary, we're incredibly happy to have you here. And 
I'm going to have a few words to say but, before that, I want 
to sort of buck up your spirits to know that there are some 
people up here who are fighting for what you want and what we 
need.
    So I'll make my opening statements and I think Senator 
Thune will be a few minutes late, but when he comes in he gets 
to give his. Well, this is going to be a very, very important 
conversation.
    Until recently, this Nation was the global leader when it 
came to building the greatest bridges, the greatest 
interstates, the greatest tunnels and canals and ports and 
railways. From coast to coast, we're reminded of those golden 
days of innovation and energy and vigor and innovation and 
investment that ultimately set our nation apart from the rest 
of the world.
    But those days of big ideas, bold ideas, bold investments 
and preparing for the future seem to be behind us. This nation, 
which once dared to dream, dared to lead, has retreated from 
the legacy of our predecessors. And it's a shameful and sad 
thing to observe. And it need not happen.
    We've gotten into a rut. We're unable to pass long-term 
funding transportation bills rooted in bold ideas. Instead, 
we're now focused on the nickels and dimes of our deficit and 
mainly because of the high political costs associated with 
proposing any kind of revenue increases. In other words, you 
know, win the election; that's what counts. Help the country; 
well, yes, if you've got time that'd be good. But don't take 
any chances on the election. That thinking is deep and thick in 
this Senate and in this Congress. And it's wrong and it's bad. 
It's humiliating for the individuals involved and for the 
country as a whole, obviously.
    Sadly, this short-sightedness has left us with a broken and 
increasingly second-rate transportation system. I didn't 
realize we were tenth in the world, overall. I just assumed we 
were second or third or first, but we're not. This has left 
commuters sitting in traffic for hours, daily, wasting precious 
time. It has left us with shaky bridges that have compromised 
the safety of our traveling public.
    Unfortunately, this is not the first time that I've 
described this dismal state of our nation's infrastructure. I 
gave a terrific speech yesterday in the Finance Committee, Mr. 
Secretary, but you missed it. Nor is it the first time I've 
expressed my dismay that we've grown accustomed to an ad hoc, 
short-term approach to funding our nation's infrastructure. By 
which I mean future from one inadequate funding bill to the 
next without much care for the long-term implications of this 
negligent way of governing.
    Collectively, the Congress has shown neither the will nor, 
the saddest part, the courage to put aside differences and work 
to find a long-term solution. This hurts everyone; it impairs 
commerce; it has soured our ability to do big things; it has a 
bad effect on young people. You know, we talk all the time 
about science, technology, engineering and math, and then we 
don't fund anything which those things can feed into and our 
ability to be a country that is innovating and investing and 
building projects that would define our future. That's what we 
were. That's what I grew up in in the 1960s and the 1970s, but 
no longer. Not now.
    Nations around the world have come to realize, just as we 
once did, that in order to grow their economies and increase 
competitiveness, they have to invest. And, yes, we did sort of 
redo the Panama Canal. Are our ports ready for the bigger boats 
that are going to come through the Panama Canal? No. But, we 
glory in the fact that we did what Teddy Roosevelt did and 
doubled its width and all the rest of it and that's sort of 
like the end of the problem. No. That's the beginning of the 
opportunity, except, we've done nothing with it.
    So whether it's the Panama Canal or building high-speed 
rail lines or adding capacity at ports, we all know the 
statistics of the state of our infrastructure are about as bad 
as it gets. And we know that and do nothing about it. We are 
unwilling to pay for what we so desperately need.
    Going forward, our economy, our global competitiveness and 
the safety of the traveling public will continue to suffer 
unless we change course almost immediately or as fast as can 
possibly be done by a relatively inept Senate.
    I'm a firm believer that the Federal Government has a huge 
and critical role to play in the upgrading of our nation's 
infrastructure. Who in heaven's name could dispute that? How do 
you think the interstates got built? How do you think the 
Appalachian Highways got built? How do you think bridges get 
built? I mean, it's ridiculous. And when I say infrastructure, 
of course, what comes to everybody's mind is roads. And they 
don't think about ports. They don't think about other aspects 
of all of this; trains and, all of that. They just think of 
roads. Well, if we could do our roads, that'll be enough.
    We need to lead. We need to create a coherent and unified 
mission for our Federal surface transportation programs. And in 
some places we need to grow those programs. This is not a 
partisan issue. Oh, it's so easy to make things partisan. And 
sometimes it's so stupid too, because it just isn't true. This 
is a fundamental economic issue. It's about our future.
    The Department of Transportation recently estimated that 
the Highway Trust Fund will run out of money in August and need 
an additional addition of general fund monies to get us through 
the busy construction season. Well, this is just another 
reminder of what we have already known, and that is what we 
have been discussing for years: We need more money for our 
infrastructure system. It's the only way we're going to begin 
to solve our problems.
    Now, they came up with this, what was this, new kind of 
money, which came in and went out of style in about two weeks. 
Bit something? What was it, Maria?
    Bitcoins, yes. I mean, I don't know, maybe the Department 
of Transportation can get into that business and pay for it. 
But, otherwise, there's no substitute for something called 
money.
    My colleague and friend, Senator Boxer, has already 
signaled that she is dead serious about passing a long-term 
transportation bill and I intend to support her every single 
step of the way. I consider nothing off the table.
    It is my hope that all of our colleagues will put aside 
their politics and their shortsightedness and join us in this 
effort. And I don't mean to disparage everybody. I mean, there 
are people in this room who'd do anything for more 
transportation but there are too many who wouldn't.
    Beyond dealing with repairs of our existing infrastructure, 
we are experiencing a fundamental shift in the transportation 
trends across the country. Vehicles are becoming more fuel 
efficient, young adults continue to drive less and public 
transportation ridership is at an all-time high. What this 
means is that we also need to rethink our approach to 
transportation investment. And it's not just all called roads 
by definition of what I just said.
    Congress, the Administration, the transportation community 
and the American people need to put aside the politics. And I 
don't mean Republican/Democrat so much as just that we can't 
spend. We can only cut; we can't spend. Even if it's really, 
really important; we can't spend anything. And part of that is 
timidity. We've got to put timidity aside. We've got to be able 
to break from the pack; do things which might take a couple of 
points off of our current standing in the polls.
    I, fortunately, am not running again. So I have no standing 
whatsoever in the polls but I still make this speech.
    None of the proposals, alone, will be the silver bullet for 
our infrastructure needs but we can conclude that the status 
quo is insufficient. The nation's transportation system should 
be something that unites us, leads to growth in our economy and 
creates jobs.
    I'm glad to have Secretary Foxx here today to discuss the 
Administration's proposal, which I applaud, that makes some 
bold changes in how to look at and fund something called 
``transportation at large.'' I was pleased the Administration 
proposed significant new funding to keep the country moving 
forward and to also allocate resources to where our 
transportation system sorely needs those resources; such as 
moving freight and improving rail service.
    I look forward to our discussion today almost as much as I 
do to the remarks of the Ranking Member and my esteemed 
colleague.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    I want to thank and welcome Secretary Foxx back to the 
Committee. We appreciate the opportunity to discuss with you 
the Administration's surface transportation proposal as well as 
other matters.
    There probably isn't anything that's more important in 
terms of our competitiveness as a nation than maintaining and 
improving our nation's infrastructure. And states like South 
Dakota, where I come from, rely on a top-quality transportation 
network to connect the vast distances between our communities 
and to help deliver critical agricultural products and natural 
resources via truck and freight rail to markets across the 
country and around the globe.
    Also important is the safety mission of the National 
Highway Traffic Safety Administration, which not only conducts 
vehicle safety research but also administers various grants to 
keep motorists safe. While we are approaching the expiration of 
the most recent surface transportation bill, or MAP-21, that 
was signed into law just less than 2 years ago, like the 
Chairman, I am looking forward to working with many of our 
colleagues on both the Commerce Committee and also the Finance 
Committee to ensure that we continue to have a robust surface 
transportation program.
    I'm glad the Administration has released its first ever 
surface transportation reauthorization proposal last week, 
especially in light of the anticipated shortfalls that are 
facing the Highway Trust Fund.
    As many in this room know, the Highway Trust Fund is 
projected to become insolvent later this summer. This 
shortfall, which is already being felt, will lead to delays in 
highway and safety improvements and reimbursements to states 
and to the construction sector.
    This is particularly problematic for cold weather states, 
such as South Dakota, that have a shorter construction season 
and a limited window to make decisions regarding which projects 
to select, bid, and ultimately begin construction.
    As Congress works to reauthorize our Nation's highway 
programs, the most important question we must answer is how we 
will pay for the program going forward.
    Since serving on the House Transportation and 
Infrastructure Committee during TEA-21, to our efforts with 
SAFETEA-LU, and most recently with MAP-21, I'm skeptical about 
the financing proposals the Administration has put forward to 
fund its $302 billion plan, especially the Administration's 
reliance upon one-time revenues from so-called corporate tax 
reform. This aspect of the plan is unlikely to secure broad 
support in Congress and fails to provide a longer-term funding 
solution for these vital programs.
    I'm also concerned by the Administration's proposal to fund 
additional programs, including new programs on passenger rail 
and vehicle safety and an expansion of TIGER, through the 
successor to the Highway Trust Fund. In a time of limited 
revenue, it would seem to me unwise to make new promises 
regarding programs that have the potential to divert funding 
from the core mission of the Highway Trust Fund.
    Nevertheless, there are some provisions I'm encouraged by, 
including the fact that the Administration has recognized my 
call for extending the deadline for Positive Train Control 
implementation. As we've discussed previously in this 
committee, delays at the Federal Communications Commission and 
other unforeseen events since enactment of the PTC mandate in 
2008, have prevented nearly all passenger and freight railroads 
from moving forward on implementation of this technology.
    Along with Senators Blunt, McCaskill and Pryor, I've 
introduced legislation, which is supported by other members of 
this committee, to extend the 2015 deadline in order to provide 
all railroads with a realistic time-frame for full 
implementation.
    There are now 14 bipartisan co-sponsors of this 
legislation, and I hope that our committee will address the PTC 
issue, yet, this Congress.
    Unfortunately, however, the Administration's proposal does 
not include a straightforward extension of the 2015 deadline, 
something that I think is necessary especially given the delays 
at the FCC. I hope to see such an extension included in any 
final bill reported out of the Committee and I look forward to 
working with my colleagues and with the Administration on this 
important issue.
    Mr. Chairman, I want to thank you again for holding the 
hearing and thank Secretary Foxx for being with us and for his 
testimony and look forward to discussing with him further what 
we can do to get a robust highway program up and running that 
secures not only the near-term needs that we have but also 
those that we have down the road well into the future.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Secretary Foxx, I would ordinarily call on you immediately, 
but we have the Chairman of the Environment and Public Works 
Committee who is sort of a big enchilada in this whole thing.
    And she wants to say something I hope.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you.
    Senator, I'll just take 2 minutes. First, to thank all the 
members of this committee who are really involved in helping us 
resolve the problems we face and, of course, the secretary.
    We're going bust in the trust fund in August and everybody 
seems to realize this. And if that were to happen, our states 
have already told us, every one of our states, that they will 
stop funding any new projects. And so, it would bring about a 
terrible economic situation for our businesses and our workers.
    So what I want to tell you today is some good news. The 
``Big Four'' of the EPW Committee, which consists of myself, 
Senator Carper, Senator Vitter and Senator Barrasso, Senator 
Fischer's a member, and there are some others that aren't who 
are members, we've agreed on a proposal for a multi-year bill. 
It's fiscally conservative in the sense that its current 
spending plus inflation, we don't go ahead of ourselves there 
because we have such a shortfall. It's $18 billion a year.
    So we're going to have a press conference or a press 
statement tomorrow. We will be putting our bill out at that 
time. So I wanted to announce that because this committee, 
under you leadership and Senator Thune, has a huge obligation 
to write part of this bill; which doesn't cross on our 
jurisdiction but you know the titles that you deal with. And 
also, of course, the Banking Committee has jurisdiction and 
also the Finance Committee has huge jurisdiction to figure out 
a pay-for to find that shortfall.
    So I just came here to thank you so much for doing this 
hearing today because every one of us, in each committee, has a 
lot of work ahead of us. And I will be there with you and 
Senator Thune, on this committee and all the colleagues, trying 
to reach a good agreement but quickly, because we don't have a 
lot of time.
    And the Administration's proposal, we're going over it to 
see what we can get done in bipartisan way. And that's my 
report. And I thank you.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Thank you, Mr. Chairman for holding this hearing today. I would 
like to welcome Secretary Foxx back to the Committee. We appreciate the 
opportunity to discuss with you the administration's surface 
transportation proposal as well as other matters.
    Maintaining and improving our Nation's infrastructure is absolutely 
vital to our country's economic prosperity. States like South Dakota 
rely on a top quality transportation network to connect the vast 
distances between our communities and to help deliver critical 
agriculture products and natural resources via truck and freight rail 
to markets across the country and around the globe.
    Also important is the safety mission of the National Highway 
Traffic Safety Administration, which not only conducts vehicle safety 
research, but also administers various grants to keep motorists safe. 
While we are approaching the expiration of the most recent Surface 
Transportation bill (MAP-21) that was signed into law just less than 
two years ago, like the Chairman, I am looking forward to working with 
my colleagues on both the Commerce Committee and also the Finance 
Committee to ensure that we continue to have a robust surface 
transportation program.
    I am glad that the administration released its first-ever surface 
transportation reauthorization proposal last week, especially in light 
of the anticipated shortfalls facing the Highway Trust Fund.
    As many in this room know, the Highway Trust Fund is projected to 
become insolvent later this summer. This shortfall, which is already 
being felt, will lead to delays in highway and safety improvements and 
reimbursements to states and the construction sector.
    This is particularly problematic for cold-weather states such as 
South Dakota that have a shorter construction season and a limited 
window to make decisions regarding which projects to select, bid, and 
ultimately begin construction.
    As Congress works to reauthorize our Nation's highway programs, the 
most important question we must answer is how we will pay for the 
program going forward.
    Since serving on the House Transportation and Infrastructure 
Committee during TEA-21, to our efforts with SAFETEA-LU, and most 
recently MAP-21, I am skeptical about the financing proposals the 
administration has put forward to fund its $302 billion plan, 
especially the administration's reliance upon one-time revenues from 
so-called corporate tax reform. This aspect of the plan is unlikely to 
secure broad support in Congress and fails to provide a longer term 
funding solution for these vital programs.
    I am also concerned by the administration's proposal to fund 
additional programs-including new programs on passenger rail and 
vehicle safety and an expansion of TIGER--through the successor to the 
Highway Trust Fund. In a time of limited revenue, it would be unwise to 
make new promises regarding programs that have the potential to divert 
funding from the core mission of the Highway Trust Fund.
    Nevertheless, there are some provisions I am encouraged by, 
including the fact that the administration has finally recognized my 
call for extending the deadline for Positive Train Control (PTC) 
implementation. As we have discussed previously in this Ccommittee, 
delays at the Federal Communications Commission (FCC), and other 
unforeseen events since enactment of the PTC mandate in 2008, have 
prevented nearly all passenger and freight railroads from moving 
forward on implementation of this technology.
    Along with Senators Blunt, McCaskill, and Pryor I have introduced 
legislation, which is supported by other members of this committee, to 
extend the 2015 deadline in order to provide all railroads with a 
realistic time-frame for full implementation.
    There are now fourteen bipartisan co-sponsors of this legislation, 
and I hope that our Committee will address the PTC issue yet this 
Congress.
    Unfortunately, however, the administration's proposal does not 
include a straightforward extension of the 2015 deadline, something 
which I think is necessary, especially given the delays at the FCC. I 
hope to see such an extension included in any final bill reported out 
of our committee, and I look forward to working with my colleagues and 
with the administration on this important issue.
    Thank you again Mr. Chairman for holding this hearing, and I look 
forward to Secretary Foxx's testimony.

    The Chairman. Thank you, Chairman Boxer. And your work is 
distinguished and aggressive and smart. You know the margins 
and how to work them.
    Mr. Secretary, no more speeches between us and you. Have at 
it.

         STATEMENT OF HON. ANTHONY R. FOXX, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Foxx. Thank you, Mr. Chairman.
    Chairman Rockefeller, Ranking Member Thune, and all members 
of the Committee, I want to thank you all for having me and to 
say a special word of thank you to Senator Boxer, to the Chair 
of the EPW Committee, for the work that you're doing with folks 
on a bipartisan basis to help solve this problem.
    At the U.S. Department of Transportation safety is, by far, 
our most important mission. We take this mission seriously and 
we appreciate the attention this committee has and will 
continue to devote to this important subject. It's an important 
one for all parts of our country and especially now.
    A week ago, in fact, one week ago this very hour, a train 
carrying crude oil from Chicago to Virginia derailed not far 
from downtown Lynchburg. The crash sent oil spilling into the 
James River and flames, stories high, ignited on the banks of 
that river causing the evacuation of a 20-block area. We're 
fortunate no one was killed let alone hurt. Back in July, as 
you remember, an oil train crashed outside of Quebec killing 
47. Something like that, unfortunately, could easily happen 
inside our borders too.
    We are at the dawn of an incredibly promising time for 
energy in America. Increased production is creating new jobs 
and more opportunity. But moving this oil is also creating more 
risk and greater danger. If America is going to be a world 
leader in producing this energy than we're going to have to be 
a world leader in safely transporting it as well. So today I've 
taken further action to ensure that we are.
    Today, I've released a safety alert advising shippers and 
energy companies to no longer use the DOT-111 tank car and to 
use a higher standard of car when transporting oil. This is 
consistent with my statements 4 weeks ago before the 
transportation appropriations subcommittee that, for purposes 
of transporting Bakken crude, the DOT-111 should be retrofitted 
or replaced. I've also signed an emergency order. It requires, 
by law, shippers and energy companies to identify the routes 
Bakken oil crude is traveling and to notify State Emergency 
Responders so they can work with communities that are along 
those routes. That way local police and fire departments can 
prepare. These are just the latest steps we've taken.
    Last week, we submitted a comprehensive rule to OMB that 
will address a variety of issues; new tank car standards, 
speed, proper classification, among others. The relevance to 
this hearing today is simply this: Even these safety measures 
will be insufficient if we do not prepare our rails, roads and 
communities by adding another important element, a first-rate 
infrastructure system.
    Over the next generation, we're going to not just be moving 
more energy. We're going to be moving more of everything; more 
people and more goods. By 2050, we'll have to move almost twice 
the amount of freight that we currently do. And whether we can 
do that safely is more of an open question now than it has ever 
been. Mostly because we have struggled to maintain 
transportation funding levels in recent years. In fact, today 
I've sent a letter to all State Departments of Transportation. 
It warns them that if action isn't taken, the Highway Trust 
Fund could become insolvent as soon as August. And if that 
happens, it will be near impossible for communities to keep 
their infrastructure safe and up to code.
    This is why we sent the GROW AMERICA Act to the Hill last 
week. Because, if we didn't, if we don't invest in our 
transportation system right now, it's easy to see a future that 
is full of even more crumbling roads, bridges, broken track and 
chokepoints. You can actually see this right now.
    Last month, I was in Nashville where there are four bridges 
that have reached the end of their useful life. And one has 
been shut down three times since last summer because concrete 
crumbles and falls onto the roadway below where drivers drive.
    GROW AMERICA could fix a bridge like this and keep 
travelers safe. It would do so not only by making the Highway 
Trust Fund solvent but by growing our transportation programs 
to accommodate our growing needs. The other side of this 
wouldn't just be a newer, safer, transportation system; it 
would be a transportation system that supports many thousands, 
if not millions, of new jobs. Both jobs in building our 
infrastructure and jobs in industries that are supported by it; 
industries like tourism and shipping. Especially shipping, 
because this includes the resources we need to strengthen 
America's freight network. It would also modernize how we fund 
transportation. For example, GROW AMERICA streamlines the 
approval and permitting process so projects could be built 
faster and cheaper but with the same quality.
    We believe there's room for agreement here, not just on the 
bipartisan reforms but also on funding, too. And we're 
particularly encouraged that members of both parties, like 
Chairman Dave Camp and Senator Boxer, have expressed their 
openness to pro-growth business tax reform as a pay-for.
    So I'll end my remarks there except to say that for more 
than half a century Congress has consistently recognized that 
as America grows so must our investment in transportation. And, 
in almost every case, each new surface reauthorization law has 
increased investment by 40 percent compared to the last law. 
And Congress has passed them with broad bipartisan majorities 
in both Houses. I see no reason why Congress can't do so again. 
America does not need another crisis. After all, we all take 
the same oath, an oath to protect this country and its people. 
And that's what investing in our transportation system does. It 
creates a sturdier, stronger, safer America.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Foxx follows:]

        Prepared Statement of Hon. Anthony R. Foxx, Secretary, 
                   U.S. Department of Transportation
    Chairman Rockefeller, Ranking Member Thune, and Members of the 
Committee, thank you for the opportunity to appear before you today to 
talk about the Administration's proposal to reauthorize the surface 
transportation programs, called the GROW AMERICA Act.
    Transportation is a critical engine of the Nation's economy. 
Investments in the national transportation network over the country's 
history, and especially the last half of the 20th Century, have been 
instrumental in developing the world's largest economy and most mobile 
society. However, before the end of this summer the Highway Trust 
Fund--which funds a significant portion of the construction and repair 
of our surface transportation system--is projected to become insolvent 
and just a few weeks later the authorities that underpin our surface 
transportation programs will expire. Without action, many States, 
tribal and local communities may be forced to slow or stop work on 
critical transportation projects that our Nation depends upon to move 
people, energy, and freight every day, putting jobs at risk and slowing 
investment in our future. This slow-down may happen well in advance of 
actual insolvency. Indeed, we have reports that many states are already 
re-thinking their investment plans due to the uncertainty coming from 
Congress.
    Additionally, it is critical that we boost infrastructure 
investment as we are not keeping pace with our growing economy, our 
growing population, and the traveling needs of the public. For example:

  <bullet> 65 percent of America's major roads are not in good 
        condition. One in four bridges need significant repair or 
        cannot handle today's traffic. 45 percent of Americans do not 
        have access to transit.

  <bullet> By 2020, the Highway Trust Fund's purchasing power will have 
        dropped by nearly half since 1990, even though the country's 
        population is projected to increase 30 percent.

  <bullet> Bringing existing transit assets up to a state of good 
        repair will require an annualized investment level of $18.5 
        billion through the year 2030, compared to the $10.3 billion 
        currently being spent per year.

    The Generating Renewal, Opportunity, and Work with Accelerated 
Mobility, Efficiency, and Rebuilding of Infrastructure and Communities 
throughout America Act, or GROW AMERICA Act, is a $302 billion, four-
year transportation reauthorization proposal that provides increased 
and stable funding for our Nation's highways, bridges, transit, and 
rail systems. The Administration's proposal is funded by supplementing 
current revenues with $150 billion in one-time transition revenue from 
pro-growth business tax reform. This will prevent a Trust Fund 
shortfall for four years and increase investments to meet national 
economic goals.
    The GROW AMERICA Act will provide States, tribal and local 
governments with the certainty needed to effectively plan and start 
construction on projects that will support millions of jobs over the 
next several years. It will also enable more transformative 
transportation projects that will improve the Nation's global 
competitiveness and mobility in communities across the country. 
Specifically, the GROW AMERICA Act will provide--

  <bullet> $199 billion to invest in our Nation's highway system. The 
        proposal will increase the amount of highway funds by an 
        average of about 22 percent above FY 2014 enacted levels, 
        emphasizing ``Fix-it-First'' policies and reforms that 
        prioritize investments for much needed repairs and improvements 
        to the safety of our roads and transit services, with 
        particular attention to investments in rural and tribal areas.

  <bullet> $7 billion focused on car and truck safety measures. The 
        proposal will also provide $7 billion for the National Highway 
        Traffic Safety Administration and Federal Motor Carrier Safety 
        Administration to improve safety for all users of our highways 
        and roads.

  <bullet> $72 billion to invest in transit systems and expand 
        transportation options. The proposal increases average transit 
        spending by nearly 70 percent above FY 2014 enacted levels, 
        which will enable the expansion of new projects that improve 
        connectivity, such as light rail, street cars, and bus rapid 
        transit, in suburbs, fast-growing cities, small towns, and 
        rural communities, while still maintaining existing transit 
        systems. The GROW AMERICA Act proposes a powerful, $5.1 billion 
        increase from FY14 enacted in investments to address public 
        transit's maintenance backlog to reduce bus and rail system 
        breakdowns; create more reliable service; and reduce delays 
        that make it harder for all commuters to get to work. The 
        proposal also includes the innovative Rapid Growth Area Transit 
        Program, which will provide $2 billion over four years to fast 
        growing communities for bus rapid transit and other multimodal 
        solutions to get ahead of the challenges caused by rapid 
        growth.

  <bullet> Improve project delivery and the Federal permitting process. 
        The GROW AMERICA Act will build on recent efforts to expedite 
        project approval timelines while delivering better outcomes for 
        communities and the environment. The proposal expands on a 
        series of successful efforts by the Administration to expedite 
        high priority projects and identify best practices to guide 
        future efforts without undermining bedrock environmental laws 
        or public engagement. Not only will important projects break 
        ground faster, but the increased level of transparency and 
        accountability will lead to delivering better environmental 
        outcomes, as the proposal will improve interagency coordination 
        by advancing concurrent, rather than sequential, project 
        reviews and will improve transparency of project reviews and 
        timelines through online ``dashboards.'' It will also increase 
        flexibility for recipients to use Federal transportation funds 
        to support environmental reviews, and help to integrate 
        overlapping requirements.

  <bullet> Tools and resources to encourage regional coordination and 
        local decision making. The proposal includes policy reforms to 
        incentivize improved regional coordination by Metropolitan 
        Planning Organizations (MPOs), which are local communities' 
        main voice in transportation planning. The GROW AMERICA Act 
        also strengthens local decision making in allocating Federal 
        funding so that local communities can better realize their 
        vision for improved mobility. High-performing large MPOs will 
        be granted control of a larger portion of funds under two 
        Federal transportation programs--the Surface Transportation 
        Program (STP) and the Transportation Alternatives Program 
        (TAP)--and these MPOs will also receive funds through a set 
        aside under the new Fixing and Accelerating Surface 
        Transportation (FAST) program.

    The GROW AMERICA Act will take critical steps to safeguard the 
traveling public. The Act addresses safety vulnerabilities on our 
transportation network--vulnerabilities that pose a potential threat to 
the health and welfare of all American workers and families. 
Specifically, the Act will--

  <bullet> Expand authority to protect the public from automobile 
        defects. The Act will strengthen safety regulators' ability to 
        hold automobile manufacturers accountable for defects that can 
        cost lives.

  <bullet> Take steps to improve truck and bus safety by streamlining 
        the Federal truck-and bus-safety grant programs to provide more 
        flexibility for states to take fast action to address regional 
        and evolving truck-and bus-safety issues.

    The U.S. transportation system moves more than 52 million tons of 
freight worth nearly $46 billion each day, or almost 40 tons of freight 
per person per year, and freight tonnage is expected to increase 62 
percent by 2040. The GROW AMERICA Act will make critical investments to 
help improve the safe and efficient movement of freight across all 
modes of transportation--highway, rail, port, and pipeline. Without new 
investment, supply chains degrade, hindering job growth and harming 
retailers, manufacturers, and the millions of American consumers who 
need their goods to be transported efficiently and affordably. 
Specifically, the GROW AMERICA Act will--

  <bullet> Provide $10 billion for a multi-modal freight program that 
        strengthens America's exports and trade. The GROW AMERICA Act 
        will help make critical investments to improve the efficiency 
        of the movement of goods throughout our transportation system 
        and help accommodate future growth, in part through providing 
        $10 billion over four years to establish a new multimodal 
        freight grant program to fund innovative rail, highway, and 
        port projects.

  <bullet> Align planning among the Federal Government, states, ports, 
        and local communities to improve decision-making. The GROW 
        AMERICA Act incentivizes states to collaborate and establish 
        long term freight strategic plans that will help inform a 
        National Freight Strategic Plan assembled by the U.S. 
        Department of Transportation that will serve as the basis for 
        how the Department can best support freight movement. 
        Additionally, the GROW AMERICA Act will give shippers and 
        transportation providers a real seat at the table for making 
        investment decisions.

    The GROW AMERICA Act will expand economic growth, and create jobs 
and new opportunities for Americans. The President is dedicated to 
enhancing opportunity for all Americans and U.S. businesses by 
investing in transportation projects that better connect communities to 
centers of employment, education, and other critical services. 
Specifically, the GROW AMERICA Act will--

  <bullet> Support ladders of opportunity to the middle class. Today, 
        45 percent of Americans lack access to public transportation, 
        limiting the options of many Americans to jobs, education and 
        other necessities. The GROW AMERICA Act will provide improved 
        access to safer and less expensive transportation options for 
        millions of Americans in part by investing $72 billion in 
        public transportation and expanding transportation options for 
        millions of Americans. This proposal includes $2 billion for an 
        innovative Rapid Growth Area Transit Program to provide new bus 
        rapid transit and other multimodal solutions for rapidly 
        growing regions. The GROW AMERICA Act includes $245 million for 
        workforce development to enhance the size, diversity, and 
        skills of our Nation's construction and transportation 
        workforce through collaborative partnerships with the U.S. 
        Department of Labor, States, and non-governmental 
        organizations.

  <bullet> Provide a significant investment to enhance safety and 
        modernize our rail infrastructure to meet growing market 
        demand. The Act will invest $19 billion over four years, 
        including nearly $5 billion annually for high performance and 
        passenger rail programs with a focus on improving the 
        connections between key regional city pairs and high traffic 
        corridors throughout the country. The Act will also improve 
        rail safety and provide certainty to states and local 
        communities by dedicating sustained funding to make the 
        transportation investments necessary to improve our 
        infrastructure and support our economic growth. The Act also 
        builds on current investments to vastly improve the system in 
        areas ranging from Positive Train Control (PTC) implementation 
        to enhancing flexibility in financing programs that will better 
        enable the rehabilitation of aging infrastructure.

    The GROW AMERICA Act will provide more bang-for-the-buck through 
innovative project finance and delivery improvements. In a time of 
tight fiscal and budgetary constraints, the President's proposal 
includes a number of measures to ensure that the American public is 
getting the most out of Federal transportation infrastructure 
investments that lead to better outcomes for all Americans. 
Specifically, the GROW AMERICA Act will--

  <bullet> Utilize competitive funding to spur innovation. The proposal 
        will provide $5 billion over four years--an increase of more 
        than 100 percent--for the highly successfully TIGER competitive 
        grant program and $4 billion embedded in the highway and 
        transit requests for a competitive grant program called Fixing 
        and Accelerating Surface Transportation (FAST). Modeled after 
        the Department of Education's Race to the Top program, FAST 
        will reward States, Tribes, and MPOs that adopt bold, 
        innovative strategies and best practices in transportation that 
        will have long-term impact on all projects across the 
        transportation programs.

  <bullet> Incentivize cost-effective investments. The proposal will 
        strengthen the performance incentives to maintain safety and 
        conditions of good repair, and expand research and technology 
        activities in order to improve the productivity of our 
        transportation systems, thereby increasing taxpayer return on 
        investment.

    <bullet>  Provide $4 billion to attract private investment in 
transportation infrastructure. The Transportation Infrastructure 
Finance and Innovation Act (TIFIA) program leverages Federal dollars by 
facilitating private participation in transportation projects and 
encouraging innovative financing mechanisms that help advance projects 
more quickly. The GROW AMERICA Act calls for $4 billion in funding over 
four years, which could support up to $40 billion in loans for 
transportation projects. The GROW AMERICA Act will strengthen the 
Railroad Rehabilitation and Improvement Financing (RRIF) Program by 
allowing the Department to reduce the cost of obtaining a loan in some 
cases, making RRIF more accessible to short line and regional 
railroads. The proposal will raise the cap of Private Activity Bonds 
(PABs) to $19 billion, making room for more projects considering a 
public-private partnership approach to be able to take advantage of 
this cost-saving tool.

    The Administration proposes to fund the GROW AMERICA Act through a 
pro-growth, business tax reform, without adding to the deficit. The 
President's Budget outlined a proposal to dedicate $150 billion in one-
time transition revenue from pro-growth business tax reform to address 
the funding crisis facing surface transportation programs and increase 
infrastructure investment. This amount is sufficient to not only fill 
the current funding gap in the Highway Trust Fund, but increase surface 
transportation investment over current authorized levels by nearly $90 
billion over the next four years. When taking into account existing 
funding for surface transportation, this plan will result in a total of 
$302 billion being invested over four years putting people back to work 
modernizing our transportation infrastructure. We believe that a 
comprehensive approach to reforming our business taxes can help create 
jobs and spur investment, while ensuring a fairer and more equitable 
tax system that eliminates current loopholes that reward companies for 
moving profits overseas and allow them to avoid paying their fair 
share. While we are putting forward this pro-growth financing plan to 
encourage bipartisan efforts to support a visionary infrastructure 
plan, we are open to all ideas for how to achieve this important 
objective, and will look forward to working closely with this Committee 
and all Members of Congress of both parties on a solution that will 
invest in more job creating transportation projects.
    Thank you and I look forward to your questions.

    The Chairman. Thank you, sir.
    I'm going to ask the first question and, everybody, we'll 
stay it at 5 minutes. And everybody is going to get a chance to 
ask what they want.
    We have closed down the government. We talked about fiscal 
cliffs. August 29, funding from the Highway Trust Fund stops. 
What will be the effect in our states in terms of projects? 
Number one. And, number two, in the instinct to plan for other 
continued needed projects?
    Secretary Foxx. Mr. Chairman, the short answer is that we 
will start to feel the effects of the Highway Trust Funds 
insolvency before August. June and July is primetime for State 
DOTs to start letting contracts. And facing the kind of 
uncertainty that is ahead of us, many of those contracts will 
not be signed which will mean work will not go forward. In some 
cases, projects will be slowed down and estimates are that we 
stand to lose about 700,000 jobs immediately as a result of 
this trust fund moving into insolvency.
    On the question of planning, I would say that is also 
something that has been a challenge for many State DOTs and 
local project sponsors. Congress, over the last five years, has 
passed 18 continuing resolutions and nine extensions. And the 
cumulative effect of these short-term measures has been that, 
at the state and local levels, the project pipeline is slowing. 
Folks aren't spending the tens of millions of dollars it takes 
to even plan a project because they don't know whether the 
project can actually get done.
    And so, this will be more of the same if we continue to 
drift toward insolvency this summer, sir.
    The Chairman. To follow up on that, we have been building 
something called Appalachian Corridors in Appalachia since 
1965. And, we've got one Corridor, called Corridor H, which is 
not in the newspapers a great deal because not a lot is 
happening to it. But, if it connects up with I-66, as it can in 
about 50 miles, if 50 miles are completed, it will take two-
thirds of the land mass of West Virginia, which is not very 
large, and change all of their economic prospects for the 
better.
    So, if we're going to run out of money, the psychology of 
planning ahead disappears. Just like, if people don't think 
that there is a place for them in some kind of industry, they 
don't gear up for it. The psychology of planning and working is 
mixed in with the psychology of spending or not spending; 
right?
    Secretary Foxx. That's correct, sir.
    The Chairman. Those are my two questions for the moment.
    Distinguished Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Secretary, the Administration's proposal would increase 
funding for transit by 70 percent, for rail programs by 243 
percent, but it would only increase highway funding by 21 
percent compared to current levels. I'm wondering what the 
reason is for that discrepancy? We've always thought about the 
highway bill, the Highway Trust Fund, being principally about 
highways.
    Secretary Foxx. Sure.
    Senator, if you take a look at our proposal, it's a $302 
billion proposal over 4 years; $199 billion of it goes directly 
into highways. And we suspect that with the advent of 
additional discretionary competitive programs that a 
substantial amount of the additional spending will also go into 
highways.
    But there are reasons why we've taken the approach that 
we've taken. And, primarily, it is that our country is growing. 
By 2050, we're expecting 100 million additional people and 14 
billion additional tons of freight that we'll have to move 
around this country. And, because of that, we've got to have a 
multi-modal approach and our proposal is a recognition of that.
    So what I would say is that, in absolute dollars, the 
lion's share of this money is still going to go into our 
highway system, which we obviously have critical repair needs, 
critical new capacity needs, but it also recognizes that we 
have growth happening in our metro areas. We also have rural 
connections through transit and through rail that badly need to 
happen whether it's passenger or freight.
    Senator Thune. Since I've been associated with highway 
bills in the time I've been in the House and Senate, we've done 
three. This would be four. It has always been funded by the 
user fee. I think it was pointed out earlier, Senator 
Rockefeller and I, and some others on this Committee, also 
serve on the Finance Committee. We had a meeting on the Finance 
Committee last year in which a couple of the members on our 
side--some are more conservative members--expressed support for 
an increase in the user fee, in the fuel tax. The 
Administration has, in testimony in front of this Committee and 
others that I've been involved with in my time in the Senate, 
by your predecessor that that's something the Administration 
would not support.
    And the reason I raise that question is because the 
corporate tax reform that's used to fund this proposal is 
really one-time revenues. It's repatriation of funds. It's not 
the long-term solution that we're all talking about. It 
actually creates a steeper cliff at the conclusion that would 
have to be a filled up with a more permanent source of 
financing. So, the question I have for you: is the 
Administration open to or going to close the door on a user 
fee, a fuel tax, as a way of more permanently funding the 
highway program as opposed to something like this which is 
short-term or limited?
    Secretary Foxx. Well, I appreciate the question.
    And our proposal is our proposal. We believe that it 
strikes the right balance and actually adheres to many of the 
principles that we've heard articulated from members of 
Congress on both sides of the aisle. That is a desire not to 
raise rates and a desire to avoid adversely impacting deficits. 
This proposal, as we've articulated it, would accomplish that. 
And that is why we've put it together the way we have.
    At the same time, we've also said that if there are other 
ideas that emerge from the Hill, we would listen to those 
ideas. And that's still true. I would point out, however, that 
the fuel tax has been on the table for quite a while. And even 
more so, if you look at the overall curve in the fuel tax, the 
curve is downward facing. And that's because of more efficient 
vehicles and the fact that the tax itself hasn't been indexed. 
So it's a tool that has been available to Congress over the 
last several years. We will continue to keep our ear to the 
ground and to listen for other ideas that may emerge.
    Senator Thune. But it is a tool. It has been available to 
Congress, but it's very difficult to feature a bill passed by 
Congress if the Administration has taken a hard stand saying 
I'm not going to sign a bill or entertain a financing mechanism 
that includes a user fee in increasing the gas tax. I mean, 
that's basically, in front of this committee, what position the 
Administration has taken.
    I'm just curious because at some point we've got to find a 
long-term solution. And there are some of us who come from 
rural states where toll roads and vehicle miles traveled 
solutions just don't work. But I guess the purpose for the 
question is to find out if the Administration--if that's a 
position they will still adhere strongly to, or if they are 
open to consider that as a potential way of financing the 
highway program into the future as it has been financed in the 
past.
    Secretary Foxx. Again, we believe our proposal meets a lot 
of the principles that many have articulated. We think it is 
the right way to go particularly given the urgency of the 
moment and the fact that we have, even the last heroic effort 
to get a reauthorization bill done, was a 2-year bill. That 
said, as I said before, our ears and our minds are open to what 
emerges from the Hill. We make no representations about how the 
Administration will ultimately approach what comes out but we 
certainly want to be in the discussion and at the table with 
you.
    Senator Thune. You would not rule it out?
    Secretary Foxx. We are listening to what Congress says 
collectively.
    Senator Thune. That's what your predecessor said except 
that he ruled it out.
    Secretary Foxx. At least we're consistent.
    Senator Thune. Except that he ruled it out.
    I have one more quick question, Mr. Chairman.
    The Chairman. And I'm with you----
    Senator Thune. OK.
    The Chairman.--on the way you tried to pin him down there 
and he wouldn't answer.
    [Laughter.]
    The Chairman. That's called the influence of OMB.
    Senator Thune. I will.
    The Chairman. You're better than that, Mr. Secretary.
    Senator Thune. I can come back to this later.
    The Chairman. No, go ahead.
    Senator Thune. Well, this has to do with what happens if we 
don't fix this thing. And I hope that we do. We need a fix on 
this and I hope we can come up with a solution.
    But what, if any, consideration has been given to ensuring 
that, if we have to fund projects and you're looking at how to 
distribute funds, that a large project in one state doesn't 
affect reimbursement for others in other states? Is the fact 
that some states have shorter building seasons a factor that's 
being considered in terms of how you look at that?
    Secretary Foxx. In the event that we do reach insolvency, 
sir?
    Senator Thune. Right.
    Secretary Foxx. Yes.
    We, in the past, when this issue has been in front of the 
department, have basically worked with each state to identify 
what the great challenges are within that state. Invariably, 
there will be some states that have greater capacity to manage 
a short fall than other states and that will certainly be taken 
into account based on past history. And, our desire and our 
work will be to hold as few states harmless as we can based on 
the resources we have, but it will be a tough issue when 
there's less money and almost no money to meet our obligations.
    Senator Thune. OK.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today, and 
thank you for the Administration's leadership on the proposal 
that you brought in to fill the Highway Trust Fund including 
$10 billion in dedicated Multimodal Freight program. We very 
much appreciate the fact that not only are you dedicating 
investments toward moving freight in America that you also are 
looking at ways to make sure that we prioritize this from a 
funding perspective. And so, we very, very much appreciate 
that.
    And I appreciate it, in your opening statement, about the 
railcar safety issue. All across my state people are having 
this debate in our local communities. Practically every 
newspaper in my state has editorialized on the subject. I think 
the Spokesman Review probably said it best. One that said, 
``So, Spokane and communities across the Northwest are at the 
mercy of a lumbering Federal bureaucracy. We can draw up 
disaster plans. We can conduct drills. But, after that, we just 
have to cross our fingers and watch the trains go by.''
    And the reason why I brought the map up is because this is 
the train route. And as you can see, the train route goes 
through every major city in the Northwest. It would not be a 
totally different story, obviously, if it went through a more 
rural community but it's hitting every urban center of our 
state.
    So this is a big issue for us and people obviously want to 
know. Today, you're announcement will be helpful and giving 
transparency on emergency responders being able to access that 
information about what's being carried and when. So that's a 
positive step in the development.
    But I guess my question is, if people don't comply with the 
previous voluntary standards that you set out or this response, 
is there any penalties for not responding to that if you're a 
shipper?
    Secretary Foxx. Well, let's take both.
    The safety advisory is not law. And that is what we are 
issuing today; to urge not using DOT-111s for the transport of 
Bakken crude oil.
    Senator Cantwell. And when should they be phased out?
    Secretary Foxx. Well, we are under the rulemaking process, 
currently. We submitted to OMB last week a comprehensive 
approach to this. The rule is still under review but, what I 
would say is that we are moving as expeditiously as we can to 
provide certainty to the communities you just talked about as 
well as to industry. And as soon as that rule is out our 
position on the timeline will be known.
    Senator Cantwell. Well, I would just say this: I think my 
communities are thinking you're thinking more about industry 
than thinking about communities. And that is, if you look at 
what previously happened with the incidents and, now, what just 
happened in Lynchburg--and I get that this is a challenging 
question at where to draw the line. But, if we know that we 
want to get rid of these carriers that we don't think are a 
safe transport vehicle for the Bakken oil and we think it's 
unsafe, than we should come up with a date in certainty.
    Making it voluntary, in my opinion, isn't going far enough. 
And to think now, from the Lynchburg situation, that one of the 
cars that may have derailed or exploded might even be a newer 
car, which may pose a question to us; is the newest car going 
to be safe enough?
    Again, for these communities in my state, huge populations, 
a lot of transportation going through there. Just knowing that 
they're coming through there isn't going to be enough. And so, 
I would urge, DOT to--when you look at the, what is it, 8,000 
percent increase and the amount of product now being carried. 
So what's happened is an explosion of product being carried 
through this area and not the right response in safety 
regulations.
    And so, we're urging a mandatory date for getting rid of 
these DOT-111 cars and a mandatory rule on safety. Because we 
just think it's too much for people to ignore the voluntary 
agreement without policing with so many people at risk as we 
saw in Canada and as we saw in Lynchburg and as we're seeing in 
other areas.
    So I thank you, though. I thank you for your 
responsiveness.
    Secretary Foxx. Thank you.
    And, Senator, rest assured that we agree with you. The 
voluntary measures that we've undertaken, by virtue of the call 
to action that we did with industry a few months ago, were 
intended to be interim steps until a rule was actually 
promulgated and finalized.
    And, again, we're working as hard and fast as we can to get 
that done. We know the certainty matters. And it is because 
communities across America have had concerns about this that we 
issued the emergency order which is binding on the industry to 
notify communities as to what is moving through their 
communities when it comes to this order.
    Senator Cantwell. Will your rulemaking be done by the end 
of the year?
    Secretary Foxx. It is my intention that it will. And I hope 
to have it done sooner than that if we can.
    Senator Cantwell. Thank you.
    Secretary Foxx. Yes.
    The Chairman. Thank you, Senator.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    But I did want to bring up the fact that we lost Jim 
Oberstar this week. Congressman Oberstar died in his sleep and 
suddenly. And, as you know, he loved transportation. And he 
talked about it.
    The Chairman. He loved transportation so much, and I 
apologize to my colleague----
    Senator Klobuchar. Yes.
    The Chairman.--he came, several times, to West Virginia 
Appalachian Regional Commission meetings to help.
    Senator Klobuchar. Yes.
    The Chairman. And he had nothing to gain from it.
    Senator Klobuchar. And for those members that never worked 
with Jim, he's Minnesota, Northern Minnesota, Congressman; 47 
years of experience in transportation, 11 as a staffer and 36 
as a Member of Congress. So, anyone that drives over roads and 
bridges this week should think of Jim. And, mostly, anyone that 
goes on the bike trails.
    He was ahead of his time, Secretary Foxx, and really 
visionary about bike trails and how much Americans would use 
bike trails. So we miss him very much in our state. And his 
funeral is tomorrow.
    I wanted to talk with you, just following up on Senator 
Cantwell's questions, on rail. I know she talked about some of 
the safety issues and other things but one of the things that 
we're really concerned about right now is the service delays 
and interruptions. We have so much use of rail in the upper-
Midwest with oil and with other energy sources that some of our 
agriculture producers are really having issues with accessing 
rail. And I wanted to make sure you were aware of that as well 
as some of the pricing issues.
    Secretary Foxx. Yes, I am.
    And I know that the Surface Transportation Board has 
developed some preliminary covenants with industry to try to 
release some of those bottlenecks. But this is also 
underscoring part of what I said at the outset, which is that 
we have growing freight activity in this country. And without 
substantial, new, more robust investments in infrastructure, 
we're going to find ourselves more bottlenecks, more congestion 
and more delays. And that is one of the reasons why a 
substantial investment today is so important.
    Senator Klobuchar. Very good.
    And I would echo what some of my colleagues talked about 
with the Highway Trust Fund and how important that is. I know 
that Senator Boxer has been working on that.
    I brought up trails and I worked hard with several of my 
colleagues to ensure that the Recreational Trails Program was 
preserved in MAP-21. As you know, Recreational Trails is a 
foundation for our state trails across the country. And I 
recently sent a letter with Senators Risch, Burr and Shaheen 
and 20 other senators, urging the program's continuation in the 
next transportation reauthorization bill. And I wanted to get 
your thoughts on our TP program and its importance to trail 
users.
    Secretary Foxx. Well, I was in Indianapolis just a couple 
of weeks ago. And this is a city that has managed to develop 
substantial trails that are starting to bring population into 
the city. And that population is using the existing grid 
networks within that city, leveraging existing investments in 
infrastructure, so that they're avoiding some of the green-
filled development that can sometimes result in loss of 
environmental integrity in an area and also add cost.
    And so, we're seeing in this country a resurgence of these 
types of investments that improve quality of life that attract 
population, leverage existing infrastructure and help 
communities grow. And it's a very important part of the life of 
communities across America.
    Senator Klobuchar. And we appreciate it, by the way, your 
visit to Minnesota; not to go from Indianapolis to Minneapolis 
but that was the second state you visited. And we do want to 
invite you back in June for the opening of the Central Corridor 
Light Rail; something Mr. Rogoff has worked very hard on, that 
links Minneapolis and St. Paul. So check your calendar for 
that.
    And also, as you and I discussed, some of the really needy 
transportation programs and projects across our state, 
including Highway 10 and Anoka, but I just wanted to end, in my 
last minute or so here, to ask you about NHTSA.
    Senator McCaskill chaired a hearing that I'll never forget, 
the hearing about the GM recall and what was happening there. 
And we have a woman in Minnesota, Natasha Weigel from Albert 
Lea, who was just going down the road and basically stalled 
out. And her car went 70 miles per hour and veered off the 
road, slammed into a grove of trees. She was killed, her friend 
driving the car was killed, and one of the things that I 
realized, as I went through the evidence and listened to the 
hearing, was just that you had over 200 complaints to NHTSA 
about this ignition problem. And when I heard about how it was 
first viewed as a problem with the airbags, there was, 
nevertheless, a lot of evidence there about the ignition 
switches.
    And I remain deeply concerned about NHTSA's ability to spot 
these trends. How do we fix it? Do you think 11 staff members 
are sufficient to review the more than 40,000 vehicle safety 
complaints NHTSA receives every year?
    Secretary Foxx. Thank you for the question.
    And, obviously, the GM recall issues remain under 
investigation by NHTSA. I have also asked our Inspector General 
to do a self-diagnosis on this to assure ourselves that we're 
either doing everything we can to catch these things early or 
if there are additional steps that we need to take going 
forward, that those steps will be taken so that this type of 
activity doesn't happen again.
    But, having said that, NHTSA is an agency that has had, 
over the last 7 years, 1,200 or so recalls affecting 95 million 
vehicles. And we, as an agency, have prided ourselves on the 
effectiveness of our safety standards, which set the standard 
for the world quite frankly. If there's a better way, going 
forward, to prevent the types of injuries and deaths that have 
occurred in this situation, we will find it. And that's our 
mission as an agency. And we always endeavor to get better. And 
if we can, we will.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you, Senator.
    Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, how many people have been killed in these 
rail accidents? In the most recent ones?
    Secretary Foxx. Well, in the most recent ones, we have not 
had deaths in the U.S. but in Canada there were 47.
    Senator Johnson. Those are all oil, transporting oil; 
correct?
    Secretary Foxx. That's correct.
    Senator Johnson. There's another way of transporting oil; 
isn't there?
    Secretary Foxx. There are many ways. Yes, sir.
    Senator Johnson. I mean, what's the most efficient; 
pipelines?
    Secretary Foxx. There are lots of ways.
    Senator Johnson. Has there been anybody killed in a 
pipeline accident recently?
    Secretary Foxx. There have been people killed in pipeline 
accidents.
    Senator Johnson. Recently? Forty-six?
    Secretary Foxx. I have to ask our PHMSA Administrator.
    Senator Johnson. Is the Administration at all, 
considering--I realize Keystone XL Pipeline is a different 
issue--but are we considering other pipelines to take some of 
the burden off the rail system?
    Secretary Foxx. We are modal-agnostic at DOT. If there is a 
mode to move something, we try to make sure the safety standard 
is met. So, however it moves, our job is to make sure it moves 
safely.
    Senator Johnson. But would part of your job, also, would be 
to make sure it moves as safely as possible and cost 
effectively for the economy?
    Secretary Foxx. Well, our job is to ensure that however 
stuff is moving it's moving safely, sir.
    Senator Johnson. I believe I'm correct that most of the 
capital expenditure for freight rail is actually paid by the 
freight companies themselves, the rail companies themselves; 
isn't it?
    Secretary Foxx. If you take out the cost of the 
infrastructure that they ride on.
    Senator Johnson. So educate me on that. So what does the 
Federal Government pay in terms of infrastructure on the 
freight rail system?
    Secretary Foxx. Well, it depends, for the short line rail 
systems we have historically provided support to ensure that 
the track is safe. The Class 1 railroads tend to self-fund 
their track more so than the short line railroads do.
    Senator Johnson. So, out of your proposed budget here, how 
much would be spent on freight rail systems?
    Secretary Foxx. Well, we would propose to put $19 billion 
into rail.
    Senator Johnson. That's primarily passenger rail; right?
    Secretary Foxx. Primarily passenger rail but, because in 
many cases passenger rail and freight rail are running on the 
same track, there will be benefits to freight rail as well.
    Senator Johnson. OK.
    I was a little confused because you seem to be making the 
case that a lot of the increase in spending here is about the 
increased rail traffic for freight, but it's really the freight 
companies that, the rail companies, that pay for that 
themselves.
    Secretary Foxx. Well, a lot of the----
    Senator Johnson. I mean to a great extent. It's primarily 
their capital expenditure.
    Secretary Foxx. There is no substitute for predictable, 
sustained, Federal investment in our infrastructure system. 
And, when it comes to non-Class 1 rail, we have some 
significant safety and efficiency needs in rail.
    Senator Johnson. Current transportation spendings are, 
what, about $45 billion?
    Secretary Foxx. Roughly.
    Senator Johnson. And the gas tax revenues are about $34 
billion? So we've got about $11 billion per year deficit?
    Secretary Foxx. I think it's closer to about 15.
    Closer to $18 billion, sir. Sorry.
    Senator Johnson. OK.
    So what is the outlay, then, versus the revenue?
    Secretary Foxx. I would say we are generating about $34 
billion through the gas tax. And so, if you add, about $52 
billion.
    Senator Johnson. OK. The number I have, about $45 billion.
    OK, so you're going to propose increasing that to about $75 
billion per year. You know, so you're going to be spending more 
than about a $40 billion deficit?
    Secretary Foxx. Well, we're trying to both address the 
shortfall in the Highway Trust Fund but also to increase 
investment in our Nation's infrastructure.
    Senator Johnson. I understand.
    By the way, that's a top priority.
    Are there any discussions within the executive branch 
there, interagency, about prioritizing the spending as opposed 
to looking at increasing taxes? Because I actually think 
infrastructure spending is a high priority of government. Who 
else is going to do it? States and the Federal Government?
    Any discussion in terms of taking, you know, for example, 
some of the GAO reports where you have duplicated programs and 
maybe take some of that lower priority spending, some of the 
duplicated spending, and allocate that toward transportation 
spending in infrastructure?
    Secretary Foxx. Well, it's an interesting question that you 
raise because we have had experience in this Administration, in 
the DOT, with improving the efficiency by which projects move 
through our permitting process.
    Senator Johnson. I do know there are about 55 duplicated 
programs in DOT. Have you analyzed those? And have you canceled 
any of those programs?
    Secretary Foxx. Well, we are working as hard as we can to 
ensure efficiency. And there are efficiency provisions in our 
proposal that focus on streamlining and making sequential 
permitting processes more concurrent.
    Senator Johnson. But, I mean, specifically to Senator 
Coburn's wastebook, are any of those duplicated programs within 
the Department of Transportation, have any of those been 
eliminated?
    Secretary Foxx. I'd have to take a look, sir, and respond 
back to you.
    Senator Johnson. OK, I appreciate that answer. Thank you.
    Thank you, Mr. Chairman.
    Secretary Foxx. Thanks.
    The Chairman. Thank you, Senator Johnson.
    I warn members that we have a 3:45 vote or two. And so, we 
want to get everybody included.
    Senator Markey to be followed by Senator Fischer.
    It was Senator Fischer followed by Senator Markey, but he 
came in at the last moment; reclaimed his place.
    Senator Fischer. Thank you, Mr. Chairman.
    I'm sorry, Senator Markey.
    The Chairman. Oh.
    Senator Fischer. Who are we going with here?
    The Chairman. He actually came in.
    Senator Fischer. Oh, OK.
    The Chairman. OK.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Mr. Secretary, I want to raise some concerns about what is 
not in the Administration's transportation bill proposal. And 
what is not in the Administration's transportation bill is a 
single measure that would prevent a car company from keeping a 
dangerous safety defect for a decade in the future from being 
public.
    We have seen so many reports about how GM treated consumers 
who complained that their cars shutdown on their own even after 
GM knew it had a problem. At the time that Benjamin Hear was 
killed in a Pontiac G5 in December 2009, GM had conducted five 
internal studies into the ignition switch problem. But GM still 
told his mother that the accident wasn't related to a safety 
defect.
    So it should be clear to everyone here that it is much more 
difficult to cover up evidence and dismiss consumer complaints 
if the evidence is publically available. That is why I 
introduced the Early Warning Reporting System Improvement Act 
along with Senator Blumenthal to greatly increase the 
information made available to the public about potentially 
defective vehicles.
    Our bill calls for automobile companies to automatically 
provide NHTSA with copies of the documents that first made them 
aware of a fatality involving their cars and for NHTSA to make 
those documents available to the public. One way to illustrate 
just why our bill is needed is to look at what GM provided to 
NHTSA, when NHTSA took the unusual step for NHTSA of asking for 
more information about some of the GM Cobalt fatalities it 
learned about.
    I'd like to submit this document for the record. This is a 
document tracking this relationship between GM and NHTSA on the 
Cobalt issue.
    [The information referred to is contained within Committee 
files. Also available at www.markey.senate.gove/imo/medic/doc/
Request
toGMfromNHTSA2007NHTSA-MARKEY%202.pdf]
    Senator Markey. By the time NHTSA did ask for more 
information, what GM submitted to NHTSA in 2007 proves that GM 
knew that the contractor NHTSA used to investigate the accident 
that killed two Wisconsin teenagers was doing so because of 
concern that the airbags had not deployed. Even more 
shockingly, GM also sent NHTSA a February 2007 analysis and 
reconstruction report done by the Wisconsin State Patrol 
Academy that found that the ignition switch had turned the 
engine off at the time of the crash preventing the airbags from 
deploying. The report also references other reports of similar 
problems that the Wisconsin investigators uncovered.
    We already know what happened next. Nothing. NHTSA didn't 
begin a defect investigation; GM didn't recall the vehicles; 
and these documents remained secret for years. They're being 
released publically. Publically, for the first time today; this 
report that I have in my hand. If they had been automatically 
provided to NHTSA, and if NHTSA had made them public, 
consumers, our auto safety experts, could have identified these 
defects much sooner and prevented additional deaths and 
injuries.
    Secretary Foxx, will you support the language that Senator 
Blumenthal and I are asking to require the documents that first 
alerts automakers to a fatality involving their vehicles be 
provided to NHTSA and made publically available?
    Secretary Foxx. Senator, I will certainly take a look at 
the bill and I will also offer our team to provide technical 
assistance to you and to Senator Blumenthal should you wish to 
enter that conversation as this proposal moves forward in 
Congress.
    Senator Markey. Conceptually, do you have any problem with 
the information being made public when an accident occurs that 
leads to a fatality that the information be sent to NHTSA? Do 
you have any problem with that?
    Secretary Foxx. Well, I think in the past there've been 
several challenges including not the least of which being 
individual privacy. But, I think there's some promise to what 
you're proposing and I would offer what I've just said, 
technical assistance, and I'll take a look at the bill.
    Senator Markey. If the privacy issues are overcome and it's 
just generic information that's passed on, would that then 
alleviate your concern and could you then support?
    Secretary Foxx. I understand what you're driving at. I 
think it's a laudable goal. I look forward to taking a look at 
the bill.
    Senator Markey. So you're not making a commitment?
    Secretary Foxx. I'm not making a commitment right now, sir.
    Senator Markey. OK.
    Well, I think, obviously here, that we've had a huge 
problem at NHTSA and we've had a huge problem within the auto 
industry. If this information had been made public, we could've 
avoided this entire mess that GM is going through right now. 
And I think it's imperative for the Administration to provide 
this information from the auto industry to NHTSA so that it is 
there in the public domain so that we can avoid this 
catastrophe which is effecting hundreds of, if not more, 
families all across our country.
    And I think that we cannot allow automakers to keep the 
very same accident report details secret in the future. And I 
just wish that we were hearing a more affirmative answer from 
the Administration on this. I just think that we cannot go 
through this whole situation and not have an answer for the 
American people.
    I thank you, Mr. Chairman.
    The Chairman. I thank you, Senator Markey. And you can 
include me in that group.
    Senator Markey. Thank you.
    The Chairman. Senator Fischer.
    I'm sorry. I apologize.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Well, thank you, Mr. Chairman. I do thank 
you for holding this----
    The Chairman. Senator Markey has been here for 112 years.
    [Laughter.]
    The Chairman. He has a lot of seniority.
    Senator Fischer. But on this committee I think I have 
seniority, too.
    [Laughter.]
    Senator Fischer. But I do thank you for holding this 
hearing.
    Senator Markey. I am called junior for the first time in 40 
years. I love it. I love it.
    Senator Fischer. Good deal. Thanks.
    Good to see you, Mr. Secretary.
    Secretary Foxx. Good to see you, Senator.
    Senator Fischer. I know you're aware of the issues that we 
were having in Nebraska with the Federal Highway Administration 
and also with the whole NEPA process.
    I don't know if you've heard the updates on where we are 
there but, you know, the concern was just the process causing a 
higher cost, more time, projects not getting done.
    I would like to tell you, though, that the Acting 
Administrator, after meeting with me and we went over a lot of 
these different problems and issues, traveled to Nebraska; had 
meetings; things are moving along; we're forming an action 
plan; and some things are moving forward. So I wanted to keep 
you up to date on that. And I hope we'll continue to see that 
cooperation between the Federal and state government so that we 
can monitor the situation and make sure we continue to move 
forward and are able to accomplish the goals we all have, 
making sure that these big infrastructure projects are going to 
be completed and cost effective in, also, a timely manner.
    So thank you.
    Secretary Foxx. Thank you.
    Senator Fischer. As you know, agricultural truck drivers as 
well as retailers and wholesalers, as they're delivering these 
farm supplies, they're currently granted an exemption from the 
hours-of-service rules if they're operating within that 150 
mile radius. And that's been very helpful for folks that are 
planting and harvesting. And if they didn't have that 
exemption, they would have to have the cost of a larger fleet 
of trucks, we'd have to see more drivers and I think we'd see 
some missed production opportunities as well.
    Do you believe that that's important to maintain that 
exemption on the hours-of-service for agriculture? Are you 
confident that we can maintain that?
    Secretary Foxx. I believe that, in the situations where 
we've made exceptions, they've been necessary exceptions. And 
that's buttressed against our overall goal of assuring that we 
are adhering to the highest level of safety. And as situations 
emerge, we will continue to try to do the best we can to strike 
the right balance and that's always what our goal is.
    Senator Fischer. OK. I hope you will look at that in a 
serious manner. I think it's important to keep that 150 mile 
radius there for these individuals so they're able to continue 
to provide those opportunities down the road.
    So thank you very much.
    Secretary Foxx. Thank you.
    Senator Fischer. With tolling----
    Secretary Foxx. Yes.
    Senator Fischer.--and the GROW AMERICA Act, it would lift 
the ban on tolling on the interstates. If we look at the 
details of tolling and what a proposal on that would look like, 
would the states be responsible for the setting up of that 
infrastructure? Are we going to see the tolls just be paid to 
that segment of road where the tolling takes place?
    I think we'll see additional stress on parallel highways 
when you have tolling on an interstate system out there. But, 
in my opinion, it doesn't always meet the goal of how we 
finance our highways and roads and especially if the money is 
only going to be used for that segment of highway that's there. 
Also, I think the truckers, those small business people, the 
independents that are out there, they really are hit hard on 
toll payments because a lot of times they pay that out-of-
pocket. I would assume that your department is going to look at 
all those impacts before a final ruling is put out on that or a 
final proposal is put out?
    Secretary Foxx. Yes. Let me talk about this for a second, 
if I might, Senator.
    Our proposal on the tolling issue is actually more limited 
than has been widely reported. Essentially, tolling, under our 
proposal, only becomes available if a Governor of a state 
requests it. And, even then, it has to be approved by the 
department.
    And we believe that having the tool available is useful. 
But, as you point out, it is not a wholesale solution to the 
transportation challenges we face. Moreover, we are not 
endeavoring to draw out the revenue from tolls into the Federal 
system to pay for our bill. And I just wanted to make sure I 
was very clear about that.
    But to your point, tolling can be a useful tool. But, as we 
look at the overall infrastructure deficit and, in particular, 
the challenges that are upon us over the next couple of months, 
that is not the solution to the urgent problem that we're 
talking about right now of the Highway Trust Fund.
    Senator Fischer. And I agree.
    I guess I wasn't implying that the tolls would go to the 
Federal Government but my understanding is they are used for 
that specific segment of highway where the tolling takes place.
    Secretary Foxx. That is correct.
    Our proposal would make it available, again, under the 
conditions I just talked about where the desire would be to 
better maintain the facility on which the toll is charged or to 
address congestion in the particular area that we were 
discussing.
    Senator Fischer. Right.
    And have you been in any kind of conversations with 
truckers and the effect that any tolling would have on them?
    You know, when people have a take-home pay of, maybe, 
$40,000 or $50,000 a year when they are these small businesses, 
that's going to be significant for them. Have you had any 
conversation with them?
    Secretary Foxx. We have engaged in discussions with a 
variety of stakeholders. We will continue to do so as we move 
toward a bill. And I just would say that this is evidence of 
the overall challenge of investing in our nation's 
infrastructure at the scale that we need to which is that, in 
order to do it, we have to, in my opinion and in our opinion, 
have a variety of tools available to get there. In some cases 
there will be tools that will be relatively incremental, but in 
other cases, as is in the case of the Highway Trust Fund, we 
need a big answer there.
    Senator Fischer. Thank you, sir.
    Secretary Foxx. Thank you.
    Senator Fischer. Thank you, my boss, Mr. Chairman.
    Senator McCaskill----

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill [presiding]. Thank you.
    Senator Fischer.--are you the Acting Chair?
    Senator McCaskill. I am Acting while Senator Rockefeller is 
out. The votes haven't begun yet, but he has gone over there to 
vote and he'll come back as soon as he has voted.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Madam Chairman.
    Thank you for being here today, Mr. Secretary. Thank you 
for your able beginning and your work as Secretary. I'm proud 
to have voted in favor of your confirmation and I know you're 
taking the lead on many of these transportation issues.
    I want to join in the remarks, fully, made by my colleague, 
Senator Markey. He and I have introduced a bill and, because 
I'm lacking in time, I'm not going to repeat a lot of what he 
said, but I do hope very deeply that you will, as promptly as 
possible, endorse our bill. And that you will also continue to 
cooperate with the investigation underway by the consumer 
protection subcommittee of this committee very ably and 
energetically being conducted by my colleague, Senator 
McCaskill.
    I want to ask you, first of all, were you as alarmed as I 
am, and even appalled, by the latest news of the recall 
announced with regard to 56,000 Saturn Auras for gear shift 
cable defects that apparently began as many as a five or 7 
years ago?
    Secretary Foxx. We're always alarmed to learn of defects, 
particularly, ones that have been out there for a while.
    Senator Blumenthal. And that one comprised a roll-away 
hazard that literally caused crashes and injuries that were 
documented, that came to the public's attention, only within 
the last 24 hours. I find that not only alarming but appalling.
    Secretary Foxx. And to speak to that, that's one of the 
reasons why, in our proposal, we do have additional tools 
around imminent hazard. We also would increase the penalties 
for things like timeliness issues from $35 million to $300 
million to ensure that the level set is there for deterring 
untimely recalls.
    Senator Blumenthal. And let me ask you about the GM recall. 
And my view is that NHTSA really was almost complicit in its 
laxity and lapse of oversight during the years, in fact an 
entire decade, when these defects should have prompted the 
government watchdog to be awake and active in preventing the 
accidents and deaths and injuries that occurred.
    GM issued a special order that's mentioned in a letter that 
you wrote to me and Senator Markey on May 6. And I ask, Madam 
Chairman, that it be made part of the record.
    Senator McCaskill. Without objection.
    [The information is retained in Committee files.]
    Senator Blumenthal. In response to our letter to you, you 
noted that GM, as a result of your special order, has issued a 
new interim guidance to consumers. Is that correct?
    Secretary Foxx. That's correct.
    Senator Blumenthal. Only as a result of your special order 
did GM issue its new notice. And, in that notice, it gave 
consumers, what I regard frankly, as the height of confusion. 
Because, in that April 30 notice, it said, ``If your car is 
jostled or jolted, it's possible for the key to move from `run' 
to `accessory' especially if you have a heavy keychain,'' 
indicating that jostling or jolting the vehicle could cause a 
danger. And then, in the next paragraph, it said that, ``Tests 
show the vehicles are safe to drive if you take everything off 
your key ring and drive using only the ignition key.''
    Thereby, completely negating the warning about jostling and 
jolting the vehicle being a source of extraordinary risk; as I 
have said repeatedly. Would you commit to me to ask GM to ask 
for a clarification of that notice to consumers?
    Secretary Foxx. I will certainly take that under advisement 
and pass your comments along to GM. I would also point out that 
we are in the midst of an investigation of this matter. And my 
belief is that, as that process moves along, we have an 
opportunity to beef up not only the interim guidance but also 
the ultimate outcome for consumers.
    Senator Blumenthal. Well, the ultimate outcome here is 
going to be continued crashes and potential deaths or injuries 
unless action is taken now. So I urge you to order GM to 
clarify this order.
    Now, you note in the letter, and the letter states, ``In 
appropriate circumstances, NHTSA may require a manufacturer to 
advise owners not to drive their vehicles until a safety 
related defect is remedied.''
    That's a quote from the letter. You have authority to order 
GM to advise owners not to drive their vehicles. I can't 
imagine a case more appropriate for that kind of order than 
this one. Would you agree?
    Secretary Foxx. We've taken extraordinary measures in this 
instance, based on our data-driven processes, to look at the 
interim guidance that GM has offered. And, based on the data 
that we have reviewed and, frankly, taken some extraordinary 
steps to have our engineers basically recreate some of the 
testing that was done by GM in the course of developing their 
interim guidance, NHTSA has assured me that what GM has 
proposed as interim guidance, which is effectively folks not 
using other keys on a keychain, but putting the single key in 
the ignition and using the vehicle, that that remedy is a 
remedy that can be relied upon until the recall is completed.
    Senator Blumenthal. Will you commit to making that data and 
information and testing public right now?
    Secretary Foxx. I will work with NHTSA to make as much of 
it available as we can. And if there's----
    Senator Blumenthal. Why would you not make it?
    Secretary Foxx. If there's a reason why it can't be, we 
will certainly make that known to you.
    Senator Blumenthal. Well, I'm going to ask that that 
information, all the testing, both GM's and NHTSA, be made 
available publicly right now so that we can all be aware of 
what has been done to satisfy NHTSA's obligation, which frankly 
was unfortunately neglected in the past, well before you took 
office. I also am going to ask that GM's tests and information 
be made public. Evidently, they've been submitted to you. Mary 
Barra, the CEO to GM, committed to make them available to us 
but still has not done so.
    Secretary Foxx. Well, I will say again, something I've said 
before, which is that NHTSA, over the last 7 years, has issued 
more than 1,200 recalls affecting 95 million vehicles. The body 
of evidence is that it's an incredibly effective organization.
    As I've said before, if there are ways to improve the work 
that NHTSA does, we will find a way to implement reforms and 
improvements, including perhaps some of the recommendations 
that you've mentioned today as well as Senator Markey. I 
haven't had a chance to look at all of the text of your bill, 
for instance, but I've committed to doing so and hopefully we 
will have more dialogue.
    Senator Blumenthal. Well, I very much appreciate your 
answers to my question. I hope you'll be responsive to the 
specific requests that I've made.
    I thank the Chairwoman for her indulgence. I'm over my time 
as it is but, also, for her great work on this issue. Thank 
you.
    Secretary Foxx. Thank you.
    Senator McCaskill. Thank you, Secretary, for being here. 
It's good to see.
    Secretary Foxx. It's good to see you.
    Senator McCaskill. I want to drill down a little bit on the 
NHTSA issue. And I want to talk about the budget.
    As you know, within NHTSA, there is the safety defects 
investigation component of NHTSA. Now, I don't think anybody 
would argue that over the last decade this has become a more 
complex, a more demanding area, than ever before because not 
only do you have the traditional safety defects to be concerned 
about, you now have a whole other layer of technical 
advancements where, in many instances, you have computers 
driving cars. Computers that are much more integrated into 
every function of an automobile, to say nothing of the next 
generation cars that are all electric and so forth.
    What is really disconcerting to me is how stagnant the 
budget has been for safety defects investigations. That it has 
really been essentially flat-lined for a decade. Now I know 
that this budget was prepared before the proverbial whatever 
hit the proverbial whatever on GM but, having said that, the 
notion that we are looking at $10 million in a relatively small 
staff, and we're asking these people to do a really heavy lift. 
You know, there's no question that we've got Monday morning 
quarterbacking going on about why NHTSA didn't find this. And I 
will give NHTSA credit, they have not been ``Oh, poor us.'' 
But, frankly, nobody has even asked for more. It's not as if 
this has been a request that's been made and turned down.
    So would you like an opportunity to revisit the budget line 
for safety defects investigations and look and see whether or 
not you actually have the resources you need to do this?
    Secretary Foxx. We would be happy to take that request and 
submit back to you a response, Senator. I think it's a great 
question that you ask and it's something that we are certainly 
aware of; the staff constraints that we have. And I would love 
to have an opportunity to come back to you on that.
    [Information requested follows:]

    We appreciate the opportunity to revisit the budget request for the 
safety defects investigation program. In the President's Fiscal Year 
(FY) 2015 Budget, NHTSA requested $10.6 million for the safety defects 
investigations program, which is consistent with the FY 2014 request. 
However, this request is for program costs and does not include 
salaries and benefits for Office of Defects Investigation (ODI) 
employees. While NHTSA did not ask for additional program dollars in 
the FY 2015 request, the Agency did request six additional positions 
for ODI. And in the President's FY 2014 Budget, the Agency requested 
four additional positions for ODI.
    ODI's work is important to all highway users, as is evident from 
the recent recalls of Toyota vehicles and General Motors vehicles. To 
increase the effectiveness of ODI's work, we believe that the following 
steps are necessary: enhance ODI's ability to use the latest technology 
to help identify possible safety defects; increase the public's 
awareness of reporting safety problems with their vehicles or vehicle 
equipment to NHTSA; and provide ODI with the personnel resources to 
address potential safety risks.
    Looking ahead, areas of new opportunities for safety defect 
investigations could include an advanced data mining and analytical 
tool, incorporation of business intelligence to enhance the ability of 
defect screeners and investigators to identify new defect trends. On 
another front, in the future NHTSA may wish to undertake a consumer 
awareness and outreach campaign as a large portion of the data received 
about defects comes from consumers.
    DOT looks forward to working with Congress to ensure that NHTSA is 
adequately funded to fulfill its safety responsibilities and respond 
effectively to emerging safety issues through these and other 
activities.
    Having a sufficient number of qualified staff is critical to an 
effective safety defects investigation program. ODI currently has eight 
defect screeners and four Early Warning data analysts to identify 
potential safety defects, and 16 investigators to conduct formal 
investigations. With over 250 million registered vehicles in the U.S., 
this creates a tremendous data collection and analysis burden that will 
only continue to grow.

    Senator McCaskill. If you combine all the engineering that 
is in residence at all of our manufacturers, and then you look 
at the safety defects investigation component of NHTSA, it 
really is David and Goliath. I mean it really is a very small 
effort that can be put forth under any circumstances.
    So I think it's time that your agency really take a--and, 
by the way, Vehicle Safety Compliance, they got a million 
dollar increase this year. And I'm not really sure that their 
function is as important as the investigation's function. 
Because, it's the investigation function that keeps the car 
manufacturers honest. It's one thing once a car manufacturer 
has come clean and said, ``We've got a defect and you've got to 
make a decision on a recall.''
    I believe that's what the safety compliance people do. But 
it's a whole other deal to say, ``You guys have to go find 
it,'' when the car manufacturer is trying to hide it, which is 
what we have in this instance.
    Let me also go briefly to--before my time is up and I know 
votes have been called and we'll have to figure out whether we 
adjourn or whether we deploy waves of sitting chairmen while we 
try to go vote.
    The public-private partnership on funding infrastructure, I 
don't know if you've looked at the legislation that Senator 
Blunt and Senator Bennet and I and others, and maybe even some 
of the others that are still here, have done is Partnership to 
Build America Act, which I think is a really elegant idea. The 
idea is we do $50 billion worth of bonds. It would go out in an 
auction setting to companies that wanted to repatriate profits. 
And they would bid how high a tax they're willing to pay to 
repatriate the money. So maybe you'd put out a trench of $5 
billion, maybe, hypothetically General Electric wants to bring 
back $5 billion. They'd say, ``You know, we'll pay 10 percent 
tax on that.''
    Well, maybe Apple wants to bring back $5 billion. They say, 
``We'll pay 12 percent.''
    Whoever is willing to pay the highest tax for repatriation 
would secure the bonds, would allow them to repatriate the 
money and then those funds would strictly be used to leverage 
private and state and local money for infrastructure 
development. I think it's a nifty idea and I think it works on 
so many levels for the influx of money we need right now, 
immediately, because of the crisis you eloquently described in 
your statement.
    Have you had a chance to look at it? And is there any 
chance we could get the Administration to give a seal of 
approval on this?
    Secretary Foxx. We will take it back to the Administration. 
And, certainly, it's consistent with our view that we've got to 
have more tools in the toolbox as a nation.
    The infrastructure deficit we have as a country is massive. 
It's estimated at $3.6 trillion. And any way that we can find 
to add capacity to build our infrastructure is very consistent 
with what we're trying to do with the GROW AMERICA Act.
    Senator McCaskill. We'll look forward to hearing back from 
you.
    Secretary Foxx. Thank you.
    Senator McCaskill. Thank you for being here.
    Secretary Foxx. Sure.
    Senator McCaskill. Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Chairwoman, very much.
    Trying to be respectful of the time, and my colleagues who 
may not have spoken yet, I'll try to be as brief as possible. 
But I would be remiss, this is my first time to address you as 
Senator and have you in a hearing. And I just want to say for 
the record, I've had the privilege of knowing you for many, 
many years. We were both peer mayors. And, if your service in 
your current capacity is anything similar to your service as 
mayor where you focused on economic growth, economic expansion, 
economic opportunity, and really fighting for those who are 
dealt bad cards, I think you're going to be a tremendous 
leader. And I look forward to working with you especially as we 
look at some of the big issues from FAA reauthorization to the 
current issues before us right now. So it's a privilege to sit 
across from you in this capacity.
    To go real quick, you know, obviously New Jersey is--and I 
don't want to repeat a lot of the very important things that 
were brought up. And so, skipping to some of the specific 
concerns. New Jersey is obviously a highly dense transportation 
super structure. A significant amount of the freight that comes 
into the United States is coming through our state. We have key 
transportation nodes. And I'd like to zero in on one of those 
nodes that has me really, particularly, concerned right now. If 
I can, Chairwoman, submit--or Chairperson----
    [Laughter.]
    Senator Heller. I'm with you.
    Senator Booker [presiding]. I'm the Chair? Let the record 
show, this is my first time chairing the Commerce Committee.
    Senator Scott. Will the Chairman yield then.
    [Laughter.]
    Senator Booker. I'm happy to take the power. The power I 
feel right now is tremendous.
    But I would like to enter into the record, without 
objection, from my dear friends, Senator Scott and Senator 
Heller, I'd like to put into the record an article about the 
Hudson Crossing.
    Without objection?
    Senator Heller. Yes.
    Senator Booker. Without objection, thank you very much.
    [The information referred to follows:]

                    By Dana Rubenstein, May 5, 2014

          ``Clock Ticking on Hudson Crossings, Albany Warns''

    The end may be near for the New York region's cross-harbor rail 
tunnels, with no good alternative in sight.
    ``I'm being told we got something less than 20 years before we have 
to shut one or two down,'' said Amtrak C.E.O. Joseph Boardman at the 
Regional Plan Association's conference last week at the Waldorf 
Astoria. ``Something less than 20. I don't know if that something less 
than 20 is seven, or some other number. But to build two new ones, 
you're talking seven to nine years to deliver, if we all decided today 
that we could do it.''
    Tom Wright, the Regional Plan Association's executive director, 
described Boardman's remarks as ``a big shock.''
    ``I've been hearing abstractly people at Amtrak and other people at 
New Jersey Transit say for years the tunnels are over 100 years old and 
we have to be worried about them,'' he said. ``To actually have Joe put 
something concrete on the table, less than 20 years . . . Within my 
office, there was a level of, `Wow, this is really serious.' ''
    New Jersey governor Chris Christie spiked plans to build two new 
rail tunnels under the Hudson, likely leaving the metropolitan region 
for the next quarter century with all of two rail tunnels to carry New 
Jersey commuters into Midtown Manhattan. Those two tunnels are more 
than a century old and carry more more than 160,000 passengers a day. 
Hurricane Sandy flooded them and caused a lot of damage. They are also 
a dangerously narrow chokepoint on the one of the busiest rail 
corridors in the world.
    The state and federally financed project called Access to the 
Region's Core would have doubled the number of cross-Hudson tubes and 
relieved that bottleneck. Construction had already begun when Christie 
pulled the plug, a putative cost-saving measure that was also meant to 
demonstrate his state's political independence, and rededicated some of 
its funding to repairing the Pulaski Skyway.
    Senator Chuck Schumer last year called Christie's decision ``one of 
the worst decisions that any governmental leader has made in the 20th 
century, or the 21st century.''
    Amtrak has since come up with a new, still-unfunded plan called the 
Gateway Program. Like A.R.C., it would build two new tunnels under the 
Hudson River. Amtrak's literature puts the target completion date at 
2030, but Boardman, recounting a panel discussion he'd attended earlier 
that day, said the panel's consensus was ``25 years if you're lucky.''
    By his lights, that's not nearly soon enough, particularly with 
what he describes as at least a half-billion dollars' worth of 
Hurricane Sandy-related damage. That could pose some very big problems 
for the New Jersey commuters and regional rail travelers who rely on 
those tunnels to get from New Jersey to New York, and back again.
    ``Today those two tunnels carry 24 trains per hour, 24,'' he said. 
``If you take it to one tunnel, typically you'd assume 12. Not so. Six 
trains per hour. Six. Because you gotta get them in and get them out. 
Six trains per hour. Amtrak does four. So if Amtrak's selfish and owns 
the infrastructure and says we're gonna do our four, well it doesn't 
matter whether New Jersey Transit gets two or not, because with two 
they're dead anyway. You can't deliver what we were gonna deliver.''
    ``Sorry, we are going to have to decline comment across the 
board,'' said William Smith, a New Jersey Transit spokesman, when asked 
to respond.
    When I asked Craig Shultz, an Amtrak spokesman, who told Boardman 
that the tunnels had 20 years, tops, he said he wasn't sure.
    ``As you know the Hudson River Tunnels are more than 100 years old 
and were filled with salt water during Super Storm Sandy, which can be 
very corrosive,'' he said. ``Amtrak is working with an expert to assess 
the condition of the tunnel structures since the storm, and that work 
is ongoing.''
    ``I think the point Mr. Boardman was making in his comments at the 
RPA Assembly is that damage from Sandy accelerated what was already an 
urgent need for additional tunnel capacity between New York and New 
Jersey,'' he continued. '' We expect that the tunnels are going to need 
major rehabilitation, which can only happen with prolonged service 
outages permitted by a new tunnel.''
    Christie's office didn't respond to a request for comment on 
Boardman's remarks.

http://www.capitalnewyork.com/article/city-hall/2014/05/8544757/clock-
ticking-hudson-crossings-amtrak-warns

    Senator Booker. This is all going to go to my head; forgive 
me.
    But this is an article about the deterioration of the 
Hudson Crossing which is the busiest river crossing in the 
United States of America and a critical part of our national 
economy. It is a report that basically says two of the Amtrak 
tunnels between New York and New Jersey--the CEO of Amtrak is 
quoted as saying that they have about 20 years left of use 
before one or both of those tunnels need to be closed.
    The tunnels carry over 160,000 passengers; as I said, 
again, the busiest river crossing in the United States of 
America. In the aftermath of Superstorm Sandy, especially as we 
see a frequency of these storms, these tunnels are facing some 
severe challenges. And, as we saw during Sandy, they were 
closed. During peak hours, a train enters those tunnels every 
150 seconds. Arguably, they are already over-crowded. And many 
people who use those tunnels daily are struck with frustrations 
because of delays, because of mechanical problems, and the 
like. As you know, projects of this magnitude could take years 
to complete. And so, the clock is ticking if that 20 years is 
coming down.
    And so, given this urgency, what can we do to ensure that, 
as we focus on critical immediate projects, what can we be 
doing to be sure that multi-year projects get the funding that 
they need, and get the funding that they need not to respond to 
a crisis but really what is more economically justifiable, the 
funding they need, to avert crisis before they happen?
    Secretary Foxx. Thank you for the question, Senator. And it 
is a pleasure to be on this end of the table from you, as well.
    Specifically on the Hudson Crossing, as you know, several 
years ago, the department committed $3 billion to build a new 
modern rail tunnel but the effort was canceled. The GROW 
AMERICA Act would provide Amtrak with predictable dedicated 
funding to repair and replace its aging infrastructure just 
like these tunnel areas you're talking about. And Amtrak has 
already begun efforts to replace these tunnels and it's called 
the Gateway Tunnel Project which could be leveraged with, 
again, predictable dedicated funding which our bill would 
provide.
    On the larger issues, you're exactly right. We treat our 
infrastructure as if there's not a cost associated with poorly 
maintained infrastructure. But, in reality, there is. There's 
the cost of inflation; eventually you have to replace it. 
There's the cost of wear and tear on the vehicle side in every 
state I've gone to and I've seen evidence of the additional 
cost it costs consumers and vehicle users just to, buy tires 
and other things because they're riding over potholes.
    And so, there's a cost to not acting. And, frankly, 
specifically when it comes to rail or highways when there's 
uncertainty, lack of predictable funding, lack of dedicated 
funding, it's impossible to plan----
    Senator Booker. Sorry to interrupt you, Secretary. Your 
point is 100 percent clear.
    If you could just touch on, I won't go through the longer 
part of the question but, as trucks seek to expand, we really 
have an issue with the impact on roads. There's this study that 
you all are engaged upon that it seems like you need more time 
to make sure that we're doing the right thing for road safety 
and a number of other very important measures. Can you just 
comment on that really, really briefly?
    Secretary Foxx. Yes.
    We are continuing to work through our study. We have 
another public meeting coming up this summer on that. I expect 
that the report will be issued to Congress by the November 15 
deadline.
    Senator Booker. All right. Thank you very much.
    Secretary Foxx. Thank you.
    Senator Booker. It's with great hesitancy that, while it's 
the first time I have the Chair of the Commerce Committee, that 
I look across the table at my friend and colleague, Senator 
Heller. It's with great hesitancy that I not only recognize you 
to speak next but I yield my power as Chairman.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller [presiding]. Are you going to leave?
    Senator Booker. I'm going to leave to go vote, sir.
    Senator Heller. Because Senator Scott and I would like to 
bring up a couple bills.
    [Laughter.]
    Senator Booker. For the sake of my dear friend, Secretary 
Foxx, I might want to stay.
    Senator Heller. Well, thank you.
    And, Mr. Secretary, thank you for taking the time.
    Secretary Foxx. Thank you, Senator.
    Senator Heller. I'll be brief.
    I wanted to bring up some NHTSA and GM, but I think we've 
played that hand quite a bit today. So I'll keep my comments 
brief for Senator Scott so we can both get down, the three of 
us, get down to the floor.
    But, like you, I want you to know I feel it's imperative, 
what you do is very important.
    Secretary Foxx. Thank you.
    Senator Heller. Infrastructure for the country, for the 
state of Nevada, it's critically important. And I want to talk 
about one issue that I believe is imperative and critically 
important for the state of Nevada.
    According to the U.S. Census Bureau, between 2010 and 2030, 
they anticipate that the Mountain West, which Nevada is part 
of, will grow by 28.5 percent. Twenty-eight and a half percent; 
roughly 32 million people will be in that region. So the demand 
for both freight and personal vehicles are expected to soar. 
And I do not want a multi-year surface transportation bill to 
be signed into law without planning for the future 
transportation needs, of course, of Nevada.
    So I wrote a letter to the Chairman of EPW and the Ranking 
Member and the necessity and need for Congressional designation 
of a road from Las Vegas through Northern Nevada. And our 
Governor is participating in this also; trying to determine 
where that route will be. But in the meantime, I'd love to have 
that designation.
    And the reason it's important, and I'll be quick, the 
reason it'll be important, I'm going to get done with this, 
Senator Scott, is that Nevada is a net importer of freight. We 
probably bring in almost double of what we produce into the 
state of Nevada. And, as you know, it's a service industry. And 
so, that makes some sense. And, obviously, the ability to move 
freight would determine the world-class experience that we 
offer in the State of Nevada. And so, that's why designating a 
road to the north as part of I-11 is so important.
    So, I guess my question to you, and then I'll be done--what 
we're trying to do is increase trade, create jobs, improve our 
economy. My question for you is: Will you support our endeavors 
as a delegation from Nevada to congressionally designate I-11 
into northern Nevada?
    Secretary Foxx. First of all, Senator, thank you very much 
for the question. And the types of challenges you just 
described in Nevada are challenges that we see all over the 
country.
    Senator Heller. I'm sure you do. I'm sure you do.
    Secretary Foxx. And it is one of the reasons why having a 
robust solution on reauthorization and funding is so critical 
because even with a designation, without the resources, we're 
going to be in trouble.
    Senator Heller. You and I are on the same page.
    Secretary Foxx. Yes, absolutely.
    Now, having said that, I'd be happy to work with your 
delegation on this and I will ask our FHWA colleagues to 
interface with you directly on this.
    Senator Heller. Would you please?
    Secretary Foxx. And we'll try to help you out.
    Senator Heller. Secretary, thank you very much.
    Secretary Foxx. Thank you. Appreciate you.
    Senator Heller. Senator Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott [presiding]. Let me make my first order of 
business, as a new Chairman of this committee----
    [Laughter.]
    Senator Scott.--a point to vote for Senator Heller to be 
the permanent Chair of the Commerce Committee.
    [Laughter.]
    Senator Scott. Any opposition? I see none.
    [Laughter.]
    Senator Scott. Probably won't be funny when Chairman 
Rockefeller hears my comments here.
    [Laughter.]
    Senator Scott. Just a quick question for you. I had a 
couple but I think Senator Fischer talked about the potential 
for Interstate tolls which I think is very important with you 
being from North Carolina; two lanes going to three lanes on I-
95 and the impact that would have. I'd love to, perhaps, submit 
that question for the record.
    Secretary Foxx. Sure.
    [The information requested follows:]

    Answer. We are not suggesting that the Federal Government should 
direct State and local governments to impose tolls on their Interstate 
highways. Rather, we are proposing to offer tolling as a tool in the 
toolbox that states could consider--where appropriate--during the 
project planning and development process. And we are proposing to make 
the new toll authorities subject to Departmental approval.
    As an example, the GROW AMERICA Act would allow any state the 
option of tolling a highway to pay for its reconstruction. Under GROW 
AMERICA, the existing Interstate System Reconstruction and 
Rehabilitation Pilot Program (ISRRPP), with its limited number of 
slots, would be discontinued. In its place, any state that has 
identified a potential project to toll an Interstate highway to fund 
its reconstruction, and vetted it through the NEPA process, would be 
able to apply to USDOT for tolling authority. Before accepting 
proposals, we would first develop and publish criteria for tolling 
approvals, soliciting input from all interested parties and publishing 
final approval criteria in the Federal Register after thoroughly 
considering their comments.

    Senator Scott. And then, get your response on that?
    Another question that I'd love to get your perspective on 
has to do with the trust fund and the fact that we're spending, 
really, gas tax dollars, on transit systems that are not making 
any real contributions to the Highway Trust Fund. And while we 
have a challenge with building infrastructure, we have a 
challenge building the infrastructure that the 18.4 cents per 
gallon is dedicated to build. So I'd love to have that also for 
the record.
    [The information requested follows:]

    Answer. In 1982, Congress passed the Surface Transportation 
Assistance Act which directs a portion of Federal gasoline and diesel 
excise taxes to an account in the Highway Trust Fund specifically to 
help fund mass transit operations. Through the Mass Transit Account, 
buses, subways and other forms of mass transit have helped communities 
nationwide to expand or improve public transportation systems--thereby 
helping to reduce traffic congestion and improve air quality. Highways 
and mass transit systems are complementary, not competitive, solutions 
to America's transportation challenges and we need to increase 
investment in both.

    Senator Scott. My question really has to do with just the 
regulatory environment that's been growing so quickly.
    You think about the fact that in Fiscal Year 2013, almost 
4,000 new rules were issued. Now we're seeing the cost of the 
regulatory environment is about 11 percent of the entire GDP of 
our country. If you're a small business owner like I used to be 
with 20 employees or fewer, the cost of the regulatory 
environment is about $10,500 a year; if you have more than 500 
employees, it's about $7,800.
    With GROW AMERICA, you have put forward lots of ideas for 
more regulations; and just to name two or three real quick and 
get your response on the cost benefit analysis on these 
regulations and other regulations to come. If you think about 
inspectors stopping passenger tour buses and doing inspections 
any time they want to while they're in route, I think that 
would have a major impact on the cost of doing business. If you 
think about being able to impound a new vehicle at a dealership 
for up to 72 hours, hopefully trying to figure out whether 
they're in compliance with the CAFE Standards that has another 
impact. And, if you think about an extension or expansion of 
the Federal hours-of-service regulations to railroads, I 
certainly know that would have an impact.
    And my real question is simple. What is the cost benefit 
analysis suggesting and/or indicating to you? And, have we 
actually had a cost benefit analysis on these proposals, so to 
speak?
    Secretary Foxx. Yes.
    Well, thank you for the question, Senator. And we will 
submit responses to the questions for the record, as well.
    [The information requested follows:]

    Answer. Executive Order 13563, signed by President Obama in 2011, 
requires that any regulatory requirement adopted by an agency can be 
adopted ``only upon a reasoned determination that its benefits justify 
its costs.'' While the statutory provisions proposed in GROW AMERICA 
have not yet been the subject of such benefit-cost analysis, they would 
all be subject to benefit-cost analysis before the regulations 
implementing them were issued.
    Section 5401 of GROW AMERICA would amend the requirements for 
approval of State motor carrier safety plans. The proposed language 
would require that, ``except in the case of an imminent hazard or 
obvious safety hazard,'' such plans must ensure ``that an inspection of 
a vehicle transporting passengers for a motor carrier of passengers is 
conducted at a station, terminal, border crossing, maintenance 
facility, destination, or other location where adequate food, shelter, 
and sanitation facilities are available for passengers, and reasonable 
accommodations are available for passengers with disabilities.'' The 
proposed language only affects State inspectors, not Federal 
inspectors, and is quite restrictive about where inspections may take 
place, and does not allow inspectors to stop passenger tour buses any 
time they want to. Inspections can only take place where the needs of 
the passengers can be attended to. While we have not prepared a 
benefit-cost analysis of this provision, we believe that this provision 
will enhance safety without having a significant adverse effect on 
passengers. We believe that most passengers would be happy to have the 
assurance that the bus on which they are traveling is safe.
    Under the National Highway Traffic Safety Administration's 
(NHTSA's) current regulations concerning Corporate Average Fuel Economy 
(CAFE) standards, the fuel economy standard varies depending on the 
``footprint'' of the car--that is, the wheelbase of the car multiplied 
by its track width. It therefore becomes important to ensure that the 
footprint is accurately measured. Section 4108 of GROW AMERICA 
clarifies that NHTSA inspectors can examine automobiles at the 
manufacturer's or dealer's premises to confirm that the footprint 
stated in the manufacturer's certification of compliance is accurately 
measured. A mis-measurement of the car's footprint has the potential to 
increase the regulatory burden on the manufacturer as well as reduce 
it, so getting the measurement right has as much chance of reducing 
regulatory burdens as to increase them. We have not yet prepared a 
benefit-cost analysis of this provision, but we believe that both 
manufacturers and dealers have an interest in ensuring that the CAFE 
standards that apply to the cars they sell are accurately measured.
    Finally, Federal hours-of-service regulations have applied to 
railroads since 1907. Section 9403 of GROW AMERICA would replace the 
existing rigid statutory requirements on railroad hours-of-service with 
a more flexible provision that would allow the Federal Railroad 
Administration (FRA) to draw upon the most recent scientific findings 
related to the effects of fatigue on safety in setting hours-of-service 
requirements. The 2008 Rail Safety Improvement Act gave FRA this 
regulatory discretion (which all other modal administrations at U.S. 
DOT already have) with respect to passenger railroads, but not with 
respect to freight railroads. FRA's rulemaking on hours of service for 
passenger railroads, issued in 2011, provided more flexibility for 
passenger railroads in setting hours of service requirements, so that 
regulatory burdens were reduced while safety was improved. Section 9403 
of GROW AMERICA is intended to achieve exactly the same sort of win-win 
solution for freight railroads.

    Senator Scott. Thank you.
    Secretary Foxx. On the issues that you raised, as a data-
driven agency, what's proposed in our bill is the product of 
our experience and the product of what we have learned in the 
different modes that you talked about. In the Federal Motor 
Carriers area, for instance, where you mentioned the stoppage 
of the motor coaches, what we found is that our enforcement 
capabilities are relatively narrow. And we closed 50 companies 
down last year that were bad actors. They weren't up to safety 
standards.
    But our toolbox is relatively limited to catch the bad 
actors. And, unfortunately, the outcome, if we don't, is in 
some cases injury or death. And we've seen incidents just in 
the last year where these things have occurred. So our job and 
our goal is to ensure safety. And those regulations there are 
based on the data that we have. Now, I'm certainly happy to 
have our team reach out to you and to provide you with what we 
have on the justification for those?
    Senator Scott. Yes.
    Secretary Foxx. Happy to do that, sir.
    Senator Scott. Thank you. We'll follow up.
    Secretary Foxx. OK.
    Senator Scott. Thanks a lot.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt [presiding]. Mr. Secretary, I never expected 
that Senator Scott and I would be in charge of this committee 
but I like the--well, at least--not right now, but I like the 
feel of it. Thanks for staying and thanks for accommodating 
members having to come and go as they have. As a matter of 
fact, Senator Ayotte and I went to cast one of the two votes 
and then came back and we'll eventually catch the second half 
of that two vote series.
    On positive train control, on March 6, when Mr. Szabo was 
here, the Federal Railroad Administrator, we talked about 
positive train control. And at the time, I asked him to 
consider treating those railroads that could be in compliance 
as test cases until everyone is in compliance. You know, where 
they could be up and operational and maybe seeing what the 
problems with the system are. But it would seem unfair to me 
that they would have all of the application that we'd 
eventually want that law to have when other railroads weren't 
even complying. In your reauthorization proposal, the FRA asked 
for the authority to extend the December 2015 deadline on a 
case-by-case basis.
    So my question is, under this proposal, would the Federal 
Railroad Administration treat railroads in full compliance as a 
test case so they wouldn't be competitively disadvantaged 
against other railroads who simply have failed to meet the 
deadline?
    Secretary Foxx. I want to make sure that I understand the 
question, Senator. Is the question whether we would allow them 
to activate positive train control if they had the capability 
today versus a company that does not? Just want to make sure I 
understand the question.
    Senator Blunt. I think the question is, if they activate 
positive train control but others do not, would you hold them 
to all of the requirements that we would eventually hope 
everybody would have to meet or would they merely be a test 
case, able to each share that material?
    I mean, many of these railroads even run on the same track 
for certain periods of time, though they may not share the, 
obviously, the same track all the time. Or I guess they'd all 
have, at least, access to positive train control. So I think 
you have a real inequity here if the railroads that had met the 
law have to be in full compliance while everybody else has an 
un-penalized waiver.
    At the same time, we've seen what happened with the 
Affordable Care Act having a test case out there to see how 
many problems there are but not necessarily penalizing the 
people who are trying to comply for the problems they might be 
able to discover and share. It seems to me a more reasonable 
place to be.
    Secretary Foxx. If it's okay, Senator, I'd like to submit 
for the record on that. And primarily because I do know that 
there are a handful of companies that have made significant 
investments in the positive train control technology. And what 
I'd like to get back to you on is the question that I think 
you're raising as to whether there's a burden on them in fully 
activating and adhering to our standards as articulated in the 
previous law that Congress has required. And I'd like to get 
back to you on that.
    Senator Blunt. Yes, I'd like you to look at that really 
carefully because, if we just simply waive the deadline for 
some of these railroads but we want the other railroads to be 
fully compliant with the law, that doesn't seem fair to me. I 
think the government, itself, has been complicit in making it 
hard to comply with tower sitings and other problems that 
you're fully aware of. I also think it would be helpful to have 
some of the railroads testing the system out and up and 
running.
    But whatever the obligations or penalties are of somehow 
failing to be 95 percent in compliance on a given day, or 
something, I'd hate to see them penalized for that while we let 
other railroads take another couple of years.
    So look at that and see if there is anything within the 
rule. And I believe when Mr. Szabo was here he seemed to fully 
appreciate the unfairness of what might happen there. So look 
at that and I'm more than glad to have a response for the 
record but I would like to have a response on that.
    [The information requested follows:]

    Answer. Let me respond to the concerns you've raised. Of course, 
DOT does not wish to penalize railroads for being more successful than 
others in implementing PTC systems, and the agency recognizes that 
there may be issues with PTC systems when they are first put into 
revenue service. In the GROW AMERICA Act, FRA requests authority for 
provisional certifications to allow railroads more time in revenue 
service to identify those issues. Additionally, FRA has proposed a rule 
that would reduce the burdens of operating a train suffering a PTC 
system failure, and the final rule is currently under Executive Branch 
review.

    Senator Blunt. One other thing that you may want to do for 
the record or not: In the Compliance, Safety, and 
Accountability program, CSA program, meant to use crash and 
violation data to develop motor carrier vehicle safety scores, 
these scores would then be used by FMCSA to target resources 
for enforcement and by third parties to use as the basis for 
safety-based business decisions. There's a GAO report that came 
out in February that found that many of these scores, 
generally, don't correlate to actual future crash risk. And the 
GAO found serious limitations in this program's ability to 
assign fair safety ratings to motor carriers.
    So the question is what changes is your department planning 
to make to address the GAO report?
    Secretary Foxx. We'll submit for the record on that, 
Senator.
    Senator Blunt. All right.
    Secretary Foxx. Thank you.
    [The information requested follows:]

    Answer. We strongly disagree that GAO has demonstrated FMCSA's 
methodology is not sufficiently reliable for its intended purpose, 
which is to prioritize motor carriers for interventions to ensure the 
most effective use of the Agency's resources. The CSA program does not 
assign safety ratings to motor carriers. The alternative methodology 
suggested in GAO's report would result in a prioritization tool that 
would only provide meaningful information about large carriers with 
little, if any, practical applications for assessing the safety 
performance of small and medium carriers that are involved in the 
majority of commercial motor vehicle related crashes. We acknowledge 
that more data and observations would improve the Safety Measurement 
System (SMS) from a statistical confidence interval perspective, which 
the Agency will continue to work towards. However, the relatively small 
percentage of the active interstate carriers that would be assessed 
using GAO's recommended methodology would create far greater oversight 
vulnerabilities than the current SMS.
    While the Department does not agree with some conclusions of the 
GAO report, FMCSA continuously reviews and makes enhancements to its 
methodology for the selection of motor carriers for intervention. FMCSA 
launched SMS in December 2010 after a period of testing, evaluation, 
and unprecedented levels of public input. Since then, FMCSA has made a 
number of enhancements to improve the effectiveness of SMS in 
identifying motor carriers for interventions. These changes were based 
on analysis conducted by the Agency, in addition to recommendations 
provided by its stakeholders, including industry and safety advocates.
    FMCSA's most recent analysis confirms the effectiveness of SMS as 
an intervention tool, finding that the group of carriers identified as 
high risk have a future crash rate twice the national average, and 
those carriers prioritized for a CSA intervention (for any carrier with 
a Behavior Analysis & Safety Improvement Category (BASIC) above the 
intervention threshold) have a 79 percent higher future crash rate than 
the group of carriers not identified for CSA interventions (i.e., not 
above the intervention threshold). As a result, FMCSA continues to 
believe that SMS is an effective prioritization tool and is an 
improvement over the previous SafeStat system. SMS continues to evolve 
and mature as data, feedback, and other relevant information becomes 
available.
    FMCSA will continue to build on the positive results from the use 
of SMS to prioritize carriers for interventions and make adjustments to 
hone the effectiveness of the system. The Agency will analyze GAO's 
recommendations as part of that process. FMCSA's plans for continuous 
improvement include analyzing approaches and aligning improvements to 
identify and prioritize carriers for CSA interventions within the 
following framework:

  <bullet> Finding carriers with higher crash risk across the spectrum 
        of carrier sizes with varying amounts of carrier safety data. 
        This allows the CSA program to hold a large portion of the 
        motor carrier industry accountable for poor safety management 
        controls, rather than just focusing on those carriers regularly 
        being inspected.

  <bullet> Identifying carriers with the worst pattern of on-road 
        violations and high crash risk. These carriers have the largest 
        potential for improvement from CSA interventions.

  <bullet> Identifying non-compliance patterns and intervening early to 
        help carriers establish strong safety practices before crashes 
        occur.

  <bullet> Monitoring safety performance over time for carriers that 
        entered the CSA intervention process. This allows FMCSA to 
        quickly respond and prioritize enforcement resources on 
        carriers that show trends of worsening safety performance 
        rather than carriers that are improving.

    FMCSA remains committed to considering future changes to SMS 
provided such changes improve the Agency's ability to identify unsafe 
motor carriers for intervention prioritization.

    Senator Blunt. Let me see if I can get one more quick one 
in before--we've somehow gotten in charge of this hearing.
    [Laughter.]
    Senator Blunt. So I'm feeling good about this.
    I think those are the two----
    Senator Ayotte. I appreciate that.
    Senator Blunt. Let me let Senator Ayotte ask her question. 
I may come back for one quick question when she's done.
    Secretary Foxx. OK.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Do I call you Chairman? This is great.
    Secretary Foxx, it's great to welcome you here. Thank you.
    Secretary Foxx. Thank you.
    Senator Ayotte. I know that one of the issues you're 
concerned about is the number of the bridges across the nation 
that are in desperate need of repair. And one of those bridges 
is actually the Sarah Mildred Long Bridge, which connects New 
Hampshire and Maine. So it is a bridge that really deals with 
Interstate Commerce as well as critical to both states in terms 
of the commerce and their seacoast areas.
    So what's been happening is that this bridge is critical 
not only for automobile traffic, its freight, rail, and cargo 
vessels. Because there's a port right there so it kind of hits 
all modes of transportation. This bridge has been closed 
numerous times for major repairs over the last 5 years. So what 
it does is it disrupts the businesses and the residents in the 
area for both New Hampshire and Maine.
    So the bridge, itself, has been rated as structurally 
deficient. It requires immediate replacement to preserve public 
safety and support the trade in the Northeast. So both the New 
Hampshire and Maine DOTs have worked together on this. So we're 
on the same page. We've been partnering as stakeholders with 
both states to identify a solution to repairing the bridge.
    I'm sure you're aware that we applied for a TIGER Grant 
that both states support and all the delegations, on a 
bipartisan basis, are supporting. So, given the importance of 
this bridge to both states, I would be honored if you would 
consider coming to New Hampshire and perhaps joining both the 
New Hampshire and Maine delegations to see this bridge. So I 
know that not only myself but all my colleagues in both Maine 
and New Hampshire are concerned about getting this bridge 
repaired. So I would like to invite you to New Hampshire and I 
hope you'd be willing to come join us.
    And I will assure you that it's very, very pretty in the 
spring and summer. So I'm not asking you to come in the winter. 
We're past that. And we would love to host you in New 
Hampshire. So we'd like to invite you to do that.
    Secretary Foxx. Senator, thank you for the invitation and 
consider it done. We will schedule that.
    Senator Ayotte. Fantastic. I'm so glad you'll come. And I 
know that my colleagues will, I'm sure, be glad to join us in 
that visit. So thank you, Mr. Secretary.
    Secretary Foxx. Thank you.
    Senator Ayotte. I wanted to ask you also about the new 
truck driver hours-of-service rules that your department put 
into place in July 2013. So, I'm hearing a huge amount of 
feedback on this. I have legislation I filed on it, of these 
rules having an impact on productivity in a negative way. And 
drivers, in terms of the truck drivers themselves and thinking 
about the benefits versus some of the impacts of this, I think 
the rule itself has substantial problems.
    I've not only heard from independent and small business 
truckers in New Hampshire but, also, I've been surprised at how 
many industries are impacted and have been coming to me and 
that obviously rely on delivery for whether it's food services, 
you know, almost--it has been staggering to me that the impact 
that this rule could have.
    I know that, to justify these changes, your department 
really speculated that the rules themselves would make drivers 
healthier and live longer. What plans does your department have 
to measure and try to confirm whether these benefits that had 
been cited in the rule, that I haven't seen evidence of, will 
actually be realized versus the impact on our economy and our 
small truckers and our independent truckers and all the 
industries that they serve?
    Secretary Foxx. Thank you for the question, Senator.
    And the hours-of-service rule, like all of our efforts 
around safety, is driven by data. And I know that the impacts 
of some of our safety regulations sometimes provide limitations 
on folks' freedom of movement. But we've done a very deep 
amount of study on this and the agency is very convinced that 
this is the appropriate standard.
    To your question about going forward and testing the 
effectiveness of the rule, I would like to submit to you on the 
record on that to make sure that we give you as complete a 
response as possible there.
    Senator Ayotte. I would also like to see the analysis that 
was done in terms of the impact on the economy to the people 
who will be impacted not only all of the independent truckers, 
the small businesses, but as well as the businesses that they 
serve who have all come to me and said that this rule is not 
workable.
    So I hope that your department has taken that analysis. And 
so, if you could give me that information too, I'd really 
appreciate it.
    Secretary Foxx. We'll get you the best information we can.
    [The information requested follows:]

    Answer. In our regulatory analysis, the Agency estimated that the 
changes to the hours of service rule would yield not only safety 
benefits in lives saved but also benefits to driver health. The FMCSA 
is exploring a number of approaches to more precisely assess the impact 
of the rulemaking on the long term health of commercial motor vehicle 
drivers and the operations of the motor carrier industry. In recent 
weeks we have engaged in several conversations regarding this issue 
with industry organizations, congressional staff, and safety advocates. 
As the Federal agency responsible for enforcing commercial motor 
vehicle safety on our Nation's roadways, we regularly examine the 
impact of our regulations on small businesses. And, as part of the 
President's Regulatory Retrospective Review, we continuously reach out 
to stakeholders to identify ways to advance our safety efforts at 
reduced costs to the regulated industry.
    The benefits of the rule are not speculative. They are supported by 
the best available science on the relationship between increased sleep 
(for sleep-deprived groups, like truck drivers) and increased life 
expectancy. These benefits will of course be realized over a long 
period. FMCSA is considering a range of research projects to evaluate 
the effect of the 2011 final rule, including the two-night requirement 
that some argue puts an excessive number of trucks on the road early in 
the morning. The Agency will announce its research plans in due course 
and seek industry input and cooperation in refining them and carrying 
out the studies.

    Senator Ayotte. Thank you. Thank you so much.
    And I do have a question that I'll just submit for the 
record, which is related to the issue of non-motorized users 
and the safety hazards for non-motorized users in establishing 
a separate performance standard for non-motorized 
transportation users. That's something I've been interested in 
as I've spent part of my life racing bicycles. So this is 
important. And I wanted to submit that issue to you for the 
record for you to comment.
    Secretary Foxx. Absolutely.
    [The information requested follows:]

    Answer. Pedestrian and bicycle safety is one of my top priorities. 
All modes in DOT strongly support this priority and will continue to 
work collaboratively to do so. More information about DOT's bicycle and 
pedestrian work in this area is available at: http://www.dot.gov/
bicycles-pedestrians.
    In the Notice of Proposed Rulemaking (NPRM) for Safety Performance 
Measures (available at: http://www.gpo.gov/fdsys/pkg/FR-2014-03-11/pdf/
2014-05152.pdf), as required by MAP-21, we are proposing the 
establishment of one measure for each of the four areas mandated by 
MAP-21: number of fatalities, fatality rate, number of serious 
injuries, and serious injury rate. Our proposed measure is consistent 
with the focus of the Highway Safety Improvement Program, which is to 
reduce all fatalities and serious injuries--including those involving 
pedestrians and bicyclists.
    States are already using and reporting a pedestrian fatality metric 
through NHTSA's Highway Safety Program. Just this spring, NHTSA reached 
a further agreement with the Governors Highway Safety Association 
(GHSA) to add to the requirement for states to develop a bicycle safety 
performance target. These will begin with FY 2015 highway safety 
grants. You can be assured that both NHTSA and FHWA are working 
cooperatively on safety performance measures to spur states to achieve 
the national goal of reducing fatalities and serious injuries for all 
users.
    The Department supports a data-driven approach to addressing safety 
issues. As states update their Strategic Highway Safety Plans (SHSP)--
the statewide-coordinated safety plan that provides a comprehensive 
framework for reducing all fatalities and serious injuries on all 
public roads--they bring pedestrian and bicyclist interests to the 
table and look at crash trends. An SHSP identifies a State's key safety 
needs and guides investment decisions toward strategies and 
countermeasures with the most potential to save lives and prevent 
injuries. The majority of states already include pedestrian and 
bicyclist safety in their SHSPs either as a priority emphasis area or a 
strategy.
    As FHWA moves through the rulemaking process, FHWA will continue to 
consider all comments received. The Safety Performance Measures NPRM 
specifically asks for comment on how the Department could address non-
motorized safety performance and how State and MPOs consider such data 
in their safety programs and in selecting investments.

    Senator Ayotte. Thank you.
    Secretary Foxx. Thank you.
    Senator Blunt. Let me ask another question. It really is 
right along the line of the second question that Senator Ayotte 
asked.
    On these rules on the surface transportation proposal 
that's out now, you suggest that the department be given the 
authority to track on-duty non-driving time of drivers and 
possibly require motor carriers to compensate employees for 
that on-duty non-driving time, which is different because of 
the rule; the rule that Senator Ayotte asked about.
    Did you offer the driver on-duty non-driving reimbursement 
proposal because the new rule has had wage impact on drivers?
    Secretary Foxx. I would like to submit on the record on 
that, Senator. I think the bottom-line here is that, in the 
motor coach--we're not talking about motor coaches here. We're 
talking about trucks?
    Senator Blunt. We're talking about motor carriers.
    Secretary Foxx. Yes.
    In that space, there are some realities that are different 
than there are for trucks and I just would like to submit for 
the record for you on that; if that's OK?
    Senator Blunt. I'll let you do that.
    [The information requested follows:]

    Answer. The Agency's recent proposal in the GROW AMERICA Act would 
permit the Agency to adopt, through rulemaking, a requirement that 
certain commercial motor vehicle drivers be compensated no less than 
the Federal minimum wage for non-driving, on-duty time. The proposal 
addresses the issue that drivers are experiencing detention times at 
shipping facilities that count against their hours to drive. In many 
cases, these drivers are not being paid for their waiting time. We 
often hear from drivers that this industry practice places pressure on 
drivers to drive beyond the hours of service limits as a matter of 
economic necessity. This concern is not limited to truck drivers; 
drivers of over-the-road motor coaches also experience on-duty, not 
driving periods when they are not compensated. We believe this business 
model has a negative impact on highway safety.

    And I think that the similar question that Senator Ayotte 
asked was the assertion that these new rules, these new restart 
rules, would impact driver productivity but would also predict 
that drivers would be healthier and live longer. I'm going to 
submit a question for the record on that to ask what kind of 
data you have that indicates that drivers who are away from 
home in these breaks are somehow going to be healthier than 
drivers who, by driving under the old rules, actually got home. 
I don't find away from home, myself, is as healthy as being at 
home. And I doubt if drivers do too.
    And then, the other would be well, what's been the wage 
impact?
    [The information requested follows:]

    Answer. The FMCSA has examined the fatigue impact of commercial 
motor carrier drivers taking two nights rest between 1 and 5 am during 
their 34-hour restart. Scientific studies have shown that this two 
night period provides more restorative sleep than a single night's 
rest. At this time we do not have specific information on the impact of 
home rest in contrast to rest obtained away from home.
    Getting home has always been an issue for truck drivers. Before 
2003, the industry argued that many drivers were kept waiting (and 
frustrated) at truck stops for days on end until their so-called 60-or 
70-hour clocks could reset. The Agency adopted a 34-hour restart rule 
in 2003 in part to address that problem. Then complaints began to arise 
about drivers who were no more than 30 minutes or an hour from home, 
but had to shut down for a 34-hour restart. No matter what the limit on 
driving or on-duty time, however, there will always be some drivers 
just over the line who cannot get home without violating those limits.
    As part of each of our rulemakings, the Department is required to 
consider the costs to the regulated industry and public for which 
transportation services are provided. This is carried out through a 
notice-and-comment rulemaking process in which all interested parties 
are encouraged to submit information and data on the potential economic 
impacts of proposed regulatory actions. The Regulatory Impact Analysis 
and benefit-cost analysis for the 2011 hours-of-service final rule 
addressed the economic impacts of the rule would have on trucking 
operations. The Agency did not receive information from shippers, 
receivers or other non-motor carrier entities that would have resulted 
in different values for the estimated costs of the rule. The Agency's 
economic estimates are available in the public rulemaking docket.
    The Department has not attempted to estimate the wage impact of the 
2011 final rule, but given industry predictions that driver shortages 
will soon reach 100,000, one would expect economic demand to increase 
driver wages, irrespective of any marginal effect of the hours-of-
service rules.

    Senator Blunt. I understand Senator Nelson is coming back 
to ask a question.
    Did you establish in earlier testimony, when I wasn't here, 
on the Lynchburg derailing? Was one of the tankers have, the 
tanker that met the more current standard, that punctured and--
--
    Secretary Foxx. My understanding, and again, this is a 
matter that is under NTSB review, but my understanding is that 
it was a 1232 car.
    Senator Blunt. All right.
    I think that's all I've got but Senator Nelson is coming 
back. If we could just take a moment here.
    Secretary Foxx. OK.
    Senator Blunt. Anything else you want to talk about, 
Secretary?
    [Laughter.]
    Secretary Foxx. I sing and I dance. I don't know.
    Senator Blunt. Exactly.
    Well, it's a big job and it's an important job. You know, 
one of the things that we're looking at on this committee and 
the Finance Committee, both, are ways that we can figure out 
how to provide more funding sources for state and local 
governments. Senator Bennet and I have a bill that would take 
repatriated funds, stranded profits from overseas, let those be 
invested in an infrastructure fund to the tune of about $50 
billion which then allows $750 billion or so of state and local 
infrastructure to happen. And then, Senator Warner and I have a 
bill that would be a more traditional funding vehicle but also 
for state and local gov called the BRIDGE Act.
    I know we've got to figure out how to make this 
infrastructure work. And, one of the big challenges for you and 
for us, both, is to figure out how we can come up with a 
proposal we could all advance that would let us meet our 
infrastructure needs. I think there are great opportunities out 
there but you have to have the infrastructure it takes to meet 
those opportunities.
    Secretary Foxx. Senator, you're exactly right. And I want 
to applaud you and many others who are trying to think through 
innovative ways to help us create more capacity in the system. 
The reality is that we are underinvesting in our infrastructure 
and we have been for some time. And that's one of the reasons 
why the GROW AMERICA Act is seeking to actually increase the 
investment in infrastructure.
    Clearly there are many ways to get there. And we, of 
course, have said all along that we will propose our best 
thinking, our best solution, based on the feedback we've gotten 
from folks on the Hill. But, as consensus emerges on Capitol 
Hill around specific solutions, we've also said that we will 
keep an open ear and open mind to ideas that emerge. And so, we 
welcome the work that you're doing and others are doing to try 
to get there.
    Senator Blunt. I think there'll unlikely be one solution 
here. There's lots of tools in the toolbox and not every one of 
them will be used by everybody but, if all of them could be 
used by somebody, then suddenly, you know, we find paths 
forward. And what I find, and I'm sure what you hear all the 
time, is everybody understands there's a huge infrastructure 
need. It's just that, generally, they want somebody else to pay 
for it. And, you know, states are struggling with this. We're 
struggling with our overall funding. I think you've mentioned 
already, you know, the traditional funding is about $18 billion 
short of what we've been spending and even that string is 
running out and what do we do about that.
    Secretary Foxx. It's a tough challenge. And compounding 
that is the fact that at the state and local level, as you 
point out and I have fairly recent experience with, the 
uncertainty is so profound that many of these communities and 
these states are slowing down projects. They are slowing down 
their planning process such that, even if the Federal 
Government all of a sudden figured out a way to fund this stuff 
over the long term, it would take a while in some cases for 
folks to ramp up because they slowed down their planning 
process.
    Senator Blunt. Yes.
    And they can't even meet the--they feel like they can't so 
they're taking these off the books. I think that's true.
    And the majority has now reasserted its control and Senator 
Nelson is here.
    We did no damage while you were voting, Senator.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson [presiding]. Thank you, Senator. I 
appreciate it.
    And Mr. Secretary, welcome. Sorry for the interruption. Two 
votes were held in the interim. So, thank you for being so 
patient.
    Secretary Foxx. Thank you, Senator.
    Senator Nelson. Yesterday, the Administration published the 
Third National Climate Assessment and it confirmed what a lot 
of us suspected: climate change is, indeed, real.
    As a matter of fact, I took this committee to Miami Beach 
about a month ago and a NASA scientist testified not 
projections, not forecast, but measurements on sea-level rise: 
In the last 50 years, five to eight inches in Florida. And, of 
course, climate change and severe weather can have significant 
implications for our infrastructure.
    There's a part of A1A Coastal Highway in South Florida that 
was severely eroded in Hurricane Sandy. And Hurricane Sandy was 
way off the coast. It ended up going up to the Northeast, as we 
know.
    As the impact of climate change takes its toll on our 
infrastructure, what would you suggest that the Department of 
Transportation ought to be doing in improving standards and 
resiliency of the infrastructure that we are, then, having to 
rebuild?
    Secretary Foxx. It's a great question, Senator. And you're 
exactly right. Climate change is real and it's a reality, 
unfortunately, that we have to deal with in the infrastructure 
space. And we are mining our experiences all over the country.
    I would also point out the Hurricane Sandy area where there 
are massive investments in infrastructure and we're learning 
how to build to a higher standard. Things like, for example, in 
subway systems where the wires were set on the floor. They're 
now being set on the ceiling and they're being encased in a 
much more resilient material that will survive water. And so, 
we're learning about all of this.
    I would say that, from our standpoint, it means providing 
guidance to the states who are largely the project sponsors, in 
our transportation system, on best practices in building to a 
higher standard. It also means taking a look at, in some cases, 
height; in some cases, material; in some cases, design. And 
we're going to continue encouraging.
    In our proposal, a lot of what we're doing with our 
proposal is actually encouraging best practices in the design 
and implementation of projects. And it's an unfortunate 
reality, but we do now have to build to a higher standard.
    Senator Nelson. In the GROW AMERICA Act, the Administration 
proposed establishing a National High Performance Rail System, 
especially for Intercity Passenger Rail and considering that 
Amtrak ridership is at an all-time high and Americans are not 
driving much more than they were 10 years ago. But, in order to 
achieve our goal, we've got to have cooperation from the 
states.
    I have a very unpleasant experience in my State of Florida, 
having worked with a lot of other very courageous people for a 
long period of time. And we were ready to put high-speed rail 
right down the middle of Interstate 4; from Tampa to Orlando. 
It would have been completed by next year and we would become 
the showcase for the entire country on high-speed rail; 
something that the United States is 30 and 40 years behind 
Europe and Asia in high-speed rail. They've even got a train 
now, I can't remember if it's China or Japan, I think it's 
both, that is upwards of 300 miles an hour.
    So, despite the fact that there was $2.4 billion on the 
table for Florida, it would have paid for 90 percent of the 
cost of getting it ready to go. And the Governor did not want 
to do it because of political ideological reasons even though 
he sat on his own Department of Transportation study that 
countered what he was using as the reason; which he was saying 
that the high-speed rail was not going to make any money and 
the State of Florida would have to pick up the deficit. His own 
Florida Department of Transportation study said it would make 
money in the very first year. And, by the tenth year, it was 
going to be making a considerable amount. And that is just 
Tampa to Orlando.
    So $2.4 billion that was ready to go and it went to other 
states and the project was killed. What are you experiencing 
with high-speed rail with other state governments so that we 
can further develop intercity rail in the U.S.?
    Secretary Foxx. It's a vitally important question, Senator. 
And going from a macroperspective, we are going to have 100 
million more people in this country by 2050. That's 100 million 
more people trying to move around. And the projections are the 
congestion is going to increase unless we make substantial 
improvements to our surface transportation system. And those 
improvements must be multi-modal; can't just be one thing or 
another. It needs to be a mix.
    We are finding that, despite some of the setbacks that were 
experienced early, that many states are now stepping into this. 
I was in Texas a couple of weeks ago and there's activity 
around trying to get a faster rail connection between Dallas 
and Houston, for example. I'm aware of efforts in the state of 
Florida now, to do some of that as well.
    What is happening is folks are recognizing that our highway 
systems, as important as they are, as critical as they are, as 
population grows and needs increase, our travel times are going 
to increasingly become less predictable. And when you have 
strong robust rail systems, you can actually have predictable 
travel times. And, for folks that are taking their kids off to 
a vacation or whether they're traveling for work, time really 
is money. And I think our investments in rail will show 
themselves over the long-term.
    Senator Nelson. We have a shortage in the Highway Trust 
Fund. And yesterday, I raised the issue in the Finance 
Committee with the Secretary of Transportation in the 
Commonwealth of Virginia. And I asked about their change of the 
law back in a previous administration from a gas tax, a state 
gas tax, to a sales tax. Tell me what you think about that.
    Secretary Foxx. There are a lot of different alternatives 
out there. What Virginia did has obviously been ground shifting 
in Virginia. There are states that are taxing oil on the 
barrel. There are a lot of alternatives out there that have 
been tried and some are new, as is the case in Virginia.
    What I would say, Senator, is that this is ultimately, in 
some respects, a political question. The math, itself, is very 
clear. We're going to fall short in the Highway Trust Fund--$63 
billion over the next four years. It goes up as you go on with 
time.
    What's also clear is that the gas tax, the current gas tax 
which is not indexed, hasn't been raised since 1993, a gas tax 
has a downward facing curve. And that's a result of more 
efficient vehicles and lots of other issues. So wherever you 
set the level with a gas tax, the curve is still going to be 
going down. So there's a cliff out there somewhere.
    We recognize these realities and we've put forward our 
idea, which is a 4-year, $302 billion bill, funded with pro-
growth business tax reform. But, as I've said earlier, if there 
are other ideas that emerge be it the idea that Virginia has 
raised, be it more conventional sources, we will listen to 
Congress and try to play a constructive role in getting us away 
from where we are right now, which is looking insolvency right 
in the face.
    Senator Nelson. The Panama Canal is expanding and may be 
able to accept the larger ships by 2016. So it's going to cause 
the huge mega freighters to be able to come straight from Asia 
to the East Coast of the United States instead of having to 
unload onto rail or truck on the West Coast.
    Do you think that we're getting ready, from a 
transportation infrastructure, are we getting ready to be able 
to accept all of this new cargo capacity?
    Secretary Foxx. I think the reviews currently are mixed. 
Obviously, our West Coast ports are in really good shape; their 
depths are good; they can receive these Post-Panamax vessels 
just fine. On the East Coast, we only have two ports that are 
ready for Post-Panamax vessels. And, at the same time, there 
are countries in the Caribbean, in Europe, that are setting 
their ports up for success. And if we're competing against 
ports that are ready for the depths of these new vessels, we're 
going to lose opportunities. There's no question about it.
    And so, I know that there is ongoing work on the water 
bill, a very important piece of legislation. But, in addition 
to that, from a surface transportation standpoint, not only do 
we need to worry about the depths, we also need to worry about 
the first and last mile challenges at these ports; the ability 
to connect highway systems, rail systems, directly to the ports 
so that we can have efficient movement of freight. And that is 
another area where we are challenged as a nation, and one of 
the reasons why we must have not only a stable Highway Trust 
Fund but increased investment in our infrastructure.
    Senator Nelson. The port of Miami has been ahead of the 
curve. And they've been able to go ahead and get the 
infrastructure both with a tunnel as well as the rail 
connections that are just about both in place. Rail is already 
in place and the tunnel will open this fall. And the depths, by 
the time the big ships come, the depths in Miami will be 
dredged down to 50 feet.
    So they should be able to handle it but others, for 
example, Jacksonville, it will be upwards of 2019 by the time 
upriver is dredged to sufficient depths. And likewise, other 
ports as well. And there are many others that, for example, 
Port Everglades at Fort Lauderdale, wants to be able to handle 
the Panamax ships. Tampa is another one.
    But you're right. It's not just getting the ship up to the 
dock. Then it's unloading all of that extra container cargo and 
being able to distribute it in an efficient manner.
    Final question. You've got a fascinating job because in 
your bailiwick is also aviation. And, lo and behold, in 
aviation now, in the FAA, is now the FAA role in commercial 
spaceflight. My observation is that it is proceeding quite 
nicely. It's not fast enough for carrying humans, but those 
processes are underway in now taking commercial rockets that 
have been quite successful; putting in all the redundancies and 
escape systems that make it safe for humans.
    And although it looks like we're on a schedule for 2016 for 
that to happen, it can't happen fast enough for me because our 
only ride now to the International Space Station, which is 
longer than a football field with six astronauts and cosmonauts 
constantly onboard, our only ride is on the Russian's Soyuz 
rocket.
    And, although I do not think that there will be any 
disruption because of the considerable cooperation between the 
Russian Space Program and the American one, one that goes back 
to the middle of the Cold War in the Soviet Union, by the way, 
when we have Apollo-Soyuz. Nevertheless, you never can quite 
predict what Mr. Putin is going to do. I don't think he will do 
anything drastic because the Russians can't operate the space 
station by themselves. Their commands, many of their commands, 
have to go through Houston. Their electricity in the Russian 
part of the space station, their electricity, comes from 
American systems. So that along with the very strong desire of 
the Russian Space Program to cooperate with the Americans, I 
think, we'll keep it that way. But you have to worry about it 
when you see the escapades of Mr. Putin at this point.
    So I just wanted to share that with you. That's not on your 
daily diet but it is clearly something that we'd have to face 
as we face issues of transportation these days.
    Secretary Foxx. Absolutely.
    Senator Nelson. Does the staff have any questions?
    [Laughter.]
    Senator Nelson. OK.
    Well, Mr. Secretary, thank you for a very elucidating and 
illuminating hearing and the meeting is adjourned.
    Secretary Foxx. Thank you, Senator.
    
    [Whereupon, at 4:43 p.m., the hearing was adjourned.]
    
                            A P P E N D I X

                                 Index
A. Disparity Studies
Alabama
        City of Birmingham: Disparity Study Report, Prepared by 
        Pendleton, Friedberg, Wilson & Hennessey, P.C. for the City of 
        Birmingham, Alabama (2007)
Alaska
        Alaska Disadvantaged Business Enterprise Study--Availability 
        and Disparity, Prepared by D. Wilson Consulting Group, LLC for 
        the Alaska Department of Transportation and Public Facilities 
        (2008)
Arizona
        Availability Analysis and Disparity Study for the Arizona 
        Department of Transportation: Final Report, Prepared by MGT of 
        America for the Arizona Department of Transportation (2009)

        A Comprehensive Study of the Pima County MWBE Program, Prepared 
        by D. Wilson Consulting Group, LLC for the Pima County 
        Procurement Department (2008)

        A Comprehensive Disparity Study of the City of Tucson MWBE 
        Program, Prepared by D. Wilson Consulting Group, LLC for the 
        Pima County Procurement Department (2008)

        The City of Phoenix Minority-, Women-Owned, and Small Business 
        Enterprise Program Update Study, Prepared by MGT of America, 
        Inc. for the City of Phoenix (2005)
California
        Metro Disparity Study Final Report, Prepared by the BBC 
        Research & Consulting for the Los Angeles County Metropolitan 
        Transportation Authority (2010)

        OCTA Disparity Study Final Report, Prepared by BBC Research & 
        Consulting for the Orange County Transportation Authority 
        (2010)

        SANDAG Disparity Study Final Report, Prepared by BBC Research & 
        Consulting for the San Diego Association of Governments (2010)

        San Diego County Regional Airport Authority Disparity 
        Authority, Prepared by BBC Research & Consulting for the San 
        Diego County Regional Airport Authority (2010)

        San Francisco Bay Area Rapid Transit District, Availability and 
        Utilization Study, Final Report, Prepared by Mason Tillman 
        Assoc. for the San Francisco Bay Area Rapid Transit District 
        (2009)

        Metrolink Disparity Study Draft Report, Prepared by BBC 
        Research & Consulting for the Southern California Regional Rail 
        Authority (2009)

        Measuring Minority- and Woman-Owned Construction and 
        Professional Service Firm Availability and Utilization, 
        Prepared by CRA International for the San Mateo County Transit 
        District and the Peninsula Corridor Joint Powers Board (2008)

        Availability and Disparity Study for the California Department 
        of Transportation, Prepared by BBC Research & Consulting for 
        the California Department of Transportation (2007)

        Measuring Minority-and Woman-Owned Construction and 
        Professional Service Firm Availability and Utilization, 
        Prepared by CRA International for the Santa Clara Valley 
        Transportation Authority (2007)

        Alameda County Availability Study, Prepared by Mason Tillman 
        Associates, Ltd. for County of Alameda (2004)
Colorado
        Colorado Department of Transportation Statewide Transportation 
        Disparity Study, Prepared by D. Wilson Consulting Group, LLC 
        for the Colorado Department of Transportation (2009)

        Race, Sex, and Business Enterprise: Evidence from Denver, 
        Colorado, Prepared by NERA Economic Consulting for the City and 
        County of Denver, Colorado (2006)
Connecticut
        The City of Bridgeport Disparity Study Regarding Minority 
        Participation in Contracting, presented by Mason Tillman 
        Associates, Ltd. for the City of Bridgeport Connecticut (2005)
Florida
        The State of Minority and Women Owned Enterprise: Evidence from 
        Broward County, Prepared by NERA Economic Consulting for 
        Broward County, Florida (2010)

        Multi-Jurisdictional Disparity Study Consultant Services: 
        Hillsborough County Aviation Authority and City of Tampa, 
        Prepared by Mason Tillman Associates, Ltd. for the Hillsborough 
        County Aviation Authority Office and City of Tampa, Florida 
        (2006)
Georgia
        Georgia Department of Transportation Disparity Study, Prepared 
        by BBC Research & Consulting for the Georgia Department of 
        Administration (2012)

        Race, Sex, and Business Enterprise: Evidence from Augusta, 
        Georgia, Prepared by NERA Economic Consulting for August-
        Richmond County Georgia (2009)

        Consortium Disparity Study Update, Prepared by BBC Research & 
        Consulting for the City of Albany, Georgia; Dougherty County, 
        Georgia; Dougherty County School System; Albany Water, Gas & 
        Light Commission; and Albany Tomorrow, Inc. (2008)

        City of Atlanta Disparity Study, Prepared by Griffin and Strong 
        for the City of Atlanta (2006)

        Georgia Department of Transportation Disparity Study, Prepared 
        by Boston Research Group for the State of Georgia (2005)
Hawaii
        The State of Minority and Women Owned Enterprise: Evidence from 
        Hawai'i, Prepared by NERA Economic Consulting for the Hawaii 
        Department of Transportation (2010)
Idaho
        A Study to Determine DBE Availability and Analyze Disparity in 
        the Transportation Contracting Industry in Idaho, Prepared by 
        BBC Research & Consulting for the Idaho Transportation 
        Department (2007)
Illinois
        Report on the City of Chicago's MWBE Program, Prepared by David 
        Blanchflower, Ph.D., for the City of Chicago M/WBE Program 
        (2009)

        Race, Sex, and Business Enterprise: Evidence from the State of 
        Illinois and the Chicago Metropolitan Area, Prepared by NERA 
        Economic Consulting for the Illinois State Toll Highway 
        Authority (2006)

        Disadvantaged Business Enterprise Availability Study, Prepared 
        by NERA Economic Consulting, for the Illinois Department of 
        Transportation (2004)

        Disparity Study for the City of Peoria, Prepared by Kevin 
        O'Brien, Ph.D., for the City of Peoria (2004)
Indiana
        Indiana Disparity Study: Final Report, Prepared by BBC Research 
        & Consulting for the Indiana Department of Administration 
        (2010)
Iowa
        City of Davenport Disparity Study Regarding Minority and Women 
        Participation in Contracting, Prepared by Mason Tillman 
        Associates, Ltd. for the Davenport, Iowa (2009)
Maryland
        The State of Minority and Women Owned Enterprise: Evidence from 
        Maryland, Prepared by NERA Economic Consulting for the Maryland 
        Department of Transportation (2011)

        Race, Sex, and Business Enterprise: Evidence from the City of 
        Baltimore, Prepared by NERA Economic Consulting for the City of 
        Baltimore, MD (2007)

        Disadvantaged Business Enterprise Availability Studies Prepared 
        for the Maryland Department of Transportation, State Highway 
        Administration, Maryland Transit Administration, Maryland 
        Aviation Administration, Prepared by NERA Economic Consulting 
        for the Maryland Department of Transportation (2006)

        The Prince George's County Government: Disparity Study Final 
        Report, Prepared by D.J. Miller & Associates, Inc. for the 
        Prince George's County Government (2006)

        Race, Sex and Business Enterprise: Evidence from the State of 
        Maryland, Prepared by NERA Economic Consulting for the Maryland 
        Department of Transportation (2006)
Massachusetts
        Race, Sex and Business Enterprise: Evidence from the 
        Commonwealth of Massachusetts, Vol. I, Prepared by NERA 
        Economic Consulting for the Massachusetts Housing Finance 
        Agency (2006)
Minnesota
        The State of Minority and Women Owned Enterprise: Evidence from 
        Minneapolis, Prepared by NERA Economic Consulting for the City 
        of Minneapolis (2010)

        The State of Minnesota Joint Availability and Disparity Study, 
        Prepared by MGT of America, Inc., for the Minnesota Department 
        of Transportation (2010)

        A Disparity Study for the City of Saint Paul and the Saint Paul 
        Housing and Redevelopment Authority, Saint Paul, Minnesota, 
        Prepared by MGT of America for the City of Saint Paul and the 
        Redevelopment Authority of Saint Paul (2008)

        Race, Sex and Business Enterprise: Evidence from the State of 
        Minnesota, Prepared by NERA Economic Consulting for the 
        Minnesota State Department of Transportation (2005)
Missouri
        Race, Sex, and Business Enterprise: Evidence from the St Louis 
        Metropolitan Statistical Area 1979-2004, Prepared by NERA 
        Economic Consulting for the Bi-State Development Agency (2005)

        Disadvantaged Business Enterprise Availability Study, for the 
        Missouri Department of Transportation, Prepared by NERA 
        Economic Consulting for the Missouri State Department of 
        Transportation (2004)
Montana
        Disparity Study for the Montana Department of Transportation: 
        Final Report, Prepared by D. Wilson Consulting Group, LLC for 
        the Montana Department of Transportation (2009)
Nevada
        Availability and Disparity Study for the Nevada Department of 
        Transportation, Prepared by BBC Research & Consulting for the 
        Nevada Department of Transportation (2007)
New Jersey
        State of New Jersey Construction Services: Disparity Study 
        2003-2004, Prepared by Mason Tillman Associates, Ltd. for the 
        New Jersey Disparity Study Commission (2006)

        State of New Jersey Construction Services: Disparity Study 
        2000-2002, Prepared by Mason Tillman Associates, Ltd. for the 
        New Jersey Disparity Study Commission (2005)

        State of New Jersey Disparity Study of Procurement in 
        Professional Services, other Services, and Goods and 
        Commodities, Prepared by Mason Tillman Associates, Ltd. for the 
        New Jersey Department of State (2005)

        Analysis of Essex County Procurement and Contracting: Final 
        Report, Prepared by the University of Minnesota Disparity Study 
        Research Team for the County of Essex Disparity Study 
        Commission (2005)
New York
        The State of Minority- and Women-Owned Business Enterprises: 
        Evidence from New York, Prepared by NERA Economic Consulting 
        for the New York State Department of Economic Development 
        (2010)

        The City of New York Disparity Study, presented by Mason 
        Tillman Associates, Ltd. for the City of New York (2005)
North Carolina
        City of Charlotte: Disparity Study, Prepared by MGT of America, 
        Inc., for the City of C Charlotte (2011)

        Measuring Business Opportunity: A Disparity Study of NCDOT's 
        State and Federal Programs, Prepared by Equant for the North 
        Carolina Department of Transportation (2009)

        North Carolina Department of Transportation Second Generation 
        Disparity Study, Prepared by MGT of America, Inc. for the State 
        of North Carolina (2004)
Ohio
        The State of Minority and Women Owned Business Enterprise: 
        Evidence from Cleveland (2012)

        The State of Minority and Women Owned Enterprise: Evidence from 
        Northeast Ohio, Prepared by NERA Economic Consulting for the 
        Northeast Ohio Regional Sewer District (2010)

        A Second-Generation Disparity Study, Prepared by MGT of 
        America, Inc. for the City of Dayton, Ohio (2008)
Oklahoma
        City of Tulsa Business Disparity Study, Prepared by MGT of 
        America, Inc. for the City of Tulsa (2010)
Oregon
        City of Portland Disparity Study, Prepared by BBC Research & 
        Consulting for the Portland Development Commission (2011)

        A Disparity Study for the Port of Portland, Oregon, Prepared by 
        MGT for America, Inc., for the Port of Portland, Oregon (2009)

        Disadvantaged Business Enterprise Disparity Study, Prepared by 
        MGT of America, Inc. for the Oregon Department of 
        Transportation (2007)
Pennsylvania
        City of Philadelphia, Fiscal Year 2011 Annual Disparity Study, 
        Prepared by Econosult Corporation for the City of Philadelphia 
        (2012)

        City of Philadelphia, Fiscal Year 2010 Annual Disparity Study, 
        Prepared by Econosult Corporation for the City of Philadelphia 
        (2011)

        City of Philadelphia, Fiscal Year 2009 Annual Disparity Study, 
        Prepared by Econosult Corporation for the City of Philadelphia 
        (2010)

        Commonwealth of Pennsylvania Department of General Services: 
        Disparity Study in Building Construction and Building Design, 
        Prepared by Mason Tillman Associates, Ltd. for the Commonwealth 
        of Pennsylvania Department of General Services (2007)

        Minority Business Shares of Prime Contracts Approved by the 
        Board of Pittsburgh Public Schools, January-September 2005, 
        Prepared by the University of Pittsburgh Center on Race and 
        Social Problems (2006)
South Carolina
        A Business Underutilization Causation Analysis Study for the 
        City of Columbia, Prepared by MGT of America, Inc. for the 
        State of South Carolina (2006)
Tennessee
        City of Memphis, Tennessee, Comprehensive Disparity Study, 
        Prepared by Griffin and Strong, P.C., for the City of Memphis 
        (2010)

        Race, Sex, and Business Enterprise: Evidence from Memphis, 
        Tennessee, Prepared by NERA Economic Consulting for the 
        Memphis-Shelby County Airport Authority (2008)

        State of Tennessee Department of Transportation, Prepared by 
        Mason Tillman Associates, Ltd. for the Tennessee Department of 
        Transportation (2007)

        Final Report for Development and Revision of Small, Minority 
        and Women Enterprise Program, Nashville International Airport, 
        Prepared by Griffin & Strong, P.C. for the Metropolitan 
        Nashville Airport Authority (2007)

        Metropolitan Government of Nashville and Davidson County: 
        Disparity Study Final Report, Prepared by Griffin and Strong 
        for Nashville and Davidson County (2004)
Texas
        The State of Minority and Women Owned Enterprise in 
        Construction: Evidence from Houston, Prepared by NERA Economic 
        Consulting for the Northeast Ohio Regional Sewer District 
        (2012)

        A Historically Underutilized Business Disparity Study of State 
        Contracting 2009 Final Report, Prepared by MGT of America, Inc. 
        for the State of Texas (2010)

        San Antonio Regional Business Disparity Causation Analysis 
        Study, Prepared by MGT of America for the City of San Antonio, 
        Texas (2009)

        Race, Sex, and Business Enterprise: Evidence from the City of 
        Austin, Prepared by NERA Economic Consulting for the City of 
        Austin, TX (2008)

        Quantitative Analysis of the Availability of Minority- and 
        Women-Owned Businesses and their Utilization by the Corpus 
        Christi Regional Transportation Authority, Prepared by Jim Lee, 
        Ph.D., for the Corpus Christi Regional Transportation Authority 
        (2007)

        The City of Houston Disparity Study, Prepared by Mason Tillman 
        Assoc., Ltd. (2006)
Utah
        Race, Sex, and Business Enterprise: Evidence from the State of 
        Utah, Prepared by NERA Economic Consulting for the Salt Lake 
        City Departments of Airports (2009)
Virginia
        A Disparity Study for the Commonwealth of Virginia, Prepared by 
        MGT of America, Inc. for the Commonwealth of Virginia (2010)

        A Procurement Disparity Study of the Commonwealth of Virginia, 
        Prepared by MGT of America, Inc. for the Commonwealth of 
        Virginia (2004)
Washington
        2012 DBE Program Disparity Study, Prepared by BBC Research & 
        Consulting for the Washington State Department of 
        Transportation (2012)

        Race, Sex and Business Enterprise: Evidence from the State of 
        Washington, Prepared by NERA Economic Consulting for the 
        Washington State Department of Transportation (2005)
Washington D.C.
        2010 Disparity Study, Final Report, Prepared by Mason Tillman 
        Associates, Ltd., for the Washington Suburban Sanitary 
        Commission (2011)

        Washington Suburban Sanitary Commission 2005 Disparity Study: 
        Summary and Recommendations, Prepared by BBC Research & 
        Consulting for the Washington Suburban Sanitary Commission 
        (2005)
Wisconsin
        Disparity Study for the City of Milwaukee, Prepared by D. 
        Wilson Consulting Group, LLC for the City of Milwaukee (2010)

        City of Wisconsin, Study to Determine the Effectiveness of the 
        City's Emerging Business Enterprise Program, Prepared by Mason 
        Tillman Associates, Ltd. For the City of Milwaukee, Wisc. 
        (2007)
B. Studies and Reports

  <bullet> Expert Report in Midwest Fence Corp. v. DOT

  <bullet> Expert Report in Geyer Signal Inc. v. Minnesota DOT

  <bullet> Expert Report in Rothe Dev. Inc. v. DOD and SBA

  <bullet> Frances Amatucci, Women Entrepreneurs Securing Business 
        Angel Financing: Tales from the Field, Venture Capital (2004)

  <bullet> Ana Aparicio, Hispanic-Owned Business Enterprises in the 
        Construction Industry of Greater Chicago: Responses and 
        Personal Perspectives, for the City of Chicago M/WBE Program 
        (2009)

  <bullet> Ana Aparicio, Women-Owned Business Enterprises in the 
        Construction Industry of Greater Chicago: Responses and 
        Personal Perspectives, for the City of Chicago M/WBE Program 
        (2009)

  <bullet> Asian American Justice Center, Equal Access: Unlocking 
        Government Doors for Asian Americans: Public Contracting Laws 
        and Policies (2008)

  <bullet> S. Ann Becker and Donn Miller-Kermani, Women-Owned Small 
        Businesses in the Federal Procurement Market, Journal of 
        Contract Management 131 (2008)

  <bullet> Dana Bible, Kathy Hill, Discrimination: Women in Business, 
        Journal of Organizational Culture, Communications and Conflict, 
        Volume 11, No. 1 (2007)

  <bullet> Lloyd Blanchard, Bo Zhao, and John Yinger, Do Credit Market 
        Barriers Exists for Minority and Women Entrepreneurs?, Center 
        for Policy Research, Maxwell School, Syracuse University, 
        Working Paper No. 74 (2005)

  <bullet> David. G. Blanchflower and Jon Wainwright, An Analysis of 
        the Impact of Affirmative Action Programs on Self-Employment in 
        the Construction Industry, National Bureau of Economic 
        Research, Working Paper 11793 (2008)

  <bullet> David. G. Blanchflower, Minority Self-Employment in the 
        United States and the Impact of Affirmative Action Programs, 
        National Bureau of Economic Research, Working Paper 13972 
        (2008)

  <bullet> Boston Consulting Group, The New Agenda for Minority 
        Business Development (2005)

  <bullet> Ken Cavalluzzo & John Wolken, Competition, Small Business 
        Financing, and Discrimination: Evidence from a New Survey, 
        75(4) Journal of Business 641 (2005)

  <bullet> Ken Cavalluzzo & John Wolken, Small Business Loan Turndowns, 
        Personal Wealth, and Discrimination, 78(6) Journal of Business 
        2153 (2005)

  <bullet> Susan Coleman, Access to Debt Capital for Women and Minority 
        Owned Small Firms: Does Educational Attainment Have an Impact, 
        9(2) Journal of Developmental Entrepreneurship 127 (2004)

  <bullet> Susan Coleman, Is There a Liquidity Crisis For Small, Black-
        Owned Firms, Journal of Developmental Entrepreneurship (2005)

  <bullet> Ernst & Young, 2008 Catalyst Census of Women Corporate 
        Officers and Top Earners of the Fortune 500, available at 
        http://www.catalyst.org/knowledge/2008-catalyst-census-women-
        corporate-officers-and-top-earners-fortune-500 (last visited, 
        April 3, 2014)

  <bullet> Robert W. Fairlie and Alicia M. Robb, Minority Business 
        Development Agency Disparities in Capital Access between 
        Minority and Non-Minority-Owned Businesses: The Troubling 
        Reality of Capital Limitations Faced by MBEs, Prepared for the 
        U.S. Department of Commerce (2010)

  <bullet> Robert W. Fairlie and Alicia M. Robb, Why are Black-Owned 
        Businesses Less Successful Than White-Owned Businesses? The 
        Role of Families, Inheritances, and Business Human Capital, 25 
        Journal of Labor Economics 289 (2007)

  <bullet> Robert W. Fairlie, Minority Entrepreneurship, The Small 
        Business Economy, produced under contract with the SBA, Office 
        of Advocacy (2005)

  <bullet> Cedric Herring, Barriers to the Utilization of Targeted 
        Program Contractors: Results from Interviews of African 
        American Contractors, for the City of Chicago M/WBE Program 
        (2009)

  <bullet> Insight Center for Community Economic Development, The 
        Impact of State Affirmative Procurement Policies on Minority- 
        and Women-Owned Businesses in Five States, Best Practices, 
        Imperfections, and Challenges in State Inclusive Business 
        Programs (2007)

  <bullet> Yvonne M. Lau, Profiles on Asian Americans in Construction--
        A Study for the City of Chicago M/WBE Sunset Project, for the 
        City of Chicago M/WBE Program (2009)

  <bullet> Sang-Suk Lee and Diane Denslow, A Study on the Major 
        Problems of U.S. Women-Owned Small Businesses, Journal of Small 
        Business Strategy, 15 (2) (2005)

  <bullet> Ying Lowrey, Minorities in Business: A Demographic Review of 
        Minority Business Ownership, 298 U.S. Small Business 
        Administration (2007)

  <bullet> Ying Lowrey, Dynamics of Minority-Owned Employer 
        Establishments, 1997-2001, 251U.S. Small Business 
        Administration (2005)

  <bullet> Karlyn Mitchell & Douglas K. Pearce, Availability of 
        Financing to Small Firms Using the Survey of Small Business 
        Finances, 257 U.S. Small Business Administration (2005)

  <bullet> Craig A. Peterson and James Philpot, Women's Roles on U.S. 
        Fortune 500 Boards: Director Expertise and Committee 
        Memberships, 72 Journal of Business Ethics 177 (2007)

  <bullet> Myron Quon, Discrimination Against Asian American Business 
        Enterprises: The Continuing Need for Affirmative Action in 
        Public Contracting, Asian American Policy Review 41 (2008)

  <bullet> Howard Rasheed, Capital Access Barriers to Government 
        Procurement Performance: Moderating Effects of Ethnicity, 
        Gender, and Education, Journal of Developmental 
        Entrepreneurship (2004)

  <bullet> Elaine Reardon, Nancy Nicosia and Nancy Y. Moore, The 
        Utilization of Women-Owned Small Businesses in Federal 
        Contracting, Kauffman-RAND Institute for Entrepreneurship 
        Public Policy (2007)

  <bullet> Alicia M. Robb, & Robert Fairlie, Access to Financial 
        Capital Among U.S. Businesses: The Case of African American 
        Firms Constraints, 613 Annals of the American Academy of 
        Political and Social Science (2007)

  <bullet> Hal Salzman and Signe-Mary McKernan, Capital Access for 
        Women, Profile and Analysis of U.S. Best Practice Programs, The 
        Urban Institute (2007)

  <bullet> Jonathan Taylor, Income and Wealth Transfer Effects of 
        Discrimination in Small Business Lending, 32 (3/4) Review of 
        Black Political Economy 87 (2005)

  <bullet> Siri Terjesen, Ruth Sealy and Val Singh, Women Directors on 
        Corporate Boards: A Review and Research Agenda, 17 Corporate 
        Governance: An International Review 320 (2009)

  <bullet> Jon Wainwright, Disparity Study Methodology, National 
        Cooperative Highway Research Program Report (2010)
  <bullet> U.S. Census Bureau, Survey of Business Owners--
        Characteristics of Business Owners: 2007, available at http://
        www.census.gov/econ/sbo/getsof.html?07cbo (last visited April 
        3, 2014).

  <bullet> U.S. Census Bureau, Survey of Business Owners--Women-Owned 
        Firms: 2007, available at http://www.census.gov/econ/sbo/
        getsof.html?07women (last visited April 3, 2014)

  <bullet> U.S. Department of Commerce, Minority Business Development 
        Agency, Accelerating Job Creation and Economic Productivity: 
        Expanding Financing Opportunities for Minority Businesses 
        (2004)

  <bullet> U.S. Department of Commerce, Minority Business Development 
        Agency, Characteristics of Minority Businesses and 
        Entrepreneurs, An Analysis of the 2002 Survey of Business 
        Owners (2008)

  <bullet> U.S. Department of Commerce, Minority Business Development 
        Agency, The State of Minority Business Enterprises, An Overview 
        of the 2002 Survey of Business Owners, Number of Firms, Gross 
        Receipts, and Paid Employees (2006)

  <bullet> United States Department of Labor, Quick Stats on Women 
        Workers, 2010, available at http://www.dol.gov/wb/factsheets/
        QS-womenwork2010.htm (last visited April 3, 2014)
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Anthony R. Foxx
    Question 1. This country is desperately lagging behind in 
infrastructure investment. With funding hard to come by, and what 
funding is available primarily going through stove-piped modal 
administrations except for the limited funds in the TIGER program, we 
have to think about how we can get the biggest bang for our investments 
across modes. Given that the lion's share of infrastructure funding is 
channeled through administrative siloes, how can we optimize strategic 
investments in multimodal projects to facilitate efficient freight 
movement?
    Answer. To optimize strategic investments, the Department must 
first identify and prioritize the multimodal projects that will 
facilitate efficient freight movement. The designation of the National 
Freight Network is the first step to identifying the corridors and 
connectors that are most important to the movement of freight. However, 
it is necessary that the National Freight Network is a multimodal 
designation, and not one that is solely focused on highways and 
intermodal connections to highways.
    Another way to optimize strategic investments is to utilize data to 
inform investment decisions. The Department is focused on developing 
better data and forecasting tools so that these are available at the 
federal, state, and local level. Wider use of benefit-cost analysis for 
projects can help to prioritize investments that provide the largest 
benefits relative to the cost. States are currently required to develop 
risk-based asset management plans for their highway systems. 
Encouraging states to develop asset management plans for their entire 
freight transportation systems would help in planning future 
investments.
    With limited Federal funding available, project financing and 
public private partnerships are an increasingly important tool for 
delivering major projects. The Department maintains several programs 
which provide project finance assistance to State, local, and private 
project sponsors, reducing project costs and incentivizing greater 
investment. The Transportation Infrastructure Financing and Innovation 
Act program (TIFIA) provides long-term, flexible financing to highway 
and transit projects with dedicated revenue sources, which can make 
public-private partnerships (P3s) an attractive option. As of June 1, 
2014, TIFIA loans have supported 45 projects with more than $17 billion 
in credit assistance, contributing to nearly $64 billion in 
infrastructure investment. TIFIA has supported critical freight 
projects such as the Port of Miami Tunnel and Replacement of the Gerald 
Desmond Bridge. Other projects such as the Surface Transportation 
Private Activity Bond program (PABs) and the Railroad Rehabilitation 
and Improvement Financing (RRIF) have incentivized greater private 
sector investment in freight infrastructure. Moreover, RRIF loans allow 
financing of intermodal projects.

    Question 2. Would it make sense to move beyond the current 
formulaic funding programs toward a multi-modal, strategic model?
    Answer. There are certainly limitations to the formula funding 
model. The current formulaic funding makes it difficult to fund 
projects without a highway-centric focus. Additionally, the formula 
funds must be divided to fund both transit and freight based projects. 
Finally, because individual states determine where the formula funding 
is spent, there is a possibility that national or regional freight 
projects of significance are overlooked.
    In the GROW AMERICA Act, the Department proposes to create a 
Multimodal Freight Investment Program that would include an incentive 
grant program and a discretionary grant program. The discretionary 
program would award grants to the projects that would have the greatest 
impact on the safety, efficiency, and state of good repair of the 
freight transportation system. The incentive grant program would reward 
states that have engaged multimodal stakeholders in a comprehensive 
freight planning process. The most important features of these programs 
are that they are multimodal and dedicated to freight investment. The 
Multimodal Freight Investment Program would help fund major national 
freight projects and allow the formula funds to target important state 
priorities.

    Question 3. The Congressional Budget Office (CBO) estimates that 
the Highway Trust Fund, the main source of funding for highway and 
transit programs, will run out of cash to pay for day-to-day operations 
before MAP-21 expires at the end of the fiscal year--likely sometime 
over the summer. DOT recently came out and gave a more concrete date, 
saying the Highway Trust Fund will encounter a cash shortfall by August 
29, 2014. As a result, construction projects around the country could 
slow or come to a complete stop during the peak of construction season. 
How much additional funding will the Highway Trust Fund need to get 
through the remainder of the fiscal year?
    Answer. Based on our most recent data, the Highway Trust Fund would 
need an additional $5 billion before the end of FY 2014 and 
approximately $9 billion to get through the current calendar year.

    Question 4. Will uncertainty leading up to HTF insolvency set back 
construction projects around the country? Are we seeing that occur 
already?
    Answer. The impending Highway Trust Fund cash shortfall will have 
an impact on construction projects in the U.S. Some states have 
indicated they plan to slow down or put construction projects on hold 
due to uncertainty about Federal highway funding. Several other states 
have publicly announced that they are evaluating the situation and 
considering various options, but have not yet announced that they are 
delaying/suspending projects. I would note here that ramp-up and ramp-
down costs for construction projects can increase total project costs 
and project completion times significantly.
    States that have already taken action:

  <bullet> Arkansas--issued an Information Release indicating that they 
        are suspending some highway construction projects due to the 
        impending HTF shortfall.

  <bullet> Georgia--has announced they will be suspending its listing 
        of highway construction projects beginning in July.

  <bullet> Ohio--has decided to delay their Statewide Transportation 
        Improvement Plan (STIP) by one year.

  <bullet> Rhode Island--has halted advertising of all new, non-
        emergency highway projects.

  <bullet> Tennessee--has announced the delay of certain construction 
        projects pending a fix to the HTF shortfall.

  <bullet> Vermont--has announced that they will delay awarding 
        projects this summer until the HTF shortfall is resolved.

    Question 5. Last week, the Administration introduced their 4-year, 
$302 billion surface transportation bill. This proposal includes 
substantial funding for passenger and freight rail programs, freight 
and goods movement, and other general safety provisions. As we all 
know, increases in funding at this time are a difficult sell; however, 
we are confronted with an outdated, overburdened surface transportation 
system that is in need of serious repair. What all is on the table to 
fund the Administration's surface transportation proposal?
    Answer. The Administration proposes to fund the GROW AMERICA Act 
through a pro-growth, business tax reform, without adding to the 
deficit. The President's Budget outlined a proposal to dedicate $150 
billion in one-time transition revenue from pro-growth business tax 
reform to address the funding crisis facing surface transportation 
programs and increase infrastructure investment. This amount is 
sufficient to not only fill the current funding gap in the Highway 
Trust Fund, but increase surface transportation investment over current 
authorized levels by nearly $90 billion over the next four years. When 
taking into account existing funding for surface transportation, this 
plan will result in a total of $302 billion being invested over four 
years putting people back to work modernizing our transportation 
infrastructure. The Administration believes that a comprehensive 
approach to reforming our business taxes can help create jobs and spur 
investment, while ensuring a fairer and more equitable tax system that 
eliminates current loopholes that reward companies for moving profits 
overseas and allow them to avoid paying their fair share. The 
Administration is putting forward this pro-growth financing plan to 
encourage bipartisan efforts to support a visionary infrastructure 
plan, but is open to all ideas for how to achieve this important 
objective, and will work closely with Members of Congress of both 
parties on a solution that will invest in more job creating 
transportation projects.

    Question 6. Fuel taxes to support the HTF have not been raised in 
over 20 years. Other funding proposals, such as vehicle miles traveled 
(VMT), while they may have some merit, cannot be stood up overnight. 
Given these constraints, what do you see as the most fair and consumer-
friendly way to raise revenue in the short-term?
    Answer. The GROW AMERICA proposal, as we have articulated it, would 
accomplish the funding needs in the short term. We think it is the 
right way to go particularly given the urgency of the moment. Our ears 
and minds are open to what emerges from the Hill however. We would like 
to be in the discussions at a table with you.

    Question 7. Last year, Americans took 10.7 billion trips on public 
transportation, the highest annual transit ridership in 57 years. 
Amtrak ridership continues to be at record levels, and since 1997 has 
grown faster than any other major travel mode in the U.S. Recent 
studies have also found that Americans drive no more miles than they 
did in 2004, and that individuals age 16 to 24 drive 23 percent fewer 
miles than they did a decade ago. I point out these statistics to show 
that transportation trends in America are changing. Is the Department 
of Transportation noticing these same trends, and if so, what does this 
mean for the future of transportation in this country, specifically 
transportation funding?
    Answer. The Department's data on travel patterns reveal similar 
trends and suggest that these trends will continue for the foreseeable 
future. These trends first became apparent beginning with the ``great 
recession'' in late 2007--early 2008, but the general trajectory of 
these travel patterns has not changed despite the improving economy. 
This suggests that we will continue to experience increased public 
transportation and intercity passenger rail ridership, while vehicle 
miles traveled (VMT) decreases.
    There are many factors that are causing this long-term shift, but 
the most prevalent are changing demographics and changing lifestyles. 
There is ongoing generational shift in lifestyle preferences not only 
here in the United States, but around the world. A significant portion 
of Generation X and Y, unlike the Baby Boomers, and generations before 
them, are choosing to live in urban areas, including in densely 
populated urban cores where the need for driving is significantly lower 
and the availability of quality transit service and other alternatives 
is higher. Some choose to do so for economic reasons and some for 
social reasons. We cannot say whether their residential location and 
travel patterns will continue to differ from the older generation as 
the economy improves and the younger generation begins to have 
children, but we need to be adaptable to whichever long term patterns 
emerge.
    Though these are positive trends, they ironically pose a threat to 
the future of our current system for surface transportation funding 
which relies predominantly on Federal fuel tax revenues. Even if we 
start to experience an increase in VMT, motor fuel tax revenue will 
continue to be affected by the increased number of fuel-efficient 
vehicles on the market. While fuel-efficient vehicles have been 
beneficial to consumers and our environment, they contribute to a 
reduction in the Highway Trust Fund's resources.
    Current FHWA data indicate that the Highway Account of the Highway 
Trust Fund will likely face another shortfall before the end of FY 
2014. While the timing of the forecast is subject to change, there is 
little doubt that another funding crisis will soon be upon us. It is 
imperative that we recognize the long-term trends facing the Nation and 
their ramification on the future of the surface transportation funding. 
Finding a sustainable solution that acknowledges these factors should 
be our collective goal. After all, maintaining and improving our 
highway and transit infrastructure is vital to our economy and our way 
of life.

    Question 8. Most transportation programs are broken down into modal 
silos and are not accountable to any unifying strategic vision or 
national purpose. A major reason for this is the lack of a cohesive 
national transportation plan that examines actual travel trends and 
future needs to determine how the modes inter-relate and what 
investments are necessary. What can be done to better integrate our 
Nation's transportation programs and coordinate investments across 
modes?
    Answer. The Department recognizes that there is a great need for 
national transportation plans that unify and coordinate national 
transportation programs so that investment can be directed to where it 
is needed most. There are two separate efforts currently underway to 
address national transportation system planning. The Department is 
beginning to develop a 30-year National Transportation Agenda that will 
consider current and future travel trends, as well as how each mode 
fits into the future of the national transportation system. The intent 
of the 30-year National Transportation Agenda is to spur future 
discussion of the long-range transportation needs of the country and 
identify areas where future investment is needed.
    Additionally, MAP-21 directed the Department to draft a National 
Freight Strategic Plan and a Freight Transportation Conditions and 
Performance Report. The Department is currently working towards a final 
draft of the Freight Conditions and Performance Report that is expected 
to be completed later this year. Preliminary work on the National 
Freight Strategic Plan has already begun and will be completed in 2015. 
The National Freight Strategic Plan will emphasize the multimodal 
interactions that are necessary for the efficient movement of freight. 
One goal will be to identify the chokepoints and bottlenecks, 
particularly at intermodal connectors, where investment is necessary.
    The Department believes that both of these efforts will provide a 
unifying strategic vision to coordinate and prioritize investments 
going forward. Facilitating greater cooperation between the different 
modes is an important goal for the Department, particularly in making 
investment decisions. The Department is striving towards this goal and 
is continuing to realize improvements.

    Question 9. Congress has authorized the DOT's Disadvantaged 
Business Enterprises (DBE) program in every surface transportation bill 
since 1982. The purpose of these provisions was to address past and 
current discrimination against minority and women-owned small 
businesses, and to ensure that they are provided equal opportunity to 
compete for DOT-assisted transportation projects, such as the 
construction of highways. Does race or gender discrimination continue 
to impact transportation programs? Please provide any additional 
information and evidence DOT has compiled on this topic.
    Answer. Over the past several decades, the Department of 
Transportation and other Federal agencies have submitted similar 
disparity and other studies to Congress on which Congress has relied in 
part to find that there is a compelling need to authorize the 
Department of Transportation to create and to maintain its 
Disadvantaged Business Enterprise (DBE) Program. Unfortunately, as 
demonstrated by numerous more recent studies and data, including those 
retained in Committee files, although significant progress has occurred 
due to the enactment of the DBE program, discrimination remains a 
significant barrier for minority- and women-owned businesses seeking to 
do business in highway and transit-related markets.

    Question 10. DOT is currently conducting a comprehensive truck size 
and weight study as required by MAP-21. Recently, the National Academy 
of Sciences (NAS) Peer Review Committee issued a report highlighting 
what they believed to be methodological flaws in the study. However, 
the Federal Highway Administration (FHWA) has stated that they do not 
intend to make any changes to the truck size and weight study 
methodology. Does DOT plan to make any changes to the truck size and 
weight study to address the concerns identified in the NAS report?
    Answer. The NAS Peer Review Panel recommended a consistent 
organization of the elements within each of five desk scans, a clear 
linkage between material in each desk scan and its corresponding 
project plan, and a synthesis of methods and results from prior studies 
to the results of this Study. The Department agrees with these 
recommendations and is incorporating these changes in the final desk 
scans and related documents.

    Question 11. In their report, NAS also noted that there were 
``significant weaknesses'' in the data collections and analytical 
methods FHWA was using. Do you agree with that assessment? Please 
provide additional details to support your position.
    Answer. Although in none of the five major analysis areas did the 
NAS Peer Review Committee identify modeling approaches or data sources 
omitted from the desk scans that would be clearly superior to those 
selected by the USDOT study team, USDOT recognizes that in some study 
areas, despite using the most appropriate models and data available, 
there are some data limitations and methodological challenges to 
undertaking a robust and comprehensive analysis. The Department intends 
to describe these limitations and challenges in the Study.

    Question 12. The NAS report believes that the study is relying on 
deficient methods because there is not a sufficient amount of time to 
develop appropriate methods given the congressional timeline. NAS 
believes that these deficient methodologies can lead to inaccurate 
results. Given the public policy and safety ramifications that this 
study will have, do you believe that the study can be successfully and 
accurately completed according to the congressionally mandated 
timeline? What happens if you don't meet the deadline?
    Answer. We are focused on getting this Study right. The Department 
is committed to an objective, data-driven, approach that uses 
appropriate methods and is responsive to the requirements set forth in 
MAP-21. The Department takes congressional deadlines seriously, but if 
it takes longer than the Congressional deadline to produce a 
satisfactory Study, then we will inform Congress and take that 
additional time.

    Question 13. MAP-21 included mandatory requirements for the 
issuance of four important occupant protection regulations. DOT issued 
the seat belt rule last year. However, final rules for improving 
motorcoach roof strength, anti-ejection protection and rollover 
prevention technology are required to be issued by October 1, 2014. To 
date, there have been not been any NPRMs issued for these safety 
standards. Will DOT meet the October 1, 2014 statutory deadlines for 
these safety standards? If not, when do you believe these rules will be 
issued?
    Answer. NHTSA is working diligently to implement the various motor 
vehicle and highway safety improvements contained in MAP-21, as well as 
other rulemaking, enforcement, vehicle research, and highway safety 
activities that reduce highway injuries and deaths. For example, in 
2013, NHTSA issued a rule requiring seatbelts on motorcoaches. The 
agency already issued the NPRM for motorcoach rollover crash avoidance, 
which is part of ``Electronic Stability Control Systems for Heavy 
Vehicles,'' and plans to issue the final rule this year. The agency 
plans to issue the NPRM for motorcoach roof strength, also known as 
``Motorcoach Rollover Structural Integrity,'' this year, and will 
develop a final rule schedule after receiving and analyzing comments on 
the proposal. We have not yet determined a schedule for the NPRM for 
motorcoach anti-ejection safety measures.

    Question 14. The Administration's GROW AMERICA Act recently 
submitted to Congress proposes to modify the requirement for safety 
reviews of new entrant motor carriers by making the reviews 
discretionary rather than mandatory, which current law requires. DOT's 
report language states that the new entrant safety reviews have been 
ineffective and that new entrant knowledge testing, which has not yet 
been proposed, will address this shortcoming. What analysis has DOT 
performed of the new entrant review methodology to determine the reason 
that safety reviews are ineffective?
    Answer. FMCSA believes that safety audits conducted under the New 
Entrant Safety Assurance Program, in some cases, are an effective means 
to hold newly established motor carriers accountable for having 
appropriate safety management controls. This is particularly true in 
the case of companies run by individuals with little experience in the 
industry and little exposure to Federal safety regulations or industry 
best practices. That is not always the case, however.
    The Department based its proposal for increased flexibility in 
conducting safety audits on a program evaluation of the New Entrant 
Safety Assurance Program (NESAP) that was initiated in FY 2012. The 
preliminary results of the study found that new entrant carriers are 
indeed overrepresented in crashes. Overall, new entrant carriers have a 
crash rate that ranges from 22.3 percent to 40.2 percent higher than 
non-new entrant carriers during the period 2004 to 2009; and 28.8 
percent higher than non-new entrant carriers in the first full year 
after the New Entrant Safety Assurance Process Final Rule published 
December 16, 2008, with an effective date of December 16, 2010. In 
addition, the study found sufficient evidence to conclude that new 
entrant carriers violate safety rules more frequently than existing 
carriers. Despite this data indicating the need for new carriers to 
receive an intervention, the pre-safety audit and post-safety audit 
analysis indicated that new entrant carrier crash rates increased 
counter-intuitively after the safety audit by about 10 percent during 
the 2003-2009 period. While the crash results were better during the 
period of 2010 through 2012, the new entrant crash rate performance 
after conducting the safety audit failed to demonstrate any measureable 
improvement. There is evidence that carrier compliance with regulations 
improves modestly immediately following a safety audit, however, there 
is no evidence to support the assumption that carrier crash performance 
improves following a safety audit.
    Based on the preliminary results of the NESAP evaluation it is 
recommended that FMCSA redefine new entrant carriers as small carriers 
with fewer than five power units with limited or no experience, 
allowing FMCSA to focus resources on those carriers posing a higher 
safety risk. FMCSA is tasked by Congress with overseeing a large 
regulated population and with managing scarce government resources. The 
Agency has developed considerable expertise with a wide range of safety 
enhancing enforcement tools and programs, from comprehensive reviews to 
civil penalties to warning letters to outreach and education. The 
Agency has examined the effectiveness of many of these tools, and in 
many cases the new entrant safety audits are less valuable than other 
interventions.

    Question 15. More than twenty years ago, Congress directed DOT to 
develop and issue training requirements for entry-level commercial 
vehicle operators. In MAP-21, Congress again directed DOT to issue a 
final rule for training entry-level commercial vehicle operators by 
September 2013. However, DOT withdrew their proposed rule last year. 
When will DOT issue a final rule requiring minimum training standards 
for entry-level commercial motor vehicle drivers?
    Answer. While the entry-level driver training rulemaking is a 
priority for FMCSA, the Agency cannot now precisely project the 
completion date of a final rule as further explained below. The Agency 
anticipates awarding a contract within the next month to engage the 
services of a convener to assess the feasibility of conducting a 
negotiated rulemaking under the Negotiated Rulemaking Act (NRA) (Pub. 
L. No. 101-646, 5 U.S.C. secs. 581-590) to implement this important 
MAP-21 provision. This follows a series of public listening sessions 
that were held in 2013 and the June 2013 letter report provided by the 
Agency's Motor Carrier Safety Advisory Committee. If the convener 
suggests a negotiated rulemaking is feasible and FMCSA utilizes this 
process, however, the Agency is still required to provide a notice 
soliciting committee membership and create a charter under the Federal 
Advisory Committee Act before the negotiations could begin (NRA, 5 
U.S.C. sec. 584). While it is difficult to predict precisely how long 
negotiations would take, past experiences suggest it is normally less 
than a year. The consensus-based NPRM would then be published for 
notice and comment.
    Based on MAP-21, the Agency's current rulemaking must: (1) address 
the knowledge and skills needed for safe operation of a CMV, (2) 
address the specific training needs of those seeking hazardous 
materials and passenger endorsements, (3) create a means of certifying 
that an applicant for a CDL meets Federal requirements, and (4) require 
training providers to demonstrate that their training meets uniform 
Federal standards. The 2007 NPRM did not address endorsement-related 
training or the entry-level training of new intrastate CDL applicants 
that is now mandated by MAP-21; these additional statutory provisions 
would be addressed in the current rulemaking.
    After reviewing the MAP-21requirements, comments to the 2007 NPRM, 
participants' statements during the Agency's public listening sessions 
held in 2013, and the Motor Carrier Safety Advisory Committee's June 
2013 letter report, FMCSA determined that it would be inappropriate to 
continue with the rulemaking initiated in 2007. The Agency concluded 
that a new rulemaking would provide the most effective starting point 
for implementing the MAP-21 requirements. A new rulemaking would 
provide the Agency and all interested parties the opportunity to 
develop a proposal that focuses on the MAP-21 mandate and makes the 
best use of the wealth of information provided by stakeholders since 
publication of the 2007 NPRM.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Hon. Anthony R. Foxx
    Question 1. In 2000, the TREAD Act was enacted in response to the 
Ford/Firestone rollover issue. That bill created the Early Warning 
Reporting (EWR) System. At the time, after some expressed concern that 
the industry would continue to seek to withhold critical information 
from the public, I engaged in an October 10, 2000 Floor colloquy with 
then-Energy and Commerce Chairman Billy Tauzin in which I obtained 
Chairman Tauzin's affirmation that the bill was not intended to protect 
information from disclosure that could be disclosed under the law. 
Although the EWR proposed rule was consistent with the stated intent of 
Congress, the final rule was not. The problem with the current rule can 
be described as follows: If I make a complaint to NHTSA's consumer 
database that includes details about a serious automobile safety 
concern, that information is made publicly available. If I instead make 
the identical complaint to an automaker, the automaker is allowed under 
NHTSA's rules to classify the entire complaint as `confidential 
business information,' counter to the clear intent of Congress. I also 
raised this concern in 2010 hearings with then-Secretary LaHood and 
then-NHTSA Administrator Strickland. Will you commit to rewriting this 
regulation, consistent with the language I included in S. 2151, in 
order to ensure that only the information that truly could be withheld 
from public release under the Freedom of Information Act can be 
withheld from disclosure under EWR reporting? If not, why not?
    Answer. This is a complex issue. I committed to provide comments to 
the Committee on S. 2151, a bill introduced by Senators Markey and 
Blumenthal to make additional EWR information and certain fatality 
information publicly available and to improve the public's access to 
information on the agency's vehicle safety related databases. I will 
provide my comments to the Committee under separate cover.

    Question 2. S. 2151 also includes a provision directing automakers 
to automatically submit the accident report or other document that 
first alerted them to a fatality involving their vehicle or equipment 
to NHTSA's Early Warning Reporting database. NHTSA is then required to 
automatically make those documents public unless they are exempted from 
public disclosure under the Freedom Of Information Act (FOIA). 
Presently, these documents are only provided to NHTSA if the agency 
requests them, and they are not made public unless they are requested 
under FOIA. On May 7, I released a document that consists of GM's 
response to just such a request by NHTSA. This document--which did not 
contain any proprietary information--shows that both GM and NHTSA knew 
that the contractor the agency used to investigate a fatal Wisconsin 
accident reported the accident was linked to the fact that the airbags 
had not deployed. GM also sent NHTSA a February 2007 collision analysis 
and reconstruction report done by the Wisconsin State Patrol Academy 
that highlighted the ignition switch defect as preventing the airbags 
from deploying. The report also references other reports of similar 
problems that the Wisconsin investigators uncovered. Had this document 
been made automatically available to NHTSA, the public and independent 
safety experts, it could have provided an actual ``early warning'' and 
potentially avoided other accidents, injuries and deaths. Does the 
Department support the provision and subsequent publication in the EWR 
database of documents such as the accident report or other document 
that first alerted automakers to a fatality involving their vehicle or 
equipment to NHTSA? If not, why not?
    Answer. This is a complex issue. I committed to provide comments to 
the Committee on S. 2151, a bill introduced by Senators Markey and 
Blumenthal to make additional EWR information and certain fatality 
information publicly available and to improve the public's access to 
information on the agency's vehicle safety related databases. I will 
provide my comments to the Committee under separate cover.

    Question 3. Does the Department believe that NHTSA should be 
required to consider information contained in the EWR database when it 
is investigating potential safety defects and when it is evaluating 
citizen petitions for automobile safety standards or enforcement 
actions? If not, why not?
    Answer. When investigating potential safety defects including 
petitions, NHTSA relies on all the information it collects using the 
authority delegated by Congress. This information includes, but is not 
limited to, EWR reports as well as consumer complaint data, field 
reports, manufacturer communications including technical service 
bulletins, SCI crash reports, precedent in prior investigations and 
peer vehicle data. Given that EWR reports are already integrated in 
NHTSA standard defect evaluation and investigation process, the 
Department does not see a need to statutorily require NHTSA to consider 
EWR information.

    Question 4. Tire Identification Numbers (TINs) are 12-symbol 
alphanumeric codes required by NHTSA and are intended to assist 
consumers, manufacturers, vendors and service providers when tires are 
recalled. The agency created the TIN system in 1970 to function as a 
tire identifier in the event of a recall. According to recent press 
reports, there is no database that is searchable by TINs on NHTSA's 
database and often no way for consumers, vendors or manufacturers to 
quickly and easily access and read the TINs on tires themselves. This 
has led to accidents, injuries and deaths as people drove in vehicles 
with recalled tires that later failed. Would the Department undertake 
a) the creation of a searchable TIN database that would allow people to 
quickly search by TIN, as well as by make and model, on recalled tires 
to determine whether particular tires were part of a recall b) a 
rulemaking to require TINs to be easily accessible and machine-readable 
so that consumers, vendors or service providers can quickly determine 
their recall status and c) a rulemaking to require tire vendors to 
register tire owner information so that providing notice in the event 
of a tire recall is facilitated? If not, why not?
    Answer. The Department is committed to exploring ways to improve 
tire registrations and tire recall completion rates. NHTSA is currently 
learning more about how dealers are implementing the tire registration 
process. NHTSA also is conducting outreach to dealers to educate them 
of their obligation to provide registration cards or electronically 
register the tires at the point of sale. NHTSA intends to work with 
industry to determine the best way to increase registration rates. 
Based upon the result of these efforts, the Department will decide 
whether a rulemaking effort is necessary.
    Regarding recall completion rates, the Department believes that a 
TIN lookup that furnishes recall applicability and a calculated tire 
age could be beneficial to consumers. Such a database would improve 
customer understanding of what tires are covered by recalls as well as 
the age of the tire. A TIN, however, is different from a vehicle 
identification number or VIN. While a VIN is a unique identifier for 
every vehicle, a TIN only identifies a batch of tires made during a 
specific week at a specific plant. The TIN is not a unique identifier, 
but it could still be used to determine whether a tire is part of a 
recalled batch as well as to determine the age of the tire.
    However, we believe that tire manufacturers are best positioned to 
compile and maintain the data online, similar to our requirement that 
automakers and motorcycle manufacturers provide consumers with a free 
online tool that will enable them to search recall information by VIN 
starting this summer. Were NHTSA required to develop and maintain such 
data, properly deploying such a database would require significant 
information collection from the public, industry and stakeholders to 
assess the best method and to avoid unintended consequences. In 
addition, standing up and maintaining the related information 
technology infrastructure and data processing procedures would require 
significant resources. And before committing to a rulemaking mandating 
the TIN to be easily accessible and machine readable, we would need to 
consider the safety need, technical feasibility and anticipated costs 
and benefits.

    Question 5. What information does the Department, whether through 
the Federal Railroad Administration or some other entity, collect 
regarding toxic inhalation hazard (TIH) or other rail-security 
sensitive substances that are carried by rail? This information could 
include but not be limited to contents on specific trains, routes, and 
times traveled.
    Answer. While railroads are required to compile and analyze routing 
information for certain hazardous materials, including TIH materials, 
FRA and PHMSA may inspect this data but we do not compile or retain it.
    Subpart 1 of 49 CFR Part 172 includes requirements regarding the 
development of safety and security plans for certain hazardous 
materials (see section 172.800(b)) such as TIH, explosives, or 
radioactive materials, and additional analysis and routing requirements 
for certain hazardous materials (see section 172.820(a)).
    With regard to collection of this information we do not require 
submittal of safety and security plans or information used in a routing 
analysis. The regulations do require those subject to the requirements 
maintain a copy of the information that is accessible at, or through, 
its principal place of business. These materials must be made available 
upon request, at a reasonable time and location, to an authorized 
official of the Department of Transportation or the Department of 
Homeland Security. (See sections 172.800(d) and 172.820(i) and (j)). 
FRA reviews the railroad security plans and routing analyses, but FRA 
does not collect this specific data.
    Positive Train Control (PTC) implementation plans submitted to FRA 
are risk-based, so the routes for PTC installation are prioritized 
based on risk. FRA knows if a particular route is being PTC-equipped 
because TIH is transported on the route, but FRA does not collect or 
require other data related to hazardous materials for purposes of the 
PTC implementation plan. See 49 U.S.C. 20157 and 49 C.F.R. 
236.1011(a)(5)(i).

    Question 6. Assuming the DOT collects some information regarding 
TIH or other rail-security sensitive substances that are carried by 
rail, what does the Department do with that information? For example, 
does the DOT share that information with local officials and/or first 
responders, and if so, when (i.e., in advance of a shipment, or after a 
spill or other type of accident occurs)?
    Answer. Again, FRA and PHMSA do require detailed reports regarding 
certain rail accidents/incidents, and certain hazardous materials 
releases. For FRA, the accident reports may contain information about 
whether a TIH or other hazardous material was involved, but that is not 
specifically required. The hazmat incident data collected by PHMSA 
would indicate what hazardous material was involved in a release. While 
railroads are required to compile and analyze routing information for 
certain hazardous materials, including TIH materials, FRA and PHMSA may 
inspect this data but we do not compile or retain it.
    DOT notes that the Nation's railroads and hazardous materials 
shippers partner on voluntary efforts to educate and aid emergency 
responders. An example of this is the TRANSCAER program, a national 
outreach effort that focuses on assisting communities to prepare for 
and respond to a possible hazardous materials transportation incident. 
TRANSCAER members consist of volunteer representatives from the 
chemical manufacturing, transportation, distributor, and emergency 
response industries, as well as the Federal Government.
    Most railroads have claimed that information related to the 
quantity of TIH transported over a certain route is proprietary/
confidential as it could disclose market share and put a railroad at a 
competitive disadvantage.

    Question 7. Section 10301 of SAFETEA-LU required standards to 
address both complete and partial ejections from vehicles. However, the 
rule did not address occupant ejections through sunroof and rear window 
vehicle openings, which together have accounted for more than 12 
percent of injuries and 7 percent of deaths from ejection. In the final 
rule, NHTSA stated: ``We plan to examine field data to better 
understand the current and future extent of roof ejections, and will 
seek to learn about the future implementation of sun/moon roofs in 
vehicles and ideas about effective ejection countermeasures through 
those portals. The results of this work may find that future rulemaking 
on roof ejections could be warranted.'' What has NHTSA done to examine 
the field data and determine whether a new rulemaking is warranted? 
Please provide me with a description of all efforts to date, along with 
a timeline that describes future plans.
    Answer. After completion of the final rule, NHTSA formed a working 
group made up of members of Rulemaking, Enforcement, Research and the 
National Center for Statistics and Analysis to complete this task. The 
group started by analyzing real world crashes involving ejections 
through roof portals included in our Fatality Analysis Reporting System 
(FARS) and National Automotive Sampling System Crashworthiness Data 
System (NASS-CDS) and met with manufacturers to better understand the 
issue. The group then used this information to develop a research test 
plan for further investigation. Testing is expected to be completed 
before the end of calendar year 2014. The results of this testing will 
be used to make a management decision in 2015 regarding how to proceed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Hon. Anthony R. Foxx
    Question 1. Mr. Secretary--as you may know, my predecessor in the 
Senate, Frank Lautenberg, was a fierce advocate in the prevention of 
drunk driving. I too, share his passion to keep our roads safe and 
wanted to ask you a question in regards to drunk driving prevention 
through the use of ignition interlocks.
    These devices, which prevent a driver from starting his or her 
vehicle if their blood alcohol level is elevated, has been a proven 
lifesaver and the National Transportation Safety Board has advocated 
for the expansion of their use.
    Almost all states have some type of mandatory or discretionary 
ignition interlock program, and 36 of them have laws mandating their 
use after a first DUI conviction. Yet, of these 36, only two were 
awarded Section 405(d) Federal grants specifically designed to 
encourage states to adopt and enforce mandatory ignition interlock 
laws. Mr. Secretary, are there ways that we can improve the utilization 
of this grant program?
    Answer. MAP-21 specifies that to qualify for a grant under section 
405(d) a state must adopt and enforce a mandatory law that requires all 
offenders convicted of DUI to be limited to driving only motor vehicles 
equipped with ignition interlocks. The plain language of the statute 
sets a very straightforward requirement that an interlock must be used. 
Unfortunately, many States, including some with laws that are described 
as mandatory, include exemptions or permissions in their laws that 
allow offenders to avoid interlock use under some circumstances. Under 
the plain language of the statute, these states do not qualify for a 
grant.
    Currently, the Department provides technical assistance to states 
to help strengthen ignition interlock laws and meet the grant 
requirements. For example, in the first year of the grant program 14 
states applied for a grant and two states met the qualification 
criteria. In the second grant year, 12 states applied for a grant and 
four states qualified. The increase in awards from the first to the 
second year resulted from two states amending their laws to remove 
exemptions and establish mandatory programs.
    The Department's Grow America Act also proposes changes to Section 
405(d) that would expand eligibility for the ignition interlock grant 
program by allowing states with employer or rural exemptions in their 
interlock laws to be eligible if DUI offenders are still covered by a 
24-7 monitoring program. A 24-7 program requires DUI offenders to 
either check in with authorities periodically during each day and 
complete breath alcohol tests or use a continuous electronic monitoring 
device.
    We believe that the combination of technical assistance to states 
and refinements to the statute will enable more states to qualify for 
Section 405(d) grant funds.

    Question 2. Mr. Secretary, I am concerned that states that are 
doing the right thing when it comes to drunk driver prevention are not 
being recognized by the grant program and moreover, that the remaining 
states who are considering stronger ignition interlock laws are 
discouraged to do so through the failure of this program. I would like 
to hear your thoughts on the best ways that I can work with you and 
Acting NHTSA Administrator Friedman to improve the responsiveness of 
the 405(d) grant program as well other provisions in MAP-21 to make 
sure NHTSA is doing everything it can to ensure that the drivers on our 
roads are sober drivers.
    Answer. We believe that incentive grant programs such as the 
Ignition Interlock Incentive Program should seek a balance between 
rewarding states that have enacted effective laws and providing funds 
for states to build effective programs. Refinements to the existing 
Section 405(d) grant program have been proposed in the Department's 
Grow America Act that would seek this balance by allowing additional 
opportunities for states to qualify for incentive funds. These 
refinements would allow states with employment and rural exemptions to 
be eligible for a grant if offenders are still covered by a 24-7 
monitoring program.
    The current research shows that ignition interlocks are effective 
when they are installed on vehicles. Consequently, the introduction of 
exemptions in this grant program that would allow offenders to drive 
without interlocks or any kind of monitoring should be carefully 
considered. As a general matter, we feel these types of exemptions in 
any form undermine safety.

    Question 3. Another important safety issue that I would like to 
discuss is in regards to the General Motors recall. It is deeply 
concerning that the National Highway Traffic Safety Administration 
(NHTSA) failed to take action to identify the ignition switch problem 
and require a recall over a ten year period, despite opening two 
separate investigations of the failure of the vehicle's airbags to 
deploy in crashes. What could be included in transportation 
reauthorization proposal that could help the agency ensure that safety 
defects are identified and prevented in the early stages?
    Answer. The GROW AMERICA Act will strengthen NHTSA's ability to 
hold automobile manufacturers accountable for defects that can cost 
lives. Specifically, the Act:

  <bullet> Establishes harsher penalties for manufacturers that refuse 
        to address defective and dangerous vehicles and equipment that 
        endanger the public;

  <bullet> Provides the authority to require manufacturers to cease 
        retail sale and/or require repair of vehicles or equipment that 
        pose an imminent hazard to the safety of the motoring public; 
        and

  <bullet> Provides the authority to require rental car companies and 
        used car dealers to participate in recalls of defective and 
        unsafe vehicles.

    To increase the effectiveness of NHTSA's safety defects 
investigation, we also believe that the following steps are necessary: 
enhance the Office of Defect's (ODI) ability to use the latest 
technology to help identify possible safety defects; increase the 
public's awareness of reporting safety problems with their vehicles or 
vehicle equipment to NHTSA; and provide ODI with the personnel 
resources to address potential safety risks.

    Question 4. What changes in agency process and procedures could 
prevent another safety defect from going undetected?
    Answer. The Department continually seeks new ways to improve our 
processes. We are currently conducting an internal due diligence review 
of our processes. As part of that effort, we are reviewing the events 
leading up to this recall to see if there are areas that can be 
improved.
    For example, we are looking to improve our understanding of the way 
that various manufacturers design air bags to function when the vehicle 
loses power, considering whether we need to improve the use of Special 
Crash Investigation (SCI) in our defects screening process, reviewing 
ways to better incorporate information about remote defect 
possibilities into the investigative process, and evaluating our 
process for engaging manufacturers around issue evaluations. As a 
result of NHTSA's communication with automotive manufacturers and 
suppliers regarding air bag design and performance related to the 
position of the vehicle ignition switch, NHTSA has opened two formal 
investigations related to potential safety defects related to the air 
bag systems in certain Chrysler vehicles (MY 2006-2007 Jeep Commander 
and MY 2005-2006 Jeep Grand Cherokee vehicles and 2008-2010 Grand 
Caravan, Town and Country and Dodge Journey vehicles).
    Additionally, we are working closely with the Department's Office 
of the Inspector General audit assessing issues pertaining to NHTSA's 
actions prior to the recent GM recalls.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Anthony R. Foxx
To address concerns with implementation of Positive Train Control 
        (PTC).
    Question 1. As I mentioned in my opening statement, I am pleased to 
see that your draft legislation addresses the issue of PTC. The 
Committee has heard testimony on several recent occasions about the 
obstacles passenger and freight railroads are encountering in their 
efforts to meet the 2015 deadline, most notably the issues with the FCC 
approval process for communications towers which hasn't granted a 
single permit since MAY 2013. Can you please outline the 
administration's proposals for PTC and for addressing difficulties in 
implementation?
    Answer. The GROW AMERICA Act grants the Secretary of Transportation 
new authority in four areas: (1) to grant merit-based extensions of the 
current statutory implementation deadline for PTC systems; (2) to 
establish a schedule with milestones for PTC system implementation; (3) 
to permit provisional operation of a PTC system or component prior to 
its full certification; and (4) to allow alternative methods of 
protection in lieu of a PTC system where the alternative methods will 
provide appropriate risk mitigation against PTC-preventable accidents. 
The GROW AMERICA Act also reinforces the need for coordination between 
DOT and the FCC to assess spectrum needs and determine a solution to 
lack of spectrum availability.

    Question 1a. Why have you not included a blanket extension of the 
2015 PTC deadline since there isn't a single freight railroad and most 
passenger lines are nowhere near being compliant due to events outside 
their control?
    Answer. Based on the technical challenges that Southern California 
Regional Rail Authority (Metrolink), Union Pacific Railroad Company 
(UP), and BNSF Railway Company (BNSF) have experienced, and the other 
railroads' state of progress, the Federal Railroad Administration (FRA) 
believes it unlikely that any Class I freight railroad will be able to 
fully complete PTC system development and approval by the December 31, 
2015 deadline. Many will, however, be able to accomplish partial to 
substantial deployment. FRA believes that BNSF will most likely be the 
furthest along in the deployment process, with the other railroads 
following behind them.
    The unfortunate reality is that there are technical, financial, and 
agency review and coordination issues affecting individual railroads' 
abilities to complete PTC implementation by the December 31, 2015, 
deadline. The extent to which these issues affect individual railroads 
is not uniform. I cannot emphasize this enough. I do not believe that a 
blanket extension is necessarily the most appropriate (or effective) 
way to address the unique circumstances each railroad is facing. I 
strongly recommend that extensions be considered on a merit basis and 
only as necessary and that they take into consideration the specific 
issues affecting the particular railroad as well as the ability of the 
railroad to address the issues, the availability and effectiveness of 
alternative solutions, and the safety risks, as provided in the GROW 
AMERICA Act.

    Question 1b. In addition, I understand there are very valid 
concerns regarding interoperability under a scenario where there's 
different compliance dates for different railroads. What analysis has 
DOT done about how ad hoc compliance could impact overall operability 
of various PTC solutions for both passenger and freight railroads?
    Answer. Regardless of whether or not DOT is granted the authority 
requested in the GROW AMERICA Act, the Department anticipates railroads 
will be in varied states of compliance with the implementation mandate, 
as previously indicated. This may be either as a consequence of the 
difficulties individual railroads face in resolving the specific 
technical and other issues associated with their individual PTC system 
development and deployment efforts, or as a consequence of system 
failures once a PTC system has been fully deployed and is operational.
    Where a railroad fails to have an interoperable PTC system in 
place, for whatever the reason, the implementing regulations are 
designed to maintain a level of safety generally in accord with that 
which could be expected with an operable PTC system, by requiring 
supplementary procedures to heighten crew awareness and provide 
operational controls limiting the frequency of unsafe events and 
reducing the potential severity of any unsafe event. The implementing 
regulations further allow for unique customization of these 
supplementary procedures based on specific risk and risk mitigations.
To stress the importance of preserving 24/7 Sobriety programs as DOT 
        looks to restructure Section 405 incentive grants.

    Question 2. Drunk driving is a serious concern, and one that is a 
priority for me as we move forward with reauthorizing NHTSA. South 
Dakota has taken recent, proactive steps to address the issue of drunk 
driving. In 2011, South Dakota passed legislation to create our state's 
24/7 Sobriety Program. In MAP-21, which I supported, I fought to 
protect this program by ensuring it wasn't precluded as an eligible 
safety program. As you propose to restructure Section 405 incentive 
grants, what is the Administration's outlook on programs like the 24/7 
Sobriety Program, and what steps have you taken to ensure that states 
have the flexibility to rely on them?
    Answer. NHTSA is aware of evaluations of intensive supervision 
programs, such as the 24/7 Sobriety Program, which indicates that such 
programs can be effective in reducing DWI recidivism. In the GROW 
AMERICA Act, the Administration proposes to increase state flexibility 
with regard to eligibility for an alcohol-ignition interlock law grant 
by allowing the substitution of 24/7 intensive supervision programs for 
ignition interlock use under certain circumstances. Under the proposal, 
a state would be eligible for an ignition interlock grant even if its 
all-offender interlock law contained an exemption for employer-owned 
vehicles, provided that the state required such offenders to 
participate in a 24/7 intensive supervision program. Similarly, a state 
would also be eligible for an ignition interlock grant even if its all-
offender interlock law contained an exemption for rural residents, 
provided that such offenders live more than one hundred miles from an 
interlock service provider and they participate in a 24/7 intensive 
supervision program.
To address South Dakota concerns that more flexible 402 funds will be 
        less available.

    Question 3. NHTSA provides State and Community Highway Safety 
grants under Section 402 in addition to the National Priority Safety 
Program grants under Section 405, which are more restrictive. The 
Administration's proposal contemplates funding for Section 405 at 
higher levels than Section 402. Yet, Section 402 allows states more 
flexibility to provide for data-driven projects in support of a number 
of highway safety issues, and some states would prefer to see the 
funding levels reversed, with 402 receiving as much funding as 
possible. Can you explain the Administration's rationale for the 
proposed funding levels as set forward in your proposal?
    Answer. In MAP-21, Congress continued the approach from previous 
highway safety authorizations by extending the Section 402 State and 
Community Grant Program and providing grants to address specific 
highway safety problems with the Section 405 National Priority Safety 
Program Grant Program. In the GROW AMERICA Act, the Administration 
proposes increases in both Section 402 and Section 405 funding. The 
Administration proposes approximately 14 percent growth of the Section 
402 program and 16 percent growth in the Section 405 program over the 
life of the bill.
    Section 405 funding provides grants to states that meet specific 
grant criteria to combat highway safety issues that are significant 
concerns in virtually every State, such as occupant protection, 
impaired driving, novice driver safety, distracted driving, motorcycle 
safety, as well as State traffic safety information systems that form 
the basis for State highway safety problem identification and resource 
allocation. Section 405 provides grants to states to address all these 
safety problems while also providing incentives to states to refine and 
improve these programs, by raising the bar for qualification over the 
life of the authorization period. In addition to continuing and 
revising the existing MAP21 grant programs, the GROW AMERICA Act 
provides funding for states to address additional safety concerns: the 
growing number of pedestrian and bicycle crashes, and novice driver 
safety through the adoption of national driver education standards and 
programs developed by the driver education community.
    Section 402 grants provide funding with flexibility for states to 
address more State-specific safety problems, identified using data 
generated from the State traffic safety information systems supported 
at least in part by Section 405 grants. Much of the Section 402 funding 
is used by states to address the widespread problems of impaired 
driving, occupant protection and distracted driving. The existence of 
Section 405 grants in these areas allows states the option to devote a 
smaller percentage of their Section 402 funds to these issues and free 
up those Section 402 funds for use on other State-specific safety 
problems.
    The proposed funding increases in the GROW AMERICA Act are designed 
to advance the synergy between the National Priority Program grants and 
the State and Community Highway Safety grants by providing comparable 
increases in funding to both programs.
To express concern about reports of invasive roadside survey procedures 
        employed by NHTSA contractors.

    Question 4. I am concerned about reports regarding the National 
Roadside Survey of Alcohol and Drugged Driving that revealed motorists 
complaints of being forced off the road and asked to provide breath, 
blood and saliva samples. While combating impaired driving is a 
priority, and while survey data provide important insights to 
policymakers regarding the scope of this problem, it is important that 
the methods employed by NHTSA and its contractors respect the civil 
liberties of our Nation's motorists.
    Survey participation should be voluntary and not feel coerced as 
some have claimed.
    Can you explain how the survey was conducted and what procedures, 
if any, NHTSA employs to ensure that its testing activities--both those 
conducted by the agency itself and those conducted through third-party 
contractors -are constitutional and as unobtrusive as possible?
    Answer. The National Roadside Survey of Alcohol and Drug Use by 
Drivers is one of the most reliable sources of data on the presence of 
alcohol and legal and illegal drugs among drivers on the road. 
Information gathered through the Roadside Survey is a critical part of 
our efforts to reduce impaired driving. For example, information from 
previous surveys contributed to the passage of the 21 Drinking Age law. 
Also, data from previous surveys helped law enforcement target times 
for impaired driving enforcement.
    Procedures for conducting the Roadside Survey were reviewed and 
approved by an Institutional Review Board (IRB) for the Protection of 
Human Subjects, as required by Federal statute. This IRB approval 
process is designed to ensure that subjects of federally-funded 
research are treated with dignity, respect, and courtesy, that their 
participation is voluntary, that there is no coercion, and that 
volunteers give informed consent to participate.
    The following protocols were in place to ensure that the survey was 
conducted in accordance with law and as unobtrusively as possible:

  <bullet> The research team placed large signs, including mobile 
        electronic signboards, in the roadway in advance of the survey 
        site to alert drivers to the ``Paid Voluntary Survey'' ahead.

  <bullet> Drivers passing by survey locations were randomly selected 
        and asked if they would like to volunteer to participate in the 
        survey.

  <bullet> Law enforcement officers were present at each survey site 
        for the safety of the motorists and researchers. However, 
        officers remained outside of the data collection area and were 
        not involved in collecting data from the drivers.

  <bullet> Researchers began by informing drivers that they have done 
        nothing wrong and that they are free to leave at any time. 
        Researchers also gave each driver an information sheet 
        describing the study, stating clearly that the survey is 
        voluntary, and explaining that no personally identifying 
        information will be collected.

  <bullet> If researchers encountered a driver who appeared to be 
        intoxicated, for the protection of the driver and other 
        motorists researchers offered a series of options (e.g., 
        substituting a sober passenger as a driver in the vehicle; 
        having a researcher drive the vehicle home or to a hotel; 
        hiring a cab). (No driver has ever been arrested at a survey 
        site under this program.)

    NHTSA is committed to its mission of reducing traffic deaths and 
works closely with State partners to develop and implement effective 
traffic safety programs. The agency also fully recognizes the 
sensitivity of research activities of this nature and takes great care 
to ensure that anonymity is preserved and individual rights are not 
compromised.

    Question 5. To request an update on when the Administration expects 
to formally send up senior nominations including Deputy Secretary, FHWA 
and NHTSA.
    I sent a letter to the President in March 2014 urging him to act 
swiftly to fill the vacant Administrator position at NHTSA. In that 
letter, I explained my view that though the Acting Administrator and 
career staff carry on the work of the agency during periods where there 
is not a confirmed Administrator, as is the current situation, a 
sustained absence of leadership can send a mixed message, particularly 
when it comes to the important safety mission entrusted to NHTSA. The 
recent recalls of General Motors' vehicles have once again put a 
spotlight on the Office of Defect Investigation's process for 
identifying and addressing safety defects. It is important to ensure 
that there is a Senate confirmed Administrator in place to provide 
necessary leadership in this and other areas. Can you provide an update 
to this Committee on what progress has been made with respect to 
identifying and nominating a candidate to fill this position?
    Answer. I share your interest in the importance of having a 
confirmed Administrator at NHTSA and understand the White House Office 
of Presidential Personnel is working on finding the appropriate 
candidate for this vacancy. In the interim, I have full confidence that 
NHTSA's safety mission continues to be the top priority for the 
agency's current leadership and staff. My Department looks forward to 
providing the Committee with more information on this nomination in the 
near future.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                          Hon. Anthony R. Foxx
    Question. Over the last several years we've seen fatalities of 
pedestrians and bicyclists increase, even as overall traffic fatalities 
are falling. These modes account for over 5,000 deaths and 115,000 
serious injuries a year.
    As you know, I have written to your department in the past 
requesting a separate performance measure for non-motorized 
transportation users. In fact, I have introduced legislation that would 
ensure states measure fatalities of both motorized and non-motorized 
users, so they may identify safety hazards on their roads.
    In March, the Federal Highway Administration (FHWA) released a 
draft rule of the safety performance measure. Why did this measure not 
include a separate non-motorized performance measure that would improve 
data collection and encourage states to focus on reducing these 
fatalities?
    Answer. Pedestrian and bicycle safety is one of my top priorities. 
All modes in DOT strongly support this priority and will continue to 
work collaboratively to do so. More information about DOT's bicycle and 
pedestrian work in this area is available at: http://www.dot.gov/
bicycles-pedestrians.
    In the Notice of Proposed Rulemaking (NPRM) for Safety Performance 
Measures (available at: http://www.gpo.gov/fdsys/pkg/FR-2014-03-11/pdf/
2014-05152.pdf), as required by MAP-21, we are proposing the 
establishment of one measure for each of the four areas mandated by 
MAP-21: number of fatalities, fatality rate, number of serious 
injuries, and serious injury rate. Our proposed measure is consistent 
with the focus of the Highway Safety Improvement Program, which is to 
reduce all fatalities and serious injuries--including those involving 
pedestrians and bicyclists.
    States are already using and reporting a pedestrian fatality metric 
through NHTSA's Highway Safety Program. Just this spring, NHTSA reached 
a further agreement with the Governors Highway Safety Association 
(GHSA) to add the requirement for states to develop a bicycle safety 
performance target. These will begin with FY 2015 highway safety 
grants. You can be assured that both NHTSA and FHWA are working 
cooperatively on safety performance measures to spur states to achieve 
the national goal of reducing fatalities and serious injuries for all 
users.
    The Department supports a data-driven approach to addressing safety 
issues. As states update their Strategic Highway Safety Plans (SHSP)--
the statewide-coordinated safety plan that provides a comprehensive 
framework for reducing all fatalities and serious injuries on all 
public roads--they bring pedestrian and bicyclist interests to the 
table and look at crash trends. An SHSP identifies a State's key safety 
needs and guides investment decisions toward strategies and 
countermeasures with the most potential to save lives and prevent 
injuries. The majority of states already include pedestrian and 
bicyclist safety in their SHSPs either as a priority emphasis area or a 
strategy.
    As FHWA moves through the rulemaking process, FHWA will continue to 
consider all comments received. The Safety Performance Measures NPRM 
specifically asks for comment on how the Department could address non-
motorized safety performance and how State and MPOs consider such data 
in their safety programs and in selecting investments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                          Hon. Anthony R. Foxx
    Question 1. The rail industry has not been able to install antennas 
that will be needed to make Positive Train Control work for over a year 
while the FCC tries to develop a workable process to handle the 22,000 
applications they expect. What are you doing to help move this process 
forward?
    Answer. FRA has worked closely with the FCC and other stakeholders 
throughout the development of the Program Comment that will apply to 
most of the antennas within the railroad right-of-way necessary for PTC 
implementation and was adopted by the Advisory Council on Historic 
Preservation in May 2014. FRA's primary role is as a technical resource 
for the FCC to enable it to better understand the potential 
ramifications of various policy and technical options that it is 
considering to facilitate the PTC tower application-review process. The 
FCC is responsible for compliance with the National Historic 
Preservation Act and the National Environmental Policy Act as they 
relate to its approval of communication system towers and stations. FRA 
has no statutory or regulatory authority over spectrum allocation and 
availability or communication systems tower deployment. FRA has 
provided, and will continue to provide, the FCC with all possible 
technical assistance as the FCC implements the Program Comment and 
approves the antennas necessary for PTC system implementation.

    Question 2. The new truck driver hours of service rules your 
department put in place in July 2013 are having a substantial impact on 
productivity. To justify the change your department speculated that 
hours of service would make drivers healthier and live longer. Also, 
your department recently completed a congressionally mandated study on 
the rules' restart provision that acknowledged that your rule changes 
have put more trucks on the road during daytime hours.
    What plans does your Department have to measure and try to confirm 
whether these speculative health benefits will actually be realized? 
Also, what plans does your Department have to evaluate the daytime 
driving safety impacts of putting so many trucks on the road at the 
same time?
    Answer. The Hours-of-Service rule has been in place almost a full 
year; a year in which the industry has seen higher profitability than 
any year since 2009. Only those drivers who were working more than 70 
hours per week are affected by having their work limited to an average 
of 70 hours per week, which is still nearly double the national 
standard of a 40-hour work week. The benefits of the rule are not 
speculative. They are supported by the best available science on the 
relationship between increased sleep (for sleep-deprived groups, like 
truck drivers) and increased life expectancy. FMCSA is considering a 
range of research projects to evaluate the effect of the 2011 final 
rule, including the two-night requirement that some argue puts an 
excessive number of trucks on the road early in the morning. The Agency 
will announce its research plans in due course and seek industry input 
and cooperation in refining them and carrying out the studies.
    This rule also does not prevent carriers and drivers from setting 
their own schedules, nor does it restrict drivers from being on the 
roads during any time of the day. Only drivers who run out of time 
during the work week and exceed 60 hours of work in 7 days or 70 hours 
in 8 days, and need to begin a new work week as soon as possible would 
have to use the 34-hour restart, including two nighttime periods from 
1-5 a.m. Even then, there is no requirement that such a driver hit the 
road at a specific hour. Less than 15 percent of long haul truck-
drivers are affected by the 34-hour restart.
    In our regulatory analysis, the Agency estimated that the changes 
to the hours of service rule would yield not only safety benefits in 
lives saved, quantified at 19 lives saved per year, as well as benefits 
to driver health, including $280 million in savings from fewer crashes 
and $470 million in savings from improved driver health.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                          Hon. Anthony R. Foxx
Questions on Pipeline and Hazardous Materials Safety Administration
    Question 1. There are considerable Bakken crude testing and survey 
efforts under way by oil producers and shippers. 17 companies submitted 
over 1,100 test results to their trade association-representatives of 
which I know plan to walk PHMSA through the results when they are 
ready.
    The North Dakota Petroleum Council also plans to collect 150 total 
samples from both well sites and rail facilities. These efforts will 
provide a substantial amount of data to PHMSA on the characteristics 
and behavior of Bakken crude.
    How will this data be utilized by PHMSA, and do you expect it to 
settle questions surrounding Bakken crude and how it compares to other 
crude types?
    Answer. Safety is my number one priority as Secretary of 
Transportation. We appreciate the efforts of the industry to collect 
and analyze crude oil data following our request to share this 
information. As we've said, more needs to be understood about this 
crude oil, and our safety experts are reviewing the data as we also 
continue to collect and analyze our own data. This testing data is 
critical to our comprehensive approach.
    As part of its on-going efforts, PHMSA has supported the American 
Petroleum Institute Standards Committee initiative to develop industry 
standards for proper sampling techniques, testing criteria, and testing 
frequency for crude oil. PHMSA has actively participated in the 
discussions during working groups sessions held to date and plans to 
continue up through expected completion in July. PHMSA uses the data 
collected on crude oil characteristics in conjunction with physical 
testing of tank car integrity and predictive modeling tools to gather 
data on tank car performance in accident scenarios to develop its 
proposals.
    The data submitted to date and any submitted in the future will be 
analyzed and compared to PHMSA's sampling and testing results. PHMSA is 
also actively involved in an American Petroleum Institute working group 
tasked with developing industry best practices, including those 
regarding testing and sampling methods for crude oil.

    Question 2. Will it inform the rulemaking process your department 
already has underway?
    Answer. Yes. Based on PHMSA's own testing and sampling efforts, 
combined with the voluntarily submitted testing data by industry, PHMSA 
better understands the unique properties of crude oil. This 
understanding has led to the development of a comprehensive rulemaking. 
PHMSA has used the data collected on crude oil characteristics in 
conjunction with physical testing of tank car integrity and predictive 
modeling tools to gather data on tank car performance in accident 
scenario to develop its proposals. PHMSA is confident the proposals in 
our rulemaking will account for the unique characteristics of crude oil 
and improve safety and looks forward to public comment on these 
proposals and the data that supported their development.

    Question 3. Mr. Secretary, last week you announced you sent a 
``comprehensive package'' of rules to OMB intended to address rail 
safety. I understand you are unable to comment on the specific details, 
but I assume there will be some treatment of rail car design and how to 
address cars currently in service. I have been informed that a part of 
the technical analysis your department is considering for rail car 
design standards is a study by the University of Illinois. But I also 
understand that study is currently undergoing peer review. How will the 
results of that peer review be incorporated into the proposed 
regulatory actions the Department is considering?
    Answer. The rulemaking that is currently pending focuses on a 
variety of topics from tank car design to possibly classification 
issues.

                                  <all>
</pre></body></html>
